<html>
<title> - PRIORITIES, PLANS, AND PROGRESS OF THE NATION'S SPACE PROGRAM</title>
<body><pre>[Senate Hearing 112-576]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-576

 
     PRIORITIES, PLANS, AND PROGRESS OF THE NATION'S SPACE PROGRAM

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
76-351                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857">[email&#160;protected]</a>custhelp.com.  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2012....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................     4
    Prepared statement...........................................     6
Statement of Senator Udall.......................................     8
Statement of Senator Rubio.......................................    33
    Prepared statement...........................................    33
Statement of Senator Boozman.....................................    38
    Prepared statement...........................................    38

                               Witnesses

Hon. Charles F. Bolden Jr., Administrator, National Aeronautics 
  and Space Administration.......................................     9
    Prepared statement...........................................    11
Neil deGrasse Tyson, Ph.D., Astrophysicist, American Museum of 
  Natural History; Director Hayden Planetarium, New York City....    40
    Prepared statement...........................................    42

                                Appendix

Response to written questions submitted to Hon. Charles F. 
  Bolden, Jr. by:
    Hon. Bill Nelson.............................................    49
    Hon. Barbara Boxer...........................................    50
    Hon. Mark Warner.............................................    55
    Hon. Tom Udall...............................................    57
    Hon. Kay Bailey Hutchison....................................    64
Response to written questions submitted to Neil deGrasse Tyson, 
  Ph.D. by:
    Hon. Bill Nelson.............................................    74
    Hon. Tom Udall...............................................    75
    Hon. Kay Bailey Hutchison....................................    75


     PRIORITIES, PLANS, AND PROGRESS OF THE NATION'S SPACE PROGRAM

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
Room SR-253, Russell Senate Office Building, Hon. Bill Nelson 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning.
    Mr. Administrator, Senator Hutchison and I just solved your 
problems.
    [Laughter.]
    Senator Hutchison. We look forward to working with you on 
it.
    Senator Nelson. We are delighted that you are here.
    Thank you, General Bolden, for your service to this 
country. A long and distinguished career in the United States 
Marine Corps, the Astronaut Office, and now as the 
Administrator of NASA, we are most appreciative of your 
personal service and your commitment to this country and your 
continuing service.
    This past year has been a real busy one for NASA. What a 
monumental achievement it was to complete the construction of 
the Space Station, and now that crew members don't have to 
focus on assembly of the ISS, they are getting on with the 
important research up there. Remember, this was one of the 
things that John Glenn kept pounding over and over, as a 
Senator--it is hard to believe it has been 14 years since his 
retirement. But he is still at it, as you know.
    And we just had the 50th anniversary of his Mercury flight 
celebration, and John was at it again, saying the same thing--
research, research. Utilize that facility up there that we 
have. And we have six people up there right now.
    And better cancer treatment delivery systems are being 
developed. We have had breakthroughs in vaccine research, and I 
never want to miss the opportunity to point out that we have a 
National Laboratory on the Space Station thanks to Senator 
Hutchison and that in this lab they have now developed the 
processes and the drugs, basically, that are now in their final 
FDA trials as a vaccine for salmonella and another drug that is 
in its initial FDA trials that is a vaccination for MRSA, which 
is the explosive bacteria that ravages so many hospitals that 
they find it very difficult to find drugs that can control it.
    And so, in this space program, we have discovered 
techniques for performing remote ultrasounds. And recently, we 
have taken another great step forward, and this was something 
again that I give great credit to Senator Hutchison. The Alpha 
Magnetic Spectrometer was delivered and is measuring cosmic 
rays, seeking answers to some of the universe's best-kept 
secrets, such as the nature of dark matter.
    And so, now that the station is complete, NASA then retired 
the Space Shuttle. And remember, why did it retire it? Because 
if you remember, when we lost Columbia in 2003, Admiral 
Gehman's commission that did the investigation said you fly the 
Space Shuttle just as long as you have to to build the Space 
Station because of taking up the components that have been 
developed to fit in the cargo bay. And once it is completed, 
you replace the Space Shuttle with a safer rocket.
    And if you look at the designs of the commercial 
competition that is going on, you find that the crew is on the 
top of the rocket with the escape system so that if you have an 
explosion on the pad, you can save the crew. You can save the 
crew all the way to orbit by detaching the capsule and bringing 
the crew safely back.
    NASA's very dedicated and talented workforce operated the 
Space Shuttles for 30 years, and it helped us open a whole new 
chapter in our space exploration and a window into the cosmos. 
We did that by launching and servicing and repairing and fixing 
over and over again the Space Telescope, Hubble, and protecting 
our way of life by deploying national security satellites and 
advancing our knowledge of the solar system by launching 
interplanetary probes.
    You have heard a lot about the very moving stories of the 
efforts to have the final Space Shuttle mission to perfection, 
absolute perfection while most of that workforce knew that they 
were going to be laid off. Well, that is the kind of dedicated 
and proud workforce that America needs to continue to have in 
our next generation of exploration systems.
    Now we know we have the SLS and the Orion programs going 
ahead. One of the things we are going to discuss, General, is 
that we don't think you have enough in your budget for Orion. 
You have got to be able to have an Orion, a capsule that is 
completed, to put on top of a rocket, the SLS.
    Late this spring, major components for Orion's upcoming 
test flight are going to arrive at the Cape, and workers will 
finish assembling and testing the capsule for a 2014 launch. In 
2 years, we are going to launch Orion, and it is going to go 
through tests that will go out into an elliptical orbit so that 
it can come back in a ballistic reentry and test all of those 
reentry systems.
    The SLS program is continuing the engine testing now at the 
Stennis Space Center and is preparing detailed design 
specifications for the most powerful rocket in history. Work 
continues at the Kennedy Space Center as well, overhauling an 
historic launch pad for NASA's next steps into the solar system 
that was used to launch Apollo and the Shuttle programs.
    And by the way, the Director of the Kennedy Space Center 
told me that he has something in between now and October the 
1st in this fiscal year, close to $400 million of modernization 
of that space center just in this period of time--that is about 
8 months, 7 months--in order to get the space center ready for 
the new systems.
    Meanwhile, NASA continues to crank out the science missions 
with almost 100 spacecraft either in operation or under 
development. And last year, we saw MESSENGER enter orbit around 
Mercury. It was first mission to the planet in nearly 40 years. 
And much, much farther away from the Sun, 11 billion miles, the 
Voyager, Voyager 1 spacecraft, is probing the outer reaches of 
our solar system.
    And looking out into the galaxy, the Kepler planet-hunting 
telescope has discovered over 2,000 potential planets, and over 
60 of them have been confirmed. We have even found a planet in 
the so-called habitable zone, a habitable zone of its star. And 
we are looking forward now, as we reach out into the cosmos, of 
confirming many more planets in the coming months.
    And this past November, NASA launched the largest and most 
capable rover ever in route to an August landing of Mars. This 
thing is amazing. It is the size of a Volkswagen. It is going 
to have two eyes that pop up, and as it roves, we are going to 
see it real time with the delay of the transmission from as far 
away as Mars.
    It has got a scooper that is going to go down and scoop up 
the Martian soil and then analyze it. It has a beam that is 
going to zap rocks so that we can analyze the chemical 
components.
    NASA also continues its mission to keep watch over our home 
planet, seeking to understand the complicated interactions of 
the Earth's dynamic systems. And of course, the first ``A'' in 
NASA--is aeronautics. Aeronautics research continues as NASA 
continues to look for new ways to improve aviation safety and 
revolutionize air transportation.
    Hallelujah, we finally passed the FAA bill. We can start 
getting moving to the next generation of air traffic control. 
All of that is going to come off of the satellites. Where did 
the satellites come from? They came from our space program.
    And NASA continues to reach out to students in all 50 
States, inspiring and educating our next generation in ways 
that only this space agency can. So today we are here to see if 
we can continue the progress of the past year through this next 
year and beyond.
    The President has sent us a 2013 budget that is essentially 
flat with the previous year's enacted level, which, for NASA, 
is relatively good, given that most of the Government agencies 
got whacked. And so, Senator Hutchison and I are pleased to 
have the NASA Administrator here to talk about the President's 
proposal. And I am looking forward to this productive 
conversation.
    Now we will get into the fact of the recent stories about 
some of the agency's sensitive data, including some of the 
algorithms for the International Space Station, that they were 
compromised and some NASA mobile devices were stolen. There has 
been no effect upon the Space Station, and I want the 
Administrator to address that.
    There are also reports that foreign intelligence 
organizations were thought to be involved in the hackings of 
additional NASA computer systems, which is not unusual, by the 
way, because foreign intelligence operations, as well as rogue 
operators all over the globe, are trying to hack into every 
computer system of the United States Government. And it goes on 
in massive numbers every day.
    Space travel is an international endeavor. And having this 
type of information out of our control certainly could 
compromise NASA's status as a place where we can secure our 
data.
    The President's request is about $2 billion under the 
amount this committee authorized for the agency, leaving us 
with some tough choices on how to preserve the balanced 
approach for NASA. But safety and security of information can't 
be on the chopping block, and we will address that.
    So, looking beyond the President's address, we are very 
pleased to have astrophysicist Neil Tyson here for our second 
panel to talk about the broader context of NASA and what space 
exploration means to the country. Dr. Tyson has made a career 
out of discussing the very complex issues associated with space 
science and exploration in a way that educates and captivates 
and excites the public.
    And Dr. Tyson is no stranger to the subject of our space 
program, having been appointed twice to presidential panels 
examining the future of NASA and the aerospace industry.
    So I am really looking forward to the testimony of both of 
you all, and I turn to my partner, and I say my partner because 
we wouldn't have a NASA authorization bill back in the fall of 
2010 had it not been for this lady right here. And we wouldn't 
have had the funding over the past funding cycles that has kept 
NASA at a much better level than a lot of other agencies than 
if it were not for Senator Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    And I want to say that you are certainly downplaying your 
role in NASA, and the commitment that you have has been 
absolutely fabulous and important for our ability to pass an 
authorization bill, which a lot of people didn't think we 
could, and then further to help get the appropriations that 
would keep NASA in a place where it can really do the job that 
we are asking it to do and which we basically agreed to do. So 
we are here to try to keep that momentum going in the right 
direction.
    I was out at Johnson. The Johnson Space Center has a 
wonderful program for Cub Scouts. It is not in NASA, but it is 
in the Visitors Center. And Cub Scouts come from all over 
Texas, and they have an overnight in the Visitors Center. And I 
was with a group of those Cub Scouts recently, and the question 
they asked me was why has America given up on space flight?
    Now that was in the last week. And of course, I said we are 
not giving up on space flight. It is very important to move 
forward. But our Shuttles were wearing out. So we are now 
rebuilding to go beyond where we have been before.
    But that is not out there in the public, and we need to do 
the things that assure our young people, who are the ones we 
want to entice into science and loving exploration and knowing 
what it has done for our country, to stay with us and to 
understand this importance.
    So that brings me to the agreement that we finally got last 
year with this administration. And I want to say what we have 
agreed to. We have agreed to develop the heavy launch vehicle 
to carry the Orion crew exploration vehicle to destinations 
beyond low-Earth orbit.
    We have agreed to bring to fruition the beginning of 
operational commercial cargo delivery flights to the 
International Space Station.
    We have agreed to support the development of commercial 
capabilities to launch crew to and from low-Earth orbit, 
focusing initially on transporting crews for the International 
Space Station.
    And we have agreed to support the ongoing development of 
the James Webb Space Telescope to not only replace the amazing 
Hubble Space Telescope, but also to see even more detail 
further into the universe.
    So we agreed to all those things. But Mr. Administrator, 
the actions don't seem to be following the words of the 
agreements, and that is why I am glad that we are having this 
hearing and hoping that we can all have not only the words, but 
the actions that will take us in the direction that we have 
agreed we should go.
    It took awhile to finally get the program offices open for 
Orion and the Space Launch System. And finally--late last 
year--we were able to come to an agreement that we would move 
forward on that.
    The Fiscal Year 2013 budget request was our opportunity to 
review the actions of the administration toward providing the 
funding needed to meet our agreed-to activities. But reviewing 
that budget and the call that you made to me gives me great 
concern, and I have to question the degree of the commitment 
that we made, all of us together, to go forward for all of the 
things that we said were our priorities.
    So now we all understand that we have fiscal challenges. 
But I believe within the budget that we have, which, as the 
chairman has said, is basically pretty flat considering the 
rest of our budgets, knowing that exploration is not something 
that can be totally prescribed and adhered to because things 
happen when you are breaking barriers and you are doing new 
things that you have to address.
    But I think we have the available funds. It is a matter of 
how we put those funds into the actual implementation, and I 
have questions about the amount requested and the procurement 
approach that is taking place for the Commercial Crew 
development. I remain concerned about the loss of critical 
workforce and skills that we must have to continue NASA's 
advances forward into the future.
    I want to hear what you have to say and hope we can get 
back on the same page where the budget meets the agreed-to 
goals. I am very pleased that Dr. Tyson is here because he is a 
scientist, and of course, that is a very crucial part of the 
big picture that we need to develop.
    Dr. Sam Ting, who really started the whole focus on the 
spectrometer and who, for a Nobel Laureate, is a fighter at 
heart, I have to say, because he was told by a previous 
Administrator that there wouldn't be the ability to take the 
spectrometer up and that the payload would not be able to be 
done. But he fought. We fought with him. We supported Dr. 
Ting's request because we knew that that was a future that was 
vital for the Space Station.
    Dr. Ting made a speech to a scientific group in Texas in 
January, and the most graphic thing that he showed through a 
chart was some of the most visionary research that we have 
embarked on in America in the physics field. (His Nobel 
Laureate designation was for physics).
    And he showed the things that we thought would come, the 
goals that we had for these visionary research projects. And he 
put down about six or seven. And then he put the results that 
we got, which were totally different from the goal and more 
important and better.
    And that is what he foresees for the cosmic rays that we 
are now getting hits on in the spectrometer. Because we have 
already had more hits of cosmic rays on that spectrometer than 
ever in the history of space exploration, and he believes that 
the goal is to find out what the dark matter is and how can we 
harness it for energy that may be used for a Mars settlement or 
may be something that we could use on Earth, but you can only 
do it in space.
    So he said here is our goal, but who knows what it will 
give us? Who knew when we went into space in the first place 
that we would capture satellites and use space for national 
security purposes? Who knew that we would find many uses for 
Velcro? Who knew that we would get MRIs and the huge medical 
breakthroughs that we have had?
    So I am committed in my last year to assure that we go in 
the right direction, utilizing our resources wisely, and that 
is why I changed appropriations committees because I so believe 
in NASA and its potential for our country. And I wanted to make 
sure that while I am here that we don't fudge on human space 
exploration and we don't cut NASA to the quick because that is 
where our corporate knowledge is.
    And I say ``corporate'' in the Government sector, but that 
is where our expertise and our past experiences are that will 
take us to the future in the most efficient way.
    So I hope that we can work together to address the concerns 
that I have and get us on track. I am committed to commercial 
being a part of our future, but not at the expense of our vital 
NASA employee sector and the building of the next vehicle that 
is going to take us beyond where we are. We can't fudge on the 
future in that way.
    So I think you know how I feel, and I hope that we will be 
able to work together. I don't doubt your sincerity in shared 
goals, but what I am very concerned about is the implementation 
that is reflected in the numbers of the budget that the 
President and the administration released just a couple of 
weeks ago and its relationship to our shared goal.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

           Prepared Statement of Hon. Kay Bailey Hutchison, 
                        U.S. Senator from Texas

    Thank you, Mr. Chairman, for convening this important hearing on 
NASA's proposed budget for Fiscal Year 2013. This year marks the first 
year that the Committee, NASA, and this Administration are in formal 
agreement on the objectives and approach to future development of U.S. 
human spaceflight capabilities.
    We have agreed to develop the heavy-lift launch vehicle to carry 
the Orion crew exploration vehicle to destinations beyond low-Earth 
orbit.
    We have agreed to bring to fruition this year the beginning of 
operational commercial cargo delivery flights to the International 
Space Station.
    We have agreed to support the development of commercial 
capabilities to launch crew to and from low-Earth orbit, focused 
initially on transporting crews for the International Space Station.
    Finally, we have agreed that it is important to support the ongoing 
development of the James Webb Space Telescope, to not only replace the 
amazing Hubble Space Telescope, but to help us see even more detail--
and further--into the universe.
    We have all spoken the right words about those agreements in recent 
months, and that is important, because it reflects the fact that NASA 
does have a plan for its future. NASA is not ``adrift'' as some have 
been saying for the last 3 years--since the 2010 Budget Request put an 
asterisk next to the proposed funding for exploration programs, and set 
up the Augustine Committee to review options for the future. However, 
actions, as always, speaker louder than words. The Congress took action 
in late 2010 by passing the NASA Authorization Act, whose authorization 
levels are still in force for Fiscal Year 2013.
    NASA has taken action in establishing the program offices for Orion 
and the Space Launch System, and beginning the detailed work necessary 
to bring those vehicles into production and operations. The Fiscal Year 
2013 Budget Request represents our opportunity to review the actions 
the Administration has taken with respect to providing NASA the funding 
needed to meet all of the agreed-upon activities.
    Unfortunately, as we have reviewed the proposed Budget these past 
several weeks, I have concerns about the degree of commitment of the 
Administration to meeting our shared objectives. We all recognize that 
this Nation has enormous fiscal challenges and that any allocation of 
taxpayers' dollars must be given very careful consideration and very 
close scrutiny. That consideration requires each of us to establish 
clear priorities for funding, and to identify the most efficient ways 
to use the funds eventually appropriated.
    Despite the very real fiscal challenges we face, the United States 
is still capable of supporting a space program that is, as the 
Augustine Report suggested, ``worthy of a great nation.'' It is as much 
a matter of priorities as it is one of available funds--especially if 
we take into account the return on the investment we make in space as a 
nation.
    I am concerned about the funding levels for the vehicle development 
portion of the Space Launch System and the Orion crew vehicle. I have 
questions about both the amount requested and the procurement approach 
being taken for the next phase of commercial crew development. I remain 
concerned about the loss of critical workforce and skills that we will 
need to continue NASA's--and the nation's--advances forward into the 
future. I look forward to having the Administrator address these and 
other issues as we proceed with this hearing.
    I also look forward to hearing from Dr. Neil deGrasse Tyson, our 
second witness today. From what I have heard and read, I am hopeful we 
will hear his ``Big Picture'' view of the Nation's space program, and 
especially of its direct and indirect benefit to our Nation's 
scientific, economic, and technological well-being. Aside from focusing 
on his own discipline of astrophysics, Dr. Tyson's messages have 
typically been directed toward students and lay people--the general 
American populace, whom we are all elected to represent, both in our 
states and as we conduct the business of the Nation.
    I believe it will be important and very helpful for us to hear 
those messages, and I appreciate his willingness to come and share them 
with the Committee.
    Thank you again, Mr. Chairman, and I look forward to the testimony.

    Senator Nelson. And now you see why it is such a pleasure 
for me to work with Senator Hutchison.
    And I will tell you we both have a healthy degree of 
skepticism about OMB because OMB has thought that it has been 
running the space program for over the last decade. And 
fortunately, I think that is starting to change so that policy 
can be set at the congressional level in consultation with the 
executive branch, and then that the space program can be run by 
the Administrator of NASA.
    So, with that, General Bolden, welcome. Please, your 
comments?
    Mr. Bolden. Mr. Chairman, Ranking Member Hutchison, Senator 
Udall, I would like to do something a little bit different. We 
submitted a statement.
    Senator Nelson. I am sorry. General Bolden, I forgot. I 
wanted to call on Senator Udall for a comment.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Okay. Thank you very much.
    And thank you, Chairman Nelson and Senator Hutchison, for 
those strong statements on the NASA budget.
    I am going to have to leave in just 5 minutes here, but I 
wanted to just say a couple of things about the budget and as 
it relates to New Mexico. And hopefully, we can submit 
questions for the record.
    But Administrator Bolden, during the Space Shuttle program, 
New Mexico's White Sands Test Facility played a key role in 
NASA's work on jet propulsion and advanced materials testing. 
Mr. deGrasse Tyson and his show Nova scienceNow visited my home 
State last year to feature WSTF's work on simulating cosmic 
collisions.
    WSTF is testing the impact of space debris on our 
spacecraft shields by using a powerful gun to shoot particles 
at them at speeds of 20,000 miles per hour, and I know you are 
aware of White Sands unique assets and capabilities. There are 
many opportunities for White Sands to support NASA missions and 
to work more closely with commercial space firms.
    And one of the things that I was going to ask, if I was 
here, for you to talk a little bit about that, but we may well 
have specific questions on that.
    The other area I wanted to mention is NASA education and 
some of the New Mexico accomplishments. Your testimony speaks 
to NASA's educational focus on inspiring today's young people 
to envision futures in science, technology, engineering, and 
math. And as you know, these STEM fields are just absolutely 
crucial to us moving forward in this information age.
    And in my home state, the New Mexico Space Grant Launch 
Program brings space into the classroom. As part of the NASA-
funded Launch and Learn Program, middle school students from 
all over the state design and build experiments to launch into 
suborbital space on the Space Loft sounding rocket.
    So I think other questions we will submit also will deal 
with the STEM fields and all the great work you are doing 
there, up through K-12 and beyond.
    And then, just finally, on the Earth sciences, scientists 
today know much more about the dangers of global warming and 
rising sea level, thanks to NASA support for Earth Science 
missions. Your written statement highlights NASA's initiative 
to develop the Nation's next generation climate and weather 
missions.
    In fact, many of NASA's greatest contributions to science 
and society have come from unmanned Earth Science missions, 
even though these do not always capture the headlines in the 
same way as human space flight. So I hope you get a chance to 
talk a little bit about that, and we may well submit some 
questions there.
    But I think the strong statement by the chairman and the 
ranking member are very appropriate here, and it is an honor to 
be here. And I am sorry I am not going to be able to hear your 
testimony, but I have another commitment I have to run to.
    Thank you, Chairman Nelson, and thank Ranking Member 
Hutchison.
    Senator Nelson. Thank you, Senator Udall.
    General Bolden?

            STATEMENT OF HON. CHARLES F. BOLDEN JR.,

  ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bolden. Thank you very much.
    And Senator Nelson, Senator Hutchison, Senator Udall, 
because of the fact that you have presented very eloquently 
much of what I was going to say, as has Senator Hutchison, I 
would like to do something unusual, and I would like to submit 
my oral statement for the record and just share with you some 
highlights from it, if I can?
    And I will also say I want to thank you for putting me 
before Dr. Neil deGrasse Tyson. He is a dear friend of mine. He 
is an incredibly eloquent presenter of everything that I would 
like to say, and he will actually present to you--because 
people always want to ask me about supposition: ``What would it 
be like if?''
    I am going to talk about what it is like, based on the 
difficult economic times that we face. But I think Dr. Tyson 
will talk about what it would be like if. And he speaks very 
eloquently to that.
    I feel somewhat like a friend of mine who had to speak 
between Neil Armstrong and John Glenn recently at a tribute to 
Senator Glenn. So I understand I am inadequately prepared to be 
here, but I will try.
    I will say, first of all, the President has allowed us to 
put together what I think is a very ambitious exploration 
program. It does, in fact, fit within the confines of the 
budget that we anticipate being able to get and that we hope we 
will get. And it does, in fact, live up to the promises of the 
2010 Authorization Act.
    And I am glad that Senator Hutchison mentioned the three 
priority areas for NASA and the Nation, and I will talk about 
that a little bit more. But I do want to remind everyone that 
these are very difficult times economically. And so, what we 
tried to present was a balanced approach to accomplishing those 
three priorities that the President and you all agreed upon 
through the 2010 authorization.
    I think, as everyone knows, the budget is $17.7 billion. 
Everything we propose we think is critical to ensuring 
America's continued leadership in space exploration as well as 
our stewardship of the Earth. NASA, I personally am committed 
to making this national resource, that is the International 
Space Station, available to a broader scientific and commercial 
research communities as you have mentioned, Senator Glenn 
emphasizes, you talked about it, and Senator Hutchison talked 
about it.
    And I will mention I am glad that Senator Hutchison 
mentioned our friend Dr. Sam Ting, and I would remind everyone, 
AMS, as incredible as it is, would not be bringing us one piece 
of data were it not for the fact that it has a home. It is on 
the International Space Station.
    And had it not been for the existence of the International 
Space Station, we might not have AMS doing what it is doing 
right now. So the International Space Station is critically 
important, and you will hear me emphasize that over and over 
and over again.
    I am also committed to ensuring that American companies 
launching from U.S. soil transport our astronauts and their 
cargo to the International Space Station. We are on track to 
develop a flexible deep space launch system that will 
ultimately be the most capable in history.
    We are pushing forward with contracting and design efforts 
to advance this critical next generation space exploration 
system, and our Fiscal Year 2013 budget request supports our 
plans for an uncrewed SLS test flight in 2017 and a crewed test 
mission by 2021. And I don't want anybody to miss that. Those 
are hard dates, and they are evidence that we are pushing 
forward with the development of the SLS and MPCV.
    We are also confident that this budget supports a 2018 
launch for the James Webb Space Telescope as we came up with 
after the replan for that particular mission.
    The request also supports a portfolio of innovative science 
missions, and we could go on and on and on talking about them. 
Everyone is disappointed that we had to take a breather, if you 
will, but to step back from our negotiations with the European 
Space Agency on a program that they call ExoMars that we agreed 
we would participate in planning on.
    However, we are now developing a new integrated strategy 
for Mars missions to ensure that the next steps to Mars 
exploration will support the science objectives that were laid 
out in ExoMars, the priorities established by the National 
Research Council's decade-old survey on planetary science, and 
also support our human exploration.
    The Fiscal Year 2013 budget request continues to support a 
robust Mars program in spite of what you may have heard. 
Absolutely essential to obtaining our ambitious goals is the 
further development of aviation science and space technologies, 
and we have that funded in this budget.
    We are going to conduct aeronautics research to enable the 
realization of the Nation's Next Generation Air Transportation 
System, or NextGen, which will provide for safer, more fuel-
efficient, quieter, and environmentally responsible aircraft 
that will operate with NextGen.
    I am really grateful, NASA as an agency is grateful to the 
American people and to all of you on this committee who have 
provided support to us in these very difficult and challenging 
times. But as Senator Hutchison alluded in her opening 
statement, priorities have to be established.
    She was incredibly helpful in helping us establish the 
three priorities for the agency and the SLS/MPCV for 
exploration; the International Space Station, shored up by 
Commercial Crew and Cargo, which is the test bed for that 
exploration; and then the James Webb Space Telescope is what 
promises to be the most incredible instrument for science and 
exploration of our universe ever known to mankind.
    The SLS and MPCV are hard evidence that we are pushing 
forward with our exploration program. We have flown tests on 
MPCV. We have done drop tests. We just completed some the other 
day. We just finished another test firing of the J-2X at 
Stennis yesterday.
    This is hardware. This is not design drawings. This is 
hardware. I contend that we are probably much farther along on 
SLS/MPCV than we are on any of the other two priorities. So I 
would really challenge anyone who says that we are stepping 
back from our promise. We are not doing that.
    And Senator Hutchison, as I have said to you many times, I 
am dedicated to this, and we are doing what we promised we 
would do.
    [The prepared statement of Mr. Bolden follows:]

   Prepared Statement of Hon. Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration

    Mr. Chairman and Members of the Committee, today it is my privilege 
to discuss the President's Fiscal Year 2013 budget request for NASA. 
Our requested budget of $17.7 billion will enable NASA to execute the 
balanced program of science, space exploration, technology, and 
aeronautics agreed to by the President and a bipartisan majority of 
Congress.
    Despite the constrained fiscal environment facing the Nation, this 
request supports a robust civil space program that puts us on a path to 
achieving a truly exciting set of goals. We are working to send humans 
to an asteroid and ultimately to Mars, to peer deep into space to 
observe the first galaxies form, and to broaden human activity in low-
Earth orbit (LEO). We have completed assembling and outfitting of the 
U.S. segment of the International Space Station (ISS), allowing us to 
focus on full utilization of the Station's research capabilities. NASA 
is making air travel safer and more efficient, learning to live and 
work in space, and operating a fleet of spacecraft to investigate the 
Earth, the Solar system and the Universe.
    The Fiscal Year 2013 request supports the implementation of key 
priorities for NASA.
    First, since the historic construction of the International Space 
Station (ISS) was completed in 2011, and now that all the international 
partners have agreed to its extension to at least 2020, we must enhance 
its utilization to insure the success of this national laboratory. For 
over eleven years, international crews of space explorers have been 
living on orbit, both building the International Space Station and 
conducting a diverse research program continuously. NASA is committed 
to making this National resource available to the broader scientific 
and commercial research community. Key to its sustainment is the 
availability of a U.S. commercial crew and cargo delivery capability as 
soon as possible. NASA is working with American companies to establish 
the next generation of safe and efficient vehicles for access to LEO 
and the ISS. In calendar year 2012, we will see the first commercial 
cargo flights to the ISS, demonstrating the innovation and capabilities 
of our industry partners and providing a path forward to ease our sole 
reliance on Russian transport of astronauts. We will continue to work 
with our industry partners to develop end-to-end systems for 
transporting crew and cargo to orbit. I am committed to ensuring that 
American companies, launching from U.S. soil, are providing the cargo 
and crew transportation services that we need to keep the ISS 
functioning. We are making steady progress on these launch services. 
Later this spring and summer, we expect that both of our private 
company partners, SpaceX and Orbital Sciences, will complete 
demonstration flights of their cargo vehicles to Station and actually 
berth with the ISS, marking a major milestone in our goal to establish 
commercial space capabilities for low-Earth orbit travel. Some 
modification of the Iran, North Korea, Syria Non-proliferation Act 
(INKSNA) provisions will likely be required for the continued operation 
of ISS and other space programs after 2016. The Administration plans to 
propose appropriate provisions and looks forward to working with the 
Congress on their enactment.
    Second, with the Fiscal Year 2013 budget request, NASA is moving 
out on plans to develop a flexible launch system that will ultimately 
be the most capable in history. The Space Launch System (SLS) rocket 
and the Orion Multi-Purpose Crew Vehicle (Orion MPCV) will carry 
American astronauts beyond low-Earth orbit and into deep space within 
the next decade. Following a thorough analysis of alternatives, NASA 
has established architecture for SLS and the Orion MPCV. In recent 
months we have continued to push forward with contracting and design 
efforts to make this system a reality. At the same time, we are moving 
forward on a critical effort to develop the technologies and 
capabilities required to support our ambitious exploration goals. Our 
Fiscal Year 2013 budget request supports our plans for an uncrewed SLS 
test flight in 2017 and a crewed test mission by 2021.
    Third, we plan to continue progress toward the launch of the 
world's most advanced telescope in 2018. The James Webb Space Telescope 
(JWST) will operate deep in space to orbit the sun nearly one million 
miles from Earth. From that vantage point, JWST will look out into 
space and back in time almost as far as it is possible to look. Over 
the past year, NASA has engaged in a thorough review of JWST, made 
important adjustments to management, and put the project on a sound 
financial footing. Since we completed this new plan, the project has 
met 19 of 20 Fiscal Year 2011 milestones (with one deferred without 
impact), and has met all Fiscal Year 2012 milestones to date on or 
ahead of schedule. NASA is confident that the Fiscal Year 2013 request 
supports a 2018 launch of JWST.
    Fourth, The Fiscal Year 2013 budget request supports continued 
advances in new technologies. The National Research Council (NRC) has 
determined that future U.S. leadership in space requires a foundation 
of sustained technology advances, but that the U.S. space program is 
now living on the innovation funded in the past. Our focus on new space 
technologies is absolutely essential to enable NASA to achieve its 
ambitious goals. At the same time, NASA technology research seeds 
innovation, supports economic vitality and helps to create new jobs and 
expanded opportunities for a skilled workforce. Space technology 
investments address long-term Agency technology priorities and 
technology gaps identified by NASA Mission Directorates and within the 
Agency's draft space technology roadmaps. On February 1, 2012, the NRC 
released its final review of NASA's Draft Space Technology Roadmaps. 
The report, which notes that NASA's technology base is largely depleted 
and identifies sixteen top-priority technologies necessary for NASA's 
future missions, which also could benefit American aerospace industries 
and the nation. This NRC assessment will help guide NASA's technology 
priorities in the years to come.
    NASA's budget request supports a portfolio of innovative science 
missions that will explore the diverse planetary bodies of our solar 
system, unravel the mysteries of our universe and provide critical data 
about our home planet. Currently operating missions continue to return 
a stream of data from orbits around the Sun, Mercury, the Moon, the 
asteroid Vesta, Mars, and Saturn. We now have missions on the way to 
Jupiter, Pluto and Mars. Sixteen Earth Science missions in orbit study 
the Earth as an integrated system. The Hubble, Spitzer, Chandra, and 
Fermi space telescopes continue to make groundbreaking discoveries on 
an almost daily basis. In calendar year 2011, the MESSENGER spacecraft 
entered orbit around Mercury, Ebb and Flow began mapping the gravity 
field of the Moon, and Juno launched on its way to Jupiter. Also in 
2011, Aquarius produced the first global view of ocean surface salinity 
and the Suomi National Polar-orbiting Partnership satellite began 
making observations of Earth's weather and climate. In 2012, we will 
launch the Nuclear Spectroscopic Telescope Array to study massive black 
holes, supernovae and other high-energy sources in the universe, and 
will launch the Radiation Belt Storm Probes into Earth's Van Allen 
belts. In 2013, we will launch the next land observing mission (the 
Landsat Data Continuity Mission) and complete environmental testing of 
the Global Precipitation Measurement mission, the Lunar Atmosphere and 
Dust Environment Explorer (LADEE) and the Mars Atmosphere and Volatile 
Evolution (MAVEN) mission.
    In view of these key priorities for NASA and of our constrained 
fiscal environment, we will not be moving forward with the 2016 and 
2018 ExoMars missions we had been studying with the European Space 
Agency. Instead, NASA is developing a new, integrated strategy for Mars 
missions to ensure that the next steps for Mars exploration will 
support science and human exploration goals and take advantage of 
advanced space technology developments. NASA will complete this 
integrated plan, including the framework for a mission to take 
advantage of the 2018 or 2020 launch opportunities, no later than this 
summer and, hopefully, in time to support the Fiscal Year 2013 
appropriations process. The Fiscal Year 2013 request supports this 
approach, and this process will be informed by coordination with the 
science community and our international partners. The Fiscal Year 2013 
budget request continues to support robust Mars exploration including 
two spacecraft orbiting Mars, the Opportunity rover on the surface, a 
multi-year exploration of Mars by the Curiosity Mars Science 
Laboratory, and the MAVEN mission to explore the Mars upper atmosphere. 
The August landing of Curiosity will be among the most difficult 
technical challenges that NASA has ever attempted and Curiosity's 
mission of exploration will far eclipse anything humanity has attempted 
on the surface of Mars in the past. We look forward to receiving a 
treasure trove of data from the surface of Mars to help answer 
questions about its past and present habitability.
    With the 2013 request, NASA will conduct aeronautics research to 
enable the realization of the nation's Next Generation Air 
Transportation System (NextGen), and the safer, more fuel efficient, 
quieter, and environmentally responsible aircraft that will operate 
within NextGen. Through the aeronautics research we conduct and sponsor 
with universities and industry, NASA helps to develop the technology 
that enables continuous innovation in aviation. As a result, U.S. 
companies are well positioned to build on discoveries and knowledge 
resulting from NASA research, turning them into commercial products 
that benefit the quality of life for our citizens, provide new high-
quality engineering and manufacturing job opportunities, and enables 
the United States to remain competitive in the global economy.
    The request also continues NASA's dedicated efforts to inspire the 
next generation of explorers. NASA can provide hands-on experience and 
inspiration as few other agencies can. To foster the development of the 
U.S. workforce, NASA's education programs will focus on demonstrable 
results and capitalize on the Agency's ability to inspire students and 
educators through unique missions and the big challenges that help 
today's young people envision their future in science, technology, 
engineering and mathematics (STEM). NASA Education is one of many 
Federal government programs that support STEM education. NASA Education 
is working with other agencies through the National Science and 
Technology Council's Committee on STEM Education to fund coordinated 
and effective student and teacher opportunities. NASA will focus its 
resources on demonstrated areas of strength in its unique role in STEM 
education, freeing resources for other Agency priorities. NASA brings 
many assets, beyond funding, to support the Administration's emphasis 
on STEM education. Our people, platforms like the International Space 
Station, and our facilities across the Nation all contribute to 
strengthening STEM education.
    NASA is grateful to the American people, and their representatives 
here on the Committee for the continued support for NASA despite the 
difficult resource challenges facing our Nation. A more detailed 
description of NASA's balanced program of science, space exploration, 
technology development, and aeronautics is provided below.
Science
    NASA's Science Mission Directorate develops and operates innovative 
spacecraft missions and instruments that help researchers deliver new 
discoveries of the Earth, the Sun, the planetary bodies in our solar 
system, and the universe beyond. The Fiscal Year 2013 budget request 
for Science is $4,911.2 million.
    NASA's Earth Science Program advances knowledge of the integrated 
Earth system--the global atmosphere, oceans, land surfaces, ice sheets, 
ecosystems and interactions among them. The Fiscal Year 2013 budget 
request for Science includes $1,784.8 million for Earth Science. In 
2011, NASA successfully launched Aquarius/SAC-D, a cooperative ocean 
surface salinity mission conducted with the Argentine Space Agency, and 
with our partner the National Oceanic and Atmospheric Administration 
(NOAA) and the Suomi National Polar-orbiting Partnership (SNPP). SNPP 
is the first step in developing the Nation's next-generation climate 
and weather monitoring missions. During calendar year 2012 NASA will 
select the first small satellite mission under the Earth Venture 
program as recommended in the National Research Council's decadal 
survey for Earth science. The Fiscal Year 2013 budget will fund all 
three components of the Earth Venture program: this new small mission, 
the on-going EV-1 airborne science campaigns, and the first EV-I 
instrument of opportunity. Fiscal Year 2013 will see the launch of the 
Landsat Data Continuity Mission and the completion of environmental 
testing for the Global Precipitation Measurement mission. The Fiscal 
Year 2013 budget will also fund continued development of the first two 
Tier 1 decadal survey missions, Soil Moisture Active Passive mission 
and ICESat-2. Finally, the Fiscal Year 2013 budget will fund continued 
development of three key missions to assure delivery of sustained Earth 
observations (GRACE-Follow on, OCO-2, and the SAGE-III instrument that 
will fly on the ISS) and fund the continued operation of 16 missions 
currently in orbit as well as research using the resultant data. The 
Fiscal Year 2013 budget request for Earth Science sustains support for 
focused research, applications, and technology development activities 
that redeem the investment in our ongoing missions, while positioning 
us to accomplish essential new missions in the future. NASA's Earth 
Science program leads to improved prediction services by other 
agencies, providing direct tangible benefits to communities, 
businesses, and citizens.
    NASA's Planetary Science Program explores the content origin and 
evolution of the solar system and the potential for life beyond Earth. 
The Fiscal Year 2013 budget request for Science includes $1,192.3 
million for Planetary Science. In the second half of 2011, NASA 
launched Juno on its way to Jupiter, GRAIL to the Moon, and the Mars 
Science Laboratory to the Red Planet. GRAIL's ``Ebb'' and ``Flow'' 
spacecraft will conduct their mission to map the Moon's gravity field 
and interior structure during the first half of 2012. The Mars Science 
Laboratory rover Curiosity will land in Gale Crater on Mars on August 
6. The Fiscal Year 2013 budget request funds the operation of Curiosity 
on Mars. The Fiscal Year 2013 budget will also fund the beginning of 
development of the next Discovery mission that will be selected from 
among three candidates completing their studies in 2012. In Fiscal Year 
2013, NASA will be completing development of the LADEE mission to the 
Moon and the MAVEN mission to Mars for launch in late calendar year 
2013/early Fiscal Year 2014. Also in Fiscal Year 2013, NASA will 
continue the development of the OSIRIS-REx mission to return samples 
from an asteroid, and will continue operation of the Dawn (the asteroid 
Vesta), Juno (Jupiter), Cassini (Saturn), New Horizon (Pluto), and 
MESSENGER (Mercury) missions. However, the resources available over the 
budget horizon are insufficient to enable either a future Mars or Outer 
Planets flagship mission as identified by last year's Planetary Science 
decadal survey.
    NASA remains committed to a vigorous program of Mars exploration 
and continuing America's leadership role in Mars exploration within the 
available budget. As stated above, NASA is discontinuing its effort on 
instruments for the joint (NASA/European Space Agency) 2016 ExoMars 
Trace Gas Orbiter mission and the 2018 mission that NASA had been 
exploring with the European Space Agency (ESA). Instead, NASA will 
develop an integrated strategy to ensure that the next steps for Mars 
exploration will support science as well as long-term human exploration 
goals. This process will be informed by coordination with the science 
community and international community. NASA is developing a plan for a 
reformulated medium-class robotic science Mars mission, within 
available resources, to take advantage of the favorable location of 
Mars and Earth in 2018 or 2020. NASA's plan is to work with potential 
international partners including ESA and the science community to lay 
out an initial framework for this mission over the next several months 
and produce a mission architecture by this summer. To keep this effort 
moving forward in Fiscal Year 2012, resources, totaling approximately 
$30 million, are proposed for work towards a revised mission. The 
budget request includes $62 million in Fiscal Year 2013 for this 
mission.
    NASA's Astrophysics Program seeks to discover how the universe 
works, explore how the universe began and evolved and search for Earth-
like planets. The Fiscal Year 2013 budget request for Science includes 
$659.4 million for Astrophysics. NASA will continue to conduct science 
operations flights of the SOFIA aircraft in 2012 and 2013 as we upgrade 
its science instruments, and will continue parallel development of 
efforts leading to achievement of a full operational capability in 
2014. The Fiscal Year 2013 budget will fund the early stages of 
development of the next Astrophysics small Explorer mission to be 
selected early in calendar year 2013. Also in 2013 NASA will complete 
development of its instrument contributions to Japan's Astro-H mission 
for launch in Fiscal Year 2014. The FY2013 budget enables NASA to 
continue development of the GEMS Explorer mission toward a launch in 
2015. Finally, the Fiscal Year 2013 budget will fund the operation of 
eleven Astrophysics missions currently in operation, including the 
Hubble, Spitzer, Chandra, and Fermi space telescopes.
    The James Webb Space Telescope (JWST) is an infrared telescope 
designed to study and answer fundamental astrophysical questions 
ranging from the formation and structure of the universe to the origin 
of planetary systems and the origins of life. The Fiscal Year 2013 
budget request for Science includes $627.6 million for JWST. A 
scientific successor to the Hubble Space Telescope (HST) and the 
Spitzer Space Telescope, JWST will be used by international teams of 
astronomers to conduct imaging and spectroscopic observations. The 
Observatory will be located in an orbit near the second Sun-Earth 
Lagrange point (L2), approximately 1.5 million km from Earth. The 
telescope and instruments will be operated at a temperature of forty 
degrees above absolute zero (40 Kelvin) shielded from the heat of the 
Sun by a large sunshield, to enable the Observatory to achieve 
unprecedented sensitivity over its entire wavelength range. NASA 
completed a new baseline cost and schedule for JWST at the end of 
calendar year 2011, and is now implementing that new baseline. All 18 
JWST primary mirror segments have been completed. NASA expects to take 
delivery of all four JWST instruments in Fiscal Years 2012-2013. In 
Fiscal Year 2013, NASA will begin sunshield fabrication and continue 
development of the Integrated Science Instrument Module and the ground 
segment.
    NASA's Heliophysics Program seeks an understanding of the Sun, and 
the complex interaction of the coupled system comprising the Sun, 
Earth, other planetary systems, the vast space within the solar system, 
and the interface with interstellar space. The Fiscal Year 2013 budget 
request for Science includes $647.0 million for Heliophysics. Later 
this year, NASA will launch the Radiation Belt Storm Probes mission, 
and the Fiscal Year 2013 budget will fund completion of its checkout 
and its early operations. The Fiscal Year 2013 budget will fund 
completion and launch of the IRIS small Explorer mission as well as 
beginning of the development of the next small Explorer to be selected 
in early in calendar year 2013. Fiscal Year 2013 will be a peak year in 
the development of the Magnetospheric Multiscale (MMS) mission to be 
launched in 2015. The Fiscal Year 2013 budget will also fund the 
continued formulation of the Solar Probe Plus mission and development 
of the Solar Orbiter Collaboration with ESA. NASA expects to receive 
the new NRC Heliophysics decadal survey this spring, and will use it to 
shape the Fiscal Year 2014 budget request in this area.
    Also during Fiscal Year 2013, NASA will continue development of 
environmental operational satellites for NOAA on a reimbursable basis. 
These include the Joint Polar Satellite System, Geostationary 
Operational Environmental Satellites (GOES-R series), Jason 3, and the 
Deep Space Climate Observatory. Funding for these programs is in the 
Department of Commerce budget request for NOAA.
    In addition to the space missions emphasized above, the Fiscal Year 
2013 budget funds NASA's Science Mission Directorate to continue to 
sponsor competitively-selected research by universities, industry, and 
government laboratories across the nation. Using data from these 
missions, the nation's scientific community pursues answers to profound 
scientific questions of interest to all humanity as well as questions 
that enhance our national capability to predict environmental change 
including severe storms, droughts, and space weather events, and 
thereby enhance our economic and environmental security.
Aeronautics Research
    NASA aeronautics research will enable the realization of the 
nation's Next Generation Air Transportation System (NextGen), and the 
safer, more fuel efficient, quieter, and environmentally responsible 
aircraft that will operate within NextGen. Through the research we 
conduct and research we sponsor with universities and industry, we help 
to develop the technology that enables continuous innovation in 
aviation. American companies are well positioned to build on 
discoveries and knowledge resulting from NASA research, turning them 
into commercial products, benefiting the quality of life for our 
citizens, providing new high-quality engineering and manufacturing job 
opportunities, and enabling the United States to remain competitive in 
the global economy. NASA's Fiscal Year 2013 budget request for 
aeronautics is $551.5 million to continue our tradition of developing 
new concepts for aeronautics applications.
    The Fiscal Year 2013 request for Aeronautics Research includes 
$168.7 million for the Fundamental Aeronautics Program which seeks to 
continually improve technology that can be infused into today's state-
of-the-art aircraft, while enabling game-changing new concepts such as 
Hybrid Wing Body airframes, tilt-rotor aircraft, low-boom supersonic 
aircraft, and sustained hypersonic flight. In Fiscal Years 2010 and 
2011 we conducted emissions measurements for alternative non-petroleum 
fuels derived from coal and biomass that showed dramatic reductions in 
particulate emissions in the vicinity of airports. In Fiscal Year 2013 
the Program will perform emissions measurements behind aircraft 
operating at relevant altitudes and cruise speeds to provide the first-
ever data on the impact of alternative fuels on contrail formation, an 
important factor in aviation climate impact. In Fiscal Year 2013 the 
Program will also increase its research on composite materials to 
enable airframe weight reductions beyond those achieved with current 
materials and structural design concepts.
    NASA is combining hypersonic and supersonic research into a single 
project to focus on fundamental research for high-speed flight. 
Research into hypersonic flight is also relevant to the Department of 
Defense and NASA will retain critical core competencies and national 
asset testing capabilities to continue productive collaborations with 
DOD. Responsibility for fundamental research on entry, decent, and 
landing technologies will be transferred to Space Technology to 
increase synergy with the Agency's exploration and science missions. 
NASA will continue to work with DOD to maximize the efficiencies of 
current assets and investments and increase partnership to accomplish 
common goals. These realignments will enable NASA to focus on higher-
priority research to improve the safety and minimize the environmental 
impacts of current and future aircraft and air traffic management 
systems. The Fiscal Year 2013 request for Aeronautics Research includes 
$104.0 million for the Integrated Systems Research Program. This 
program evaluates and selects the most promising environmentally 
friendly engine and airframe concepts emerging from the fundamental 
research programs for further development, integration, and evaluation 
in relevant environments. Last year, the Program completed a major 
study by three aircraft manufactures to identify the critical 
technologies needed to simultaneously reduce emissions, fuel burn, and 
noise in aircraft entering service in 2025. In Fiscal Year 2013, the 
Program will start a 3-year focused research effort on these 
technologies to advance their technology readiness. The Program is also 
addressing the emerging desire to integrate Unmanned Aircraft Systems 
(UAS) into the National Airspace System. Current Federal Aviation 
Administration (FAA) regulations are built upon the condition of a 
pilot being on-board the aircraft. The Program will therefore generate 
data for FAA use in rule-making through development, testing, and 
evaluation of UAS technologies in operationally relevant scenarios.
    Reductions in environmental impact will be achieved not only 
through new aircraft, engines, and fuels, but also through improved air 
traffic management procedures, which is the focus of the Airspace 
Systems Program with $93.3 million requested for Fiscal Year 2013. Last 
year the Program advised the FAA on new air traffic management concepts 
for more efficient routing of flights during their cruise phase. We 
also completed evaluations of concepts for new fuel-efficient arrival 
procedures and will deliver requirements for those concepts to the FAA 
this year. In Fiscal Year 2013 the Program will begin demonstrations to 
verify that several new procedures for air traffic management during 
arrival and taxiing to the gate that are enabled by NextGen Automatic 
Dependent Surveillance-Broadcast (ADS-B) technology can work together 
seamlessly. This effort will demonstrate near-term and mid-term ADS-B 
application benefits and provide airlines with data to support their 
strategic decisions related to the significant investments they need to 
make to equip their aircraft with ADS-B capability.
    The Aviation Safety Program, with $81.1 million requested for 
Fiscal Year 2013, conducts research to ensure that current and new 
aircraft and operational procedures maintain the high level of safety 
which the American public has come to expect. In Fiscal Year 2011, the 
Program advanced data mining methods that permit the discovery of 
flight operations and aircraft maintenance issues through automated 
analysis of the vast amounts of data generated during flight operations 
and by sensors onboard aircraft. These methods have enabled the 
development of new software for aircraft central maintenance computers 
on both business jet and large commercial aircraft that can identify 
the early stages of hardware faults 30 to 50 flights earlier than 
previously possible. This allows airline maintenance personnel to 
address equipment issues before they cause a disruptive maintenance 
delay at the airport gate. The Program also focuses on mitigating 
environmental hazards to aviation and in Fiscal Year 2013 will conduct 
a flight campaign to characterize ice water content at high altitudes 
in tropical regions as a first step to understanding the causes of 
severe loss of power due to engine icing that has occurred on a number 
of occasions.
    U.S. leadership in aerospace depends on ready access to 
technologically advanced, efficient, and affordable aeronautics test 
capabilities. NASA's Aeronautics Test Program, with $78.1M requested 
for Fiscal Year 2013, makes strategic investments to ensure the 
availability of these ground test facilities and flight test assets to 
researchers in Government, industry, and academia. In addition to this 
strategic management activity, the Program will continue developing new 
test instrumentation and test technologies. Last year the Program 
completed nearly $50 million worth of upgrades to major facilities 
funded through the American Recovery and Reinvestment Act. These 
upgrades provide improved research capabilities at Glenn and Ames 
Research Centers for aircraft and engine icing research, and tilt-rotor 
designs for a new generation of rotorcraft. New capabilities were also 
added to the Langley 14x22 Subsonic Wind Tunnel that will enable 
researchers to measure noise signatures from novel aircraft designs at 
a fraction of the cost of noise measurement acquired by flying real 
aircraft over airport microphone arrays. NASA's Aeronautics Test 
program enables and sustains U.S. leadership in aerospace yielding high 
quality jobs and ultimately a productive Aerospace sector.
    The Aeronautics Strategy and Management Program provides for 
research and programmatic support that benefits each of the other five 
Programs, and has a requested budget of $26.4 million for Fiscal Year 
2013. The Program manages Directorate functions including Innovative 
Concepts for Aviation, Education and Outreach, and Cross Program 
Operations.
    NASA is making meaningful contributions to the aerospace community, 
but we cannot do all these good things alone. Therefore, our 
partnerships with industry, academia, and other Federal agencies are 
critical to our ability to expand the boundaries of aeronautical 
knowledge for the benefit of the Nation. These partnerships foster a 
collaborative research environment in which ideas and knowledge are 
exchanged across all communities and help ensure the future 
competitiveness of the nation's aviation industry. They also directly 
connect students with NASA researchers and our industrial partners and 
help to inspire students to choose a career in the aerospace industry.
Human Exploration and Operations
    In 2011, NASA combined the Exploration Systems and Space Operations 
Mission Directorates to create the Human Exploration and Operations 
(HEO) Mission Directorate. HEO encompasses everything from the ISS and 
the commercial cargo and crew vehicles that will support it, to NASA's 
new exploration vehicles, which will take astronauts beyond LEO. HEO 
also includes research and technology development efforts that will 
enable deep space exploration, as well as critical infrastructure and 
operational capabilities that ensure NASA's ability to conduct testing, 
launch science missions, and communicate with its spacecraft across the 
solar system. As NASA reformulates its Mars exploration plans, we will 
ensure that the next steps for Mars exploration will take into account 
long-term human exploration as well as science goals.
    The Fiscal Year 2013 budget request includes $2,769.4 million for 
Human Exploration Capabilities, which the Agency proposes to rename 
Exploration Systems Development. This program includes development of 
the Orion MPCV, SLS heavy-lift launch vehicle, and the supporting 
ground infrastructure required for NASA's future crewed missions of 
exploration beyond LEO and into deep space. The amounts requested align 
with the plan developed and supported by an independent cost analysis 
performed last summer.
    NASA's Orion MPCV will carry astronauts to, and support operations 
at, a variety of destinations in our solar system for periods of up to 
21 days. NASA has recently completed a number of tests on Orion MPCV, 
including a test of the main parachute, and a series of water drop 
tests on the 18,000-pound Orion MPCV Boiler Plate Test Article. The 
Orion ground test article will undergo and complete acoustic, modal, 
and vibration environment compatibility testing at Lockheed Martin 
Denver during fiscal year 2012. The results of these tests will help 
improve the design for the actual flight vehicle. In May, the Orion 
Crew Module primary structure will be moved to Kennedy Space Center in 
Florida for the start of Assembly, Integration, and Production. NASA 
plans to conduct an uncrewed high-energy-atmospheric entry test mission 
of the Orion MPCV in Fiscal Year 2014. Designated Exploration Flight 
Test-1 (EFT-1), this flight test will provide critical data to 
influence key design decisions. EFT-1 will also validate innovative new 
approaches to space systems development and operations to reduce the 
cost of exploration missions. For EFT-1, an early production variant of 
the Orion MPCV spacecraft will be integrated on a Lockheed Martin-
procured, heavy class launch vehicle. The flight test will provide an 
opportunity to significantly inform critical design elements by 
operating the integrated spacecraft hardware and software in flight 
environments that cannot be duplicated by ground testing.
    On September 14, 2011, NASA announced the design of the SLS, which 
will initially be capable of lifting 70-100 metric tons before evolving 
to a lift capacity of 130 metric tons for more demanding missions. NASA 
has worked diligently to accomplish the contracting and design work 
necessary to support a 2017 initial flight mission for the SLS. In 
Fiscal Year 2013, SLS will continue detailed preliminary design and 
development and undergo a preliminary design review to evaluate the 
completeness/consistency of the program's preliminary design in meeting 
all requirements with appropriate margins, with acceptable risk, and 
within cost and schedule constraints. This comprehensive review will 
determine the program's readiness to proceed with the detailed critical 
design phase of the project.
    The SLS will use a liquid hydrogen and liquid oxygen propulsion 
system, building upon the investment made by the Nation over the last 
forty years. The vehicle's core stage will utilize existing Space 
Shuttle Main Engines (SSME RS-25D) for the initial capability. NASA's 
use of the SSME inventory will reduce initial design costs and take 
advantage of an existing human-rated system. NASA plans to modify and 
use the existing SSME contract with Pratt & Whitney Rocketdyne to 
acquire RS-25D engine servicing and testing for the initial launch 
system.
    The upper stage of the SLS needed for the full-up SLS capability 
will also use a liquid hydrogen and liquid oxygen propulsion system 
that includes the J-2X, a new upper stage engine previously planned for 
use in the Ares-I vehicle. NASA is negotiating a modification to the 
Ares I Upper Stage contract with Boeing to develop the SLS core stage 
and upper stage, including avionics. SLS will also utilize the existing 
J-2X contract with Pratt & Whitney Rocketdyne to continue developing 
the upper stage engine. NASA has been running J-2X components through a 
series of tests. In November and December 2011, the Agency conducted 
three J-2X engine tests, firing the motor for a total of 680 seconds. 
These were the last of ten engine test firings completed in 2011. In 
January and February of 2012, NASA also conducted a series of J-2X 
Power Pack Assembly tests. These tests are part of a series of over 100 
power-pack and integrated engine tests that NASA has planned to 
complete the engine design and certify the J-2X for use in the SLS 
Upper Stage.
    NASA plans to use five-segment solid rocket boosters for the 
initial capability test flights of the SLS. We will conduct a 
competition to develop the follow-on boosters based on performance 
requirements. In support of this effort, on February 9, 2012, the 
Agency released a NASA Research Announcement (NRA) for Advanced Booster 
Engineering Demonstration and Risk Reduction. Proposals are due in 
April and contract awards are expected in October 2012.
    On February 1, 2012, NASA also released a draft for an NRA, for 
advanced development of key technologies in propulsion, avionics, 
structures and materials, and other areas. The final release is planned 
for March, with proposals due in May and contract award in October 
2012.
    Exploration Ground Systems (EGS) will develop the necessary ground 
systems infrastructure at the Kennedy Space Center and operational 
plans and procedures to prepare, assemble, test, launch and recover the 
Exploration architecture elements for long-term beyond-Earth orbit 
exploration. EGS will focus on the life cycle of a launch complex as an 
integrated system (from development, activation, operations, 
maintenance of capabilities to manufacture, assemble, test, checkout, 
launch, and recover flight hardware) to enable more efficient and cost-
effective ground processing, launch and recovery operations.
    The Fiscal Year 2013 budget request includes $829.7 million for the 
Commercial Spaceflight theme. This effort will support commercial 
providers to develop and operate safe, reliable, and affordable 
commercial systems to transport crew and cargo to and from the ISS and 
LEO.
    As part of the Commercial Orbital Transportation Services (COTS) 
program--NASA's commercial cargo effort--NASA has partnerships with 
Space Exploration Technologies, Inc. (SpaceX) and Orbital Sciences 
Corporation (Orbital) using funded Space Act Agreements. These 
agreements include a schedule of fixed payment performance milestones 
culminating in a demonstration mission to the ISS that includes vehicle 
launch, spacecraft rendezvous, ISS berthing, and re-entry for disposal 
or return to Earth. Both COTS partners continue to make progress in 
developing and demonstrating their systems. Based on the success of 
their first COTS demo flight in December 2010, SpaceX plans to fully 
develop and assemble their next vehicle with the capabilities and 
equipment necessary to complete rendezvous and berthing demonstration 
to the ISS, thus potentially combining milestones that had been planned 
for separate flights. If successful, this will accelerate the 
completion of the COTS Space Act Agreement and enable delivery of cargo 
under the Commercial Resupply Services (CRS) contract. This mission is 
tentatively planned for April 2012. Orbital Sciences is currently 
mating the main engines for its Antares vehicle to the core stage in 
preparation for an integrated static fire later this year. The maiden 
flight of the Antares is planned for the second quarter of 2012 and the 
COTS demonstration mission is planned for the third quarter. The pad 
complex at Wallops Flight Facility in Virginia is being readied and 
space flight hardware, including the first Pressurized Cargo Module, 
two Antares core sections, and a Castor-30 upper stage, has already 
been delivered to Wallops Flight Facility.
    The Commercial Crew Program (CCP) aims to facilitate the 
development of a U.S. commercial crew space transportation capability 
with the goal of achieving safe, reliable, and cost effective access to 
and from low-Earth orbit and ISS. Since 2009, NASA has conducted two 
CCDev competitions, soliciting proposals from U.S. industry to further 
advance commercial crew space transportation system concepts and mature 
the design and development of elements of the system. During the second 
CCDev competition, known as CCDev2, NASA awarded four funded Space Act 
Agreements that are currently being executed with Blue Origin, The 
Boeing Company, Sierra Nevada Corporation, and SpaceX, all of which are 
making good progress in achieving their milestones. NASA has also 
signed Space Act Agreements without funding with three additional 
companies: Alliant Techsystems, Inc., United Launch Alliance, and 
Excalibur Almaz, Incorporated.
    Under the CCP, NASA plans to partner with U.S. industry, providing 
technical and financial assistance to facilitate industry's development 
of an integrated crew transportation system. In the longer term, once 
those entities are certified, NASA plans to buy transportation services 
from commercial entities for U.S. and U.S.-designated astronauts to the 
ISS.
    Congress appropriated $406 million for CCP in Fiscal Year 2012 
which reflected a substantial reduction from NASA's request for this 
program. The Fiscal Year 2012 appropriation enables the Agency to move 
forward with its plans to support the development of commercial 
services that may eventually support crew transportation and rescue 
capabilities in support of ISS. However, the constrained budget 
environment necessitated a reassessment of NASA's overall strategy for 
this Program. On December 15, 2011, NASA announced a modified 
competitive acquisition strategy designed to make the best use of 
available resources and to pursue the most effective path to the 
achievement of a commercial crew capability. Instead of using firm-
fixed price contracts for the next phase of the Program, the Agency 
plans to continue using multiple, competitively awarded and funded 
Space Act Agreements for another round of CCP. NASA will use 
procurement contracts to certify these capabilities before they are 
used to support ISS. Using competitive Space Act Agreements instead of 
contracts at this juncture will allow NASA to maintain multiple 
partners during this phase of the Program, and provide NASA with the 
flexibility to more easily adjust to various funding levels. This new 
acquisition strategy will allow NASA to preserve greater competition 
and maintain momentum to provide a U.S.-based commercial crew launch 
capability at the earliest possible time.
    NASA is pleased with the steady progress of U.S. commercial 
providers in developing domestic cargo and crew transportation 
services. NASA currently has contracts for cargo services and intends 
to purchase crew services from U.S. providers once they are certified 
to our crew requirements. Obtaining needed cargo and crew 
transportation services from U.S. providers is NASA's preferred method 
for sustaining and fully utilizing the ISS. Nevertheless, given current 
funding levels for the development of U.S. crew transportation systems, 
we anticipate the need to purchase Soyuz crew transportation and rescue 
capabilities into 2017. As NASA has previously testified, modification 
of the Iran, North Korea, Syria Non-proliferation Act (INKSNA) 
provisions will likely be required for the continued operation of ISS 
and other space programs after 2016. The Administration plans to 
propose appropriate provisions and looks forward to working with the 
Congress on their enactment. NASA is evaluating how this issue impacts 
the development of U.S. crew transportation systems and NASA's 
acquisition of services for the ISS and goods and services for other 
NASA human spaceflight activities, given the possibility that some U.S. 
domestic providers will need to use Russian goods and services. In 
addition to the need driven by the ISS transportation requirements, 
NASA will require Russia-unique critical capabilities for the life of 
the ISS, such as sustaining engineering for the Russian built U.S. 
owned Functional Cargo Block, that are not available elsewhere.
    The Fiscal Year 2013 budget request includes $333.7 million for 
Exploration Research and Development (ERD). The Exploration Research 
and Development (ERD) theme will expand fundamental knowledge that is 
key to human space exploration, and will develop advanced exploration 
systems and capabilities that will enable humans to explore space in a 
more sustainable and affordable way. ERD is comprised of the Human 
Research Program (HRP) and the Advanced Exploration Systems (AES) 
Program, which will provide knowledge and advanced human spaceflight 
capabilities. NASA's Office of the Chief Technologist (see below) 
coordinates closely with ERD to ensure that NASA's long range, 
crosscutting Space Technology research is complementary to ERD's human 
exploration focused work.
    HRP and its associated projects will continue to develop 
technologies, countermeasures, diagnostics, and design tools to keep 
crews safe and productive on long-duration space missions. ISS crews 
are conducting relevant human medical research to develop knowledge in 
the areas of clinical medicine, human physiology, cardiovascular 
research, bone and muscle health, neurovestibular medicine, diagnostic 
instruments and sensors, advanced ultrasound, exercise and 
pharmacological countermeasures, food and nutrition, immunology and 
infection, exercise systems, and human behavior and performance. While 
this research is aimed at enabling astronauts to push the boundaries of 
exploration beyond low-Earth Orbit (LEO), NASA anticipates that 
investigations conducted aboard ISS may have broad application to 
terrestrial medicine, as well. For example, the growing senior 
population may benefit from experiments in the areas of bone and muscle 
health, immunology, and from the development of advanced diagnostic 
systems.
    The AES Program is pioneering new approaches for rapidly developing 
prototype systems, demonstrating key capabilities, and validating 
operational concepts for future human missions beyond Earth orbit. AES 
activities are uniquely related to crew safety and mission operations 
in deep space, and are strongly coupled to future vehicle and 
exploration capability development. Early integration and testing of 
prototype systems will reduce risk and improve affordability of 
exploration mission elements. The prototype systems developed in the 
AES Program will be demonstrated in ground-based test beds, field 
tests, underwater tests, and flight experiments on the ground and then 
on the ISS. Many AES projects will evolve into larger integrated 
systems and mission elements that will be tested on ISS before we 
venture beyond Earth orbit, thus leveraging the value of the Station as 
a vital exploration test-bed.
    The Fiscal Year 2013 budget request includes $70.6 million for the 
Space Shuttle Transition and Retirement (T&R). In 2011, the Shuttle 
flew out its remaining missions safely. On February 24, Discovery 
launched on mission STS-133, carrying supplies to ISS, as well as the 
permanent a Multi-purpose Module (PMM)--a Multi-Purpose Logistics 
Module (MPLM) transformed to remain on orbit, expanding the Station's 
storage volume. On May 16, Endeavour, STS-134, carried the Alpha 
Magnetic Spectrometer (AMS) and attached it to the Station's truss 
structure. The final Shuttle mission, STS-135, launched on July 8, 
delivered critical supplies to the ISS. With the landing of Atlantis on 
July 21, 2011, the 30-year Shuttle Program was brought to a close. The 
Space Shuttle Program is now focused on the transition of key assets 
and infrastructure to future programs, and the retirement, and 
disposition of Program assets.
    In Fiscal Year 2012, NASA is funding United Space Alliance's 
(USA's) Space Program Operations Contract (SPOC) Pension Liability. 
During the Shuttle Program, USA consistently incorporated and billed 
the maximum allowable costs into their indirect rates, but the 
deterioration of the equities and credit markets caused their plan to 
be underfunded by a currently estimated $522 million. The estimate will 
fluctuate until payout in the summer of 2012. The variance is protected 
in the transition and retirement budget line item. The Space Program 
Operations Contract, which accounts for almost all of USA's business 
base, is a cost-type contract covered by the Cost Accounting Standards 
(CAS). These standards stipulate that any costs of terminating plans 
are a contractual obligation of the Government (if deemed allowable, 
allocable, and reasonable). NASA and USA entered into an agreement 
under which USA froze their pension plans as of December 31, 2010, and 
deferred any decision about terminating their plan until after NASA 
received its Fiscal Year 2012 appropriation, allowing NASA to address 
this issue with Fiscal Year 2012 funds. If funding remains after the 
pension plan termination, it will be used to defray Space Shuttle 
closeout costs that would otherwise require Fiscal Year 2013 funding. 
If there is a shortfall, it will reduce available Space Shuttle funds 
for closeout and some activity could move later than planned. NASA will 
keep Congress informed as this issue evolves.
    The Fiscal Year 2013 budget request includes $3,007.6 million for 
the International Space Station (ISS) Program. This funding will 
support ISS Operations and Maintenance, ISS Research, and ISS Crew and 
Cargo Transportation. The ISS has transitioned from the construction 
era to that of operations and research, with a 6-person permanent crew, 
3 major science labs, an operational lifetime through at least 2020, 
and a growing complement of cargo vehicles, including the European 
Automated Transfer Vehicle (ATV) and the Japanese H-II Transfer Vehicle 
(HTV). The Fiscal Year 2013 budget request reflects the importance of 
this unparalleled research asset to America's human spaceflight 
program.
    In the NASA Authorization Act of 2005 (P.L. 109-155), Congress 
designated the U.S. segment of the ISS as a National Laboratory, and 
directed the Agency to seek to increase the utilization of the ISS by 
other Federal entities and the private sector. NASA has made great 
strides in its effort to engage other organizations in the ISS program, 
and the Agency now has Memoranda of Understanding with five Federal 
agencies and Space Act Agreements with nine companies and universities. 
In the NASA Authorization Act of 2010 (P.L. 111-267), Congress directed 
that the Agency enter into a cooperative agreement with a not-for-
profit organization to manage the activities of the ISS National 
Laboratory. To this end, on August 31, 2011, NASA finalized a 
cooperative agreement with the Center for the Advancement of Science in 
Space (CASIS) to manage the portion of the ISS that operates as a U.S. 
National Laboratory. CASIS will be located in the Space Life Sciences 
Laboratory at Kennedy Space Center in Florida. The independent, 
nonprofit research management organization will help ensure the 
Station's unique capabilities are available to the broadest possible 
cross-section of U.S. scientific, technological and industrial 
communities. CASIS will develop and manage a varied Research and 
Development portfolio based on U.S. national needs for basic and 
applied research; seek to establish a marketplace to facilitate 
matching research pathways with qualified funding sources; and 
stimulate interest in using the national lab for research and 
technology demonstrations and as a platform for science, technology, 
engineering and mathematics (STEM) education. The goal is to support, 
promote and accelerate innovations and new discoveries in science, 
engineering and technology that will improve life on Earth.
    The Fiscal Year 2013 budget request includes $935.0 million for 
Space and Flight Support (SFS). The budget request provides for 
critical infrastructure indispensable to the Nation's access to and use 
of space, including Space Communications and Navigation (SCaN), Launch 
Services Program (LSP), Rocket Propulsion Test (RPT), and Human Space 
Flight Operations (HSFO). The SFS budget also includes investment in 
the 21st Century Space Launch Complex, whose primary objective is to 
modernize and transform the Florida launch and range complex at the 
Kennedy Space Center to benefit current and future NASA programs, along 
with other emerging users. Fiscal Year 2013 is an important period for 
NASA's Space Communications and Navigation (SCaN) Program. The Program 
is responsible for NASA's Tracking and Data Rely Satellites (TDRS) that 
provide a critical backbone for space communications. Fiscal Year 2013 
will include the scheduled launch TDRS-K, an additional satellite in 
the system; completion of TDRS L integration; and the development of 
TDRS-M, which will be ready for launch in 2015. These spacecraft will 
refurbish this important network as aging TDRS are retired after 20 
years of service to the Nation. Also under construction is a 34-meter 
antenna at the Deep Space Network's Canberra Deep Space Communication 
Complex, with plans to build a second, to replace the aging 70-meter 
antenna. These antennae in the Southern Hemisphere will be particularly 
important as the Earth's rotation brings this site into the best range 
for tracking NASA's deep space missions in the coming decade. In 
preparation for supporting NASA's space science program, SCaN is 
developing space communications technology, including the Lunar Laser 
Communications Demonstration and the Laser Communication Relay 
Demonstration, which will lead to the capability of handling the huge 
increase in scientific data expected from NASA's planned spacecraft. 
Additionally, this capability could enable greater bandwidth and 
capabilities to support expanded education, participatory engagement, 
and interactive exploration opportunities. SCaN also anticipates the 
launch of its SCaN Test-bed in June on the Japanese Space Agency's HTV 
cargo vehicle. The test-bed, composed of three Software-Defined Radios, 
will provide the bridge to advance technological innovation by actual 
testing in the real space environment. As a pathfinder it will be made 
available to industry, academia and other Government agencies.
    The Launch Services Program (LSP) has several planned NASA launches 
in Fiscal Year 2013, including the, Landsat Data Continuity Mission 
(LDCM), Tracking and Data Relay Satellite (TDRS)-K, and Interface 
Region Imaging Spectrograph (IRIS), and will continue to provide 
support for the development and certification of emerging launch 
services. In Fiscal Year 2013, the Rocket Propulsion and Test (RPT) 
program will continue to conduct test facility management, maintenance, 
sustaining engineering, operations, and facility modernization projects 
required to keep the test-related facilities in the appropriate state 
of operational readiness. The RPT program will continue to assist in 
rocket propulsion testing requirements definition for low-Earth orbit 
and in-space propulsion systems and related technologies
Technology
    The Office of the Chief Technologist (OCT) coordinates the Agency's 
overall technology portfolio. OCT ensures that NASA's investments are 
cost-effective and that they are aligned with the Agency's near- and 
far-term goals. Over the last year, OCT has engaged thousands of 
technologists and innovators to develop and test cutting-edge 
technologies distributed across the country. While the NRC conducted 
its review of NASA's technology roadmaps, OCT worked with mission 
architecture teams to identify key technology areas requiring immediate 
investment. Using these internal, cross-Agency working groups, NASA 
selected nine technologies to receive priority funding based on their 
criticality in extending human presence beyond low-Earth orbit and 
their ability to dramatically further scientific exploration of the 
solar system. These ``Big 9'' projects are: Laser Communications Relay 
Demonstration, Cryogenic Propellant Storage and Transfer, Low Density 
Supersonic Decelerators, Composite Cryogenic Propellant Tanks, Robotic 
Satellite Servicing, Hypersonic Inflatable Aerodynamic Decelerators, 
Deep Space Atomic Clock, Large-Scale Solar Sail, and Human-Robotic 
Systems.
    On February 1, 2012, the NRC released its final review of NASA's 
Draft Space Technology Roadmaps. The NRC identified sixteen top-
priority technologies necessary for future missions, and which could 
also benefit American aerospace industries and the nation. The sixteen 
were chosen by the NRC from its own ranking of 83 high-priority 
technologies out of approximately 300 identified in the draft roadmaps. 
In the coming months, OCT will lead an agency-wide analysis and 
coordination effort to inform future technology investments on the 
basis of the NRC report.
    The Fiscal Year 2013 request for Space Technology is $699 million 
and funds on-going high-priority space technology projects that will 
increase the nation's capability to operate in space and enable long-
term human exploration and develop efficiencies for deep space science 
missions. In Fiscal Year 2013, NASA will begin to see major milestones 
achieved within Space Technology's ``Big 9'' efforts. Designed to 
deliver data rates that will enable new class of deep-space exploration 
missions, the Laser Communications Relay Demonstration project will 
begin ground validation activities of advanced laser communication 
systems. Enabling precise landing of higher-mass payloads to the 
surface of planets, the Low Density Supersonic Decelerators effort will 
complete three critical full-scale tests to demonstrate parachute and 
inflatable decelerator performance required prior to supersonic-speed 
flight demonstration. The Composite Cryogenic (low-temperature) 
Propellant Tank project will design and build a five-meter-diameter 
composite cryogenic propellant tank that will yield lower mass and 
lower cost rocket propellant tanks. The Cryogenic Propellant Storage 
and Transfer demonstration mission will conduct ground tests of the 
critical technologies required to enable long-term storage and handling 
of cryogenic fluids in space in preparation for a flight demonstration. 
While these projects will make visible individual steps in Fiscal Year 
2013, they are part of a broader portfolio of activities that Space 
Technology will pursue in order to generate new technologies for use by 
NASA, other government agencies, and U.S. industry.
    Within Space Technology, NASA funds Crosscutting Space Technology 
Development at $293.8 million to enable NASA to develop 
transformational, broadly applicable technologies and capabilities that 
are necessary for NASA's future science and exploration missions, and 
also collaborates on the aerospace needs of other government agencies 
and the U.S. space enterprise. NASA's CSTD activities are funded 
through a mix of competitive and strategically-guided projects to 
attract a broad array of participants. Investments support research 
fellowships, NASA Innovative Advanced Concepts (NIAC), Centennial 
Challenges, suborbital flight opportunities, and advancements in small 
satellite technologies and systems.
    NASA also funds Exploration Technology Development at $202 million 
to invest in the long-range technologies required for humans to explore 
beyond low-Earth orbit. ETD technologies are higher risk investments 
that complement architecture and systems development efforts within 
Exploration by maturing breakthrough technology prior to integration 
with operational capabilities. As projects are matured, new projects 
are selected competitively to provide the opportunity to develop the 
best ideas, innovations, approaches and processes for the future human 
space exploration efforts.
    Funded based on a percentage of the Agency's total extramural R&D, 
the Small Business Innovative Research (SBIR) and Small Business 
Technology Transfer (STTR) programs continue to support research and 
development performed by small businesses through competitively-awarded 
contracts. Estimated at approximately $173.7 million in Fiscal Year 
2013, these programs produce innovations for both Government and 
commercial applications. SBIR and STTR provide the high-technology 
small business sector with the opportunity to develop technology for 
NASA, and commercialize that technology to provide goods and services 
that address other national needs based on the products of NASA 
innovation.
    Partnership Development and Strategic Integration, funded at $29.5 
million, comprises key Agency responsibilities managed by OCT: 
technology partnerships, technology transfer and commercialization, and 
the coordination of NASA's technology investments across the Agency 
through technology portfolio tracking and technology road-mapping. By 
providing coordination between Mission Directorates and Centers, and 
identifying collaboration opportunities with other government agencies 
and performing technology transfer, NASA can deliver forward-reaching 
technology solutions for future science and exploration missions, and 
help address significant national needs.
    Within this portfolio, OCT engages in national technology 
development initiatives such as the National Robotics Initiative, the 
National Nanotechnology Initiative and the Advanced Manufacturing 
Partnership, and seeks partnerships with external entities for 
collaborative technology development. OCT engages the larger aerospace 
community including other Government agencies, and where there are 
mutual interests, develops partnerships to efficiently develop 
breakthrough capabilities.
Education
    The Fiscal Year 2013 request includes $100 million for NASA's 
Office of Education to develop Science Technology Engineering and 
Mathematics (STEM) education activities that only NASA can provide. The 
funding request would allow undergraduate and graduate students to work 
alongside NASA scientists and engineers through internships and 
fellowships at NASA centers. It includes educator professional 
development, helping our country's educators become proficient in STEM 
topics, and providing them opportunities to practice hands-on 
investigations. NASA will also continue to support the institutions 
where learning takes place. Through the Space Grant and Minority 
University Research and Education projects, NASA will work with 
hundreds of universities and community colleges, strengthening their 
capacity to train the next generation of scientists and engineers, 
encouraging student design challenges, and connecting faculty with NASA 
research. And, because we know inspiration doesn't just happen in a 
classroom, we will engage learners in NASA content at our visitor 
centers and in partnership with museums, science centers, planetariums 
and other informal education venues.
    NASA is one of many Federal government programs that support STEM 
education. NASA is working with other agencies through the National 
Science and Technology Council's Committee on STEM Education to effect 
optimal revisions to fund coordinated and effective student and teacher 
opportunities. NASA will focus its resources on demonstrated areas of 
strength in its unique role in STEM education. NASA brings many assets 
to support the Administration's emphasis on (STEM education beyond 
funding. Our people, platforms like the ISS and our facilities across 
the Nation all contribute to strengthening STEM education.
    Recognizing that the nature of our work is inspirational to 
learners and educators, NASA will leverage the talents of our workforce 
to support the critical STEM education needs of our Nation. In 
collaboration with other Federal agencies, NASA will leverage unique 
assets like the International Space Station (ISS), to provide 
meaningful experiences. In March, Educator Astronaut Joe Acaba, a 
former middle and high school teacher, will begin a six-month mission 
onboard the ISS. During his time in space, he will work closely with 
our education team on the ground to share his experience with 
classrooms across America.
Cross-Agency Support
    The Fiscal Year 2013 budget request includes $2,847.5 million for 
Cross-Agency Support, which provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Within this budget request, NASA has taken steps 
to reduce its administrative expenses, including a hiring slowdown and 
reduced travel.
    NASA's Fiscal Year 2013 budget request includes $2,093.3 million 
for Center Management and Operations, which funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers, as well 
as associated major component facilities. NASA Centers continue to 
provide high-quality support and the technical engineering and 
scientific talent for the execution of programs and projects. This 
technical expertise represents a true national resource. Center 
Management and Operations provides the basic support required to meet 
internal and external legal and administrative requirements; 
effectively manage human capital, information technology, and facility 
assets; responsibly execute financial management and all NASA 
acquisitions; ensure independent engineering and scientific technical 
oversight of NASA's programs and projects in support of mission success 
and safety considerations; and, provide a safe, secure, and sustainable 
workplace that meets local, state, and Federal requirements.
    NASA's Fiscal Year 2013 budget request includes $754.2 million for 
Agency Management and Operations, which funds the critical management 
and oversight of Agency missions, programs and functions, and 
performance of a broad spectrum of NASA-wide activities. These programs 
include Safety and Mission Success activities, essential to reducing 
the likelihood of loss of life and likelihood of mission success in our 
human and robotic programs. Safety and Mission Success funding supports 
the maintenance of independent safety, health, medical and engineering 
assessments of systems and processes, as well as the performance of the 
broad risk assessments, mitigations, and acceptance related to critical 
Agency decisions. Agency Information Technology Services (AITS) 
encompasses Agency-level cross-cutting services and initiatives in 
Information Technology (IT) innovation, business and management 
applications, and infrastructure necessary to enable the NASA Mission. 
The Strategic Capabilities Assets Program (SCAP) ensure that vital 
Agency test capabilities and assets, such as flight simulators and 
thermal vacuum chambers are sustained in order to serve Agency and 
national needs. The Agency Management and Operations account funds 
salary and benefits for civil service employees at NASA Headquarters, 
as well as other Headquarters personnel costs, such as mandated 
training. It also contains labor funding for Agency-wide personnel 
costs, such as Agency training, and workforce located at multiple NASA 
Centers that provide the critical skills and capabilities required to 
execute mission support programs Agency-wide.
Construction and Environmental Compliance and Restoration
    The Fiscal Year 2013 budget request includes $619.2 million for 
Construction and Environmental Compliance and Restoration. NASA 
Construction and Environmental Compliance and Restoration provides for 
the design and execution of all facilities construction projects, 
including discrete and minor revitalization projects, demolition of 
closed facilities, and environmental compliance and restoration.
    The Fiscal Year 2013 budget request includes $552.8 million for the 
Construction of Facilities (CoF) Program, which funds capital repairs 
and improvements to ensure that facilities critical to achieving NASA's 
space and aeronautics programs are safe, secure, sustainable, and 
operate efficiently. The Agency continues to place emphasis on 
achieving a sustainable and energy-efficient infrastructure by 
replacing old, inefficient, deteriorated buildings and infrastructure 
with new, efficient, and high performance buildings and infrastructure 
that will meet NASA's mission needs while reducing the Agency's overall 
footprint and future operating costs. In August 2011, NASA opened the 
Agency's first building designed for ``Net-Zero'' energy operations, 
the Propellants North Administration and Maintenance Facility at the 
Kennedy Space Center in Florida. Two active programs that result in 
NASA achieving greater efficiencies and reduced operating costs are 
NASA's demolition program and recapitalization program, in which old 
inefficient facilities are replaced with new, efficient, consolidated 
facilities. Twelve horizontal infrastructure projects that sustain our 
major utility systems are included in this request; completion of these 
projects will reduce our usage of potable and process water, 
electricity and steam.
    The Fiscal Year 2013 budget request includes $66.4 million for the 
Environmental Compliance and Restoration (ECR) Program, which supports 
the ongoing clean-up of sites where NASA operations have contributed to 
environmental problems. The ECR Program prioritizes these efforts to 
ensure that human health and the environment are protected. This 
Program also supports strategic investments in sustainable 
environmental methods and practices aimed at reducing NASA's 
environmental footprint and lowering the risk of future cleanups.
Conclusion
    NASA's Fiscal Year 2013 budget request of $17.7 billion represents 
a substantial investment in a balanced program of science, exploration, 
technology and aeronautics research. Despite the constrained budget 
environment facing the Nation, this request supports a robust space 
program that keeps us on a path to achieving a truly audacious set of 
goals. NASA is working to send humans to an asteroid and ultimately to 
Mars, to observe the first galaxies form, and to expand the 
productivity of humanity's only permanently-crewed space station. We 
are making air travel safer and more efficient, learning to live and 
work in space, and developing the critical technologies to achieve 
these goals. The coming year will include the first commercial cargo 
flights to the ISS, a nuclear powered robot the size of a small car 
landing on the surface of Mars, and the launch of the Nation's next 
land observing satellite. We have spacecraft studying the Sun, circling 
Mercury, cruising to Pluto and investigating almost everything in-
between. In the face of very difficult times, the American people 
continue to support the most active, diverse and productive space 
program in the world. We at NASA are honored by our fellow citizens' 
continued support and we are committed to accomplishing the goals that 
Congress and the President have laid out for us. The program described 
and supported by our Fiscal Year 2013 budget request represents our 
plan to accomplish those goals.

    Senator Nelson. By the way, one of the differences between 
you and Dr. Tyson is you refer to it as MPCV, and he will refer 
to it as Orion.
    [Laughter.]
    Mr. Bolden. That is very true, and he is correct.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Mr. Administrator, I heard what you just 
said, but here is how I come at my concern. I told you at our 
last hearing and also I have said to you in many meetings that 
we have had, I do support additional funding and the goal of a 
Commercial Crew vehicle because I think that is an important 
first step.
    But I have always said that as long as it doesn't come from 
the future beyond low-Earth orbit that we are going to be on 
the same team. So you called me with your budget proposal that 
was going to come out of the administration, and I see a $326 
million combined reduction in Orion and SLS and a corresponding 
increase of $330 million for Commercial Crew.
    And I was, frankly, floored, as you know from our 
conversation, that it would be so blatant to take it right out 
of Orion and SLS and put it into Commercial Crew, rather than 
trying to accomplish the joint goals that we have of putting 
forward both and making sure that we didn't take away from the 
timetables for the future to shore up the Commercial Crew. How 
can you explain that?
    Mr. Bolden. Senator, the numbers that we submitted are 
numbers that are consistent with the plan that we had all gone 
over when we started talking about the development of MPCV and 
SLS. As I mentioned before, we had to make very difficult 
choices because we were $2 billion below what we thought we 
would be for a Fiscal Year 2013 budget.
    Cuts came from everywhere. Reductions came from everywhere. 
What we tried to do was maintain a balanced program. In fact, 
what we did was submit a budget request for a balanced program.
    And as I have mentioned, we have not slowed the development 
of SLS and MPCV. In fact, we have actually done some things 
that we did not know we were going to do. Our contractor, prime 
contractor for the Orion spacecraft has put in a 2014 test that 
Senator Nelson mentioned. That was not originally in our plan.
    The exploration vehicle flight test, which will be flown 2 
years from now in 2014, was not originally in our plan, and it 
is something that we have been able to find the funds to do. 
That will buy down significant risk on Orion, and it will keep 
us from having to worry about some things that we would have to 
either pay for or even take time to do in subsequent 
development.
    So that is going to allow us, actually, to get to the 2017 
date, which is the first uncrewed test of the integrated 
system, and that is very important for us. You know, more money 
would not change that date. That is development work that we 
have to do.
    Getting there, I feel much more comfortable now that we 
have the 2014 flight test planned that Lockheed Martin is going 
to do on Orion.
    Senator Hutchison. What concerns me is not those two dates, 
the 2014 and the 2017. But you have now put dates on a crewed 
launch of the Orion onboard the SLS for 4 years later at 2021. 
Now I have heard you say that, well, it takes longer to 
complete the human safety ratings for the vehicles, and we need 
to have catch-up time.
    But 4 years gap doesn't seem to square with staying on a 
course for that future when the Space Station is going to be 
presumably shut down in 2020.
    Mr. Bolden. Senator, actually, what we need to do is we 
will go through another--in this year, we will have a much 
better feel for where we are in terms of the progress of our 
development, and that date may change. But that is a date that 
we look at right now based on a level budget run-out.
    The 2021 date is a date that is affected by budget. And 
given the budget run-out that we see right now, that is the 
date that is there. But we still have some more evaluations in 
our planning to do before we are able to actually make a 
definitive decision on the first date for a crewed launch. But 
2021 is--I am a conservative person, and 2021 is a conservative 
estimate for the first crewed mission on the integrated SLS/
MPCV combination.
    Senator Hutchison. Well, you said that everybody had to be 
cut some to make the priorities. But in fact, the Commercial 
Crew vehicle approach that you are taking was not cut. It was 
plussed up from last year's spending levels.
    And yet you cut the Orion and SLS to presumably make that 
happen. I mean, it was almost exactly the same amount of cut in 
the SLS and Orion that was plussed up in your budget for the 
crew, which continues to come back as some sort of quid pro quo 
that you are overprioritizing the commercial and not being as 
concerned about keeping the people at NASA who would be able to 
stay involved to get us to that next level when the Space 
Station is going to be decommissioned.
    Mr. Bolden. Senator, you commented about a number of 
things. Just very briefly I would say our workforce is stable. 
I am not doing anything that will take away from the NASA 
workforce.
    But I do want to say that in terms of the Commercial Crew 
program, I do need to take us back----
    Senator Hutchison. Are you saying that with the $330 
million cut that it is not going to affect the NASA workforce?
    Mr. Bolden. I am saying that the NASA workforce, the SES 
workforce, the 17,000-plus people that we have right now, as 
far as we see is stable to a certain point. You know, 
everybody, we are looking at how we move the skills around.
    So our center directors right now are working to determine 
how they take the projects that we have assigned them and how 
we may need to move skills around or bring in. We want to bring 
in fresh blood, if you will. We are looking for how we take 
some of the interns and co-ops that we train and employ them.
    So those are issues of workforce that we are looking at. 
But the civil service workforce I don't expect to be affected 
by this budget. This budget enables us to keep our civil 
service workforce relatively stable for now.
    What I do want to emphasize is when we talk about 
Commercial Crew, it is very easy to use $406 million as a 
baseline. That is not the baseline. If you all will recall, my 
original request, my original request was over $1 billion.
    We brought that down for Fiscal Year 2012 to $850 million. 
We were cut by half. When I was asked last year what effect 
does it have if you don't get $850 million, I said that 
directly affects the date of delivery of Commercial Crew 
capability. That is how we got to 2017, instead of 2015, 2016.
    And any subsequent reductions from what the President has 
requested for Commercial Crew only serves to delay the amount 
of time that we have a commercial and American capability to 
get our crews to the International Space Station. The reason I 
wanted to emphasize the importance of ISS is I have to be able 
to support that.
    You know, I am not worried about it right now for cargo 
because of STS-134 and STS-135 that this Congress funded after 
the President's request. So we all worked together to get that, 
and it is really important that we got STS-134 and 135 flown. 
Because now, with the delays that we may see in getting to a 
viable crew and cargo program, we are not worried about having 
to de-man station.
    I need to get American crews to station on American 
vehicles, and decreasing the amount of money below $829 
million, what we request, will not help close that gap.
    Senator Hutchison. Mr. Administrator, we agree that we need 
to get the Commercial Crew up so that we are not dependent on 
the Russians. In our authorization bill, we provided the 
allocations that would allow that to happen without taking from 
the longer term, the beyond low-Earth orbit vehicles.
    The authorization level was $500 million. That was signed 
by the President. That is part of the agreement. So when you 
come in and ask for $850 million, and you take it right out of 
Orion and SLS, we have got a disconnect here if you are saying 
that is the baseline budget. No, no, $500 million is the 
authorized level.
    So I want to ask you a question because I have been looking 
at this and trying to get a way forward that the crew--the 
Commercial Crew vehicle can go forward with a reasonable level. 
We can also not stop the beyond low-Earth orbit. Both the NASA 
employee base and the commercial vehicles can go forward. And 
here is the line that I would like to take and have your 
response.
    And it is in the insistence on spreading the money out to 
some multiples--three, maybe more companies, commercial 
companies--to subsidize these companies, which some of them are 
not going to be able to function if they don't have these 
subsidies once you make a decision about who is going to do the 
vehicle. So we are essentially throwing a lot of money at some 
companies that may never be able to use it to the taxpayer 
advantage.
    You reversed a previous decision to use a Federal 
acquisition regulations-based procurement for Commercial Crew 
in the next phase leading to the critical design review of the 
various systems, and you have gone back to the use of the Space 
Act Agreements. The Aerospace Safety Advisory Panel recently 
issued its report expressing some concerns about this approach 
and the degree to which it can enable NASA to ensure that 
safety standards are being met.
    So I am just wondering if you are going to put off the 
safety-related human rating requirements to that next level, 
isn't there maybe an overspending at this point in the 
proliferating of companies that are getting the Federal 
subsidies?
    And couldn't you, number one, make the Commercial Crew 
developers more accountable in the early stages if you cut back 
on the number of companies that you are dealing with and go 
back to maybe the more traditional approach of setting the 
designs and the standards and then going out for bids, and 
lowering the number of subsidies you have to do of private 
companies to maybe two, instead of three or more? And spend the 
taxpayer dollars more efficiently and be able to do the job 
that we want you to be able to do for Commercial Crew, and also 
keep the ongoing coordination with your NASA-based SLS and 
Orion development and have a win on both sides?
    Mr. Bolden. Senator, let me offer this. If I had made an 
earlier decision to go with one of the two companies that were 
believed to be competitors for Commercial Crew, Boeing would 
not be in the competition now.
    Senator Hutchison. And I am glad Boeing is.
    Mr. Bolden. I am just saying----
    Senator Hutchison. But we are where we are. We are not back 
there.
    Mr. Bolden. Senator, I am just saying----
    Senator Hutchison. And I am glad Boeing is in----
    Mr. Bolden.--for those who would like to----
    Senator Hutchison. That gives me comfort.
    Mr. Bolden. For those who would like to see me make a 
decision on a company now or would like to have seen me go with 
a contract in February, as my original acquisition strategy 
stated, the experts, people who are considered to be experts in 
acquisition and funding--GAO, the NASA ASAP, my OIG--many of 
them said, given the budget, given you have now $406 million, 
we think it is prudent--this is their direction to me.
    We feel it is prudent for you to review your acquisition 
strategy and maybe not go with the strategy that you presently 
have. No one was as reluctant as was I to change my mind on the 
acquisition strategy.
    We had come to the strategy that we had after long 
deliberation. So to go back and say we are going to extend the 
use of Space Act Agreements was not something that was, you 
know, tops on my list of things I want to do.
    However, I felt very comfortable in doing that because we 
had adhered to the insistence from the ASAP, from the Aerospace 
Safety Advisory Panel, that we put requirements and 
specifications in place so that any person planning to bid on a 
Commercial Crew system--not a vehicle, on a system--and that is 
what we are talking about now, would know what NASA's 
requirements are, would know what NASA's human rating 
specifications were, and would have no ground on which to stand 
to say, well, in this design that we developed, we didn't know 
you were going to.
    No one can say that because there are hard requirements out 
there right now that anyone who gets a contract will have to 
follow. There are hard specifications for human rating 
standards that everybody knows that is what, they have them in 
hand. They cannot say, ``I don't know.''
    The problem, there is no problem of safety with going to 
Space Act Agreements. The Space Act Agreements input program 
risk, not safety risk. I am responsible for safety. And as I 
have said from the day that I became the Administrator, I will 
not jeopardize safety for crews.
    Safety is not being jeopardized by going to the Space Act 
Agreement, expanding that. We still will guarantee safety.
    Senator Hutchison. But the budget and the future, Mr. 
Administrator, the budget and the future are being jeopardized. 
So if you say the safety is there, why not go to fewer 
companies now? Now that you do have the ones that are going to 
be the most serious contenders, why not go like they did the F-
35, for instance, where you did go through two pretty 
comprehensive competitions and do it within the budget that we 
have agreed to that was in the authorization?
    Mr. Bolden. The F-35 is not a great example. It is not a 
good comparison because there was a long road before getting to 
that point where they came down to two competitors. They went 
through much of what we did.
    But I need to give these companies time to learn lessons 
that NASA has learned through blood, and that is the advantage 
of extending the Space Act Agreement period of time. It is now 
giving Ed Mango and his Commercial Crew team an opportunity to 
put people in the facilities.
    We have NASA employees who are onsite with the contractors, 
acting as consultants, seeing how they perform, seeing how they 
do their work, overseeing what they do in terms--or not 
overseeing in terms of control, but looking at the way that 
they carry out their design and productivity.
    We are much better off having a little bit more time to 
look at them and determine who the real players are, such that 
when we finally go out with a request for proposal 14 to 20 
months after this that we know we will get a good product.
    We still think we are going to have a crew system available 
in 2017. You know, that date is set. Now that is something that 
more money might be able to change. But for right now, 2017 is 
a date that is not in jeopardy with the President's budget.
    If we have to extend any other periods, then the 2017 date 
becomes jeopardized, and our ability to support the 
International Space Station with American companies on American 
vehicles becomes jeopardized. And that is not where I want to 
go.
    I am going to pay the Russians $450 million a year for 
every year that I don't have an American capability to put 
humans into low-Earth orbit. And I know you don't want to do 
that. You and I have both agreed. But that is the price I pay, 
$450 million.
    If you add that to $406, I am up to $850 million. So I 
just--you know, I am trying.
    Senator Hutchison. Mr. Chairman? I mean, Mr. Administrator?
    Mr. Bolden. We are not taking money away from SLS/MPCV. The 
SLS/MPCV----
    Senator Hutchison. But you are. It is clear. It is in the 
numbers, and it is irrefutable.
    If you had the passion and the concern for the SLS and the 
Orion that you have for protecting whatever number of 
commercial companies that you want to put out there----
    Mr. Bolden. Senator, not to get personal----
    Senator Hutchison. I just think----
    Mr. Bolden. My passion for SLS/MPCV exceeds anybody's in 
this room. So I just----
    Senator Hutchison. Well, it is not shown in the numbers, 
Mr. Administrator. That is the problem.
    Mr. Bolden. Senator, I fight for SLS/MPCV just as much as I 
do for every other of the three priorities we have agreed upon.
    Senator Hutchison. It took us a year to even get a contract 
that would even begin to be put out there. The NASA 
administration has drug its feet on the other of the human 
space flights that we have on our agenda and continues to push 
above the authorization levels and act like that is the 
baseline budget.
    And I think if you just would open your mind to the 
possibility that you could cut down the number, but not the 
amount of emphasis that you have in the commercial sector that 
we could do both.
    Mr. Bolden. Senator, when we cut down the number of----
    Senator Hutchison. And I am just trying to get a way 
forward.
    Mr. Bolden. When we cut down the number of competitors, we 
will probably drive up the cost. I am paying right now a set 
amount in a Space Act Agreement. We have a set amount. So I 
will either have $406 million for the next 5 years or I will 
have $406 million this year and then $829 the next that I can 
contribute as a partner.
    Whatever it cost over that for development is coming out of 
the pockets of those developers. It is not--it is not accurate 
to think that we are subsidizing a company. We are a partner.
    And whereas NASA would be paying the development cost, as 
we did for all of the weapon systems and everything else, we 
are not paying the development cost right now. The company is 
paying the development cost minus whatever I can give them 
through the COTS program, through the Commercial Crew program, 
through other programs.
    It is really important to do that. Once we sign a contract, 
then I am on the hook to pay for whatever they say it is going 
to cost. There is no sharing anymore. It is now my cost. They 
don't put in a penny.
    So if the bill is $1 billion, I get it. The American 
taxpayer gets it, and that is where it is going to be. If there 
are mistakes made in the design because I cut them short of 
this 14-month period that we are giving them right now and 
there are engineering changes required, I am going to get that 
bill. The American taxpayer is going to get that bill.
    I know it doesn't seem like it, but this is going to be 
cheaper for the American taxpayer in the long run. We are going 
to get a much better product in the long run. We are doing what 
we can.
    We took the best we had from previous programs and put them 
into SLS and MPCV. That is why I am so confident about that 
program. There are a lot of knowns in SLS/MPCV. You look at the 
first stage propulsion system. Those are Shuttle main engines.
    You look at the upper stage rocket that we one day will 
have, the J-2X, we are testing that engine. We are getting 
confidence in that engine.
    You look at the basic design of the vehicle. It is stuff 
that we are very familiar with. The only unknown is what the 
boosters are going to be because we know we have got to have 
advanced boosters. And industry is coming in, even as we speak, 
with recommendations on what those advanced boosters will be, 
and we are going to get the best that American industry can 
provide.
    So I am much more confident, you know, about SLS/MPCV, and 
that may be the reason that it appears that I am not passionate 
about it. I am incredibly passionate. But I am also a lot more 
confident because this is something that we are lot more 
familiar with, to be quite honest.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    General Bolden, we are going to--I want to recall for 
everybody here the history of how we got it to where we are on 
the amount of money for the commercial rockets. Remember, it 
was the House of Representatives that had whacked the 
President's request of $800 million down to $300 million. We in 
the Senate had passed an appropriation of $500 million.
    And so, naturally, in the Conference Committee, we were 
able to get it up--primarily, Senator Mikulski, the Chairman, 
and her Ranking Member on the Appropriations Subcommittee, 
Senator Hutchison--to get it up to $406 million.
    Now I am very sympathetic to what you are saying, that in 
order to stay on a schedule of 2017 to launch Commercial Crew, 
you are going to need more than $406 million. So, in these 
constrained budget times, the question is where are we going to 
get that?
    We certainly don't want to take it out of the big rocket or 
Orion. But I also am concerned about the fact that on the big 
rocket, it is great we are going to test it in 2014. That's in 
2 years. We are going to start launching big systems in 2 
years, and you are going to do a more outfitted test in 2017.
    But then it takes 4 years, from 2017 to 2021, before you 
put the first crew onboard. Now something just doesn't seem 
right there. Why the delay of 4 years?
    Mr. Bolden. Senator, as Bill Gerstenmaier has testified 
before this and other committees, the development program for 
the SLS/MPCV, for the system, is a very complex program. We are 
still looking at what we have to do once we fly the test on 
Orion in 2014. We still need to understand what challenges we 
have in this development program.
    So it is actually--I would hate to say it is too early, but 
it is too early to say definitively how long it is going to 
take to get to first human flight. We have said before there 
are ways to fly earlier.
    It is a matter of budget, if you talk about can you fly a 
year earlier or 2 years earlier? But there are other things 
that we just don't know yet. We don't know how well our 
processes are going to respond to changes that we have made. We 
don't know how rigorous our management techniques are going to 
have effect.
    Efficiencies that we have tried to put into this system and 
its development based on lessons we learned from Constellation, 
it is just too early for us to know whether those have taken 
effect or not yet. I could assume that we are going to get the 
efficiency gains that we are counting on, but that would not be 
very good because I would find myself back in a situation as we 
were with Constellation where we now don't have enough money, 
and we don't have enough time to meet the date that I promised 
you.
    2021 is a conservative estimate, and we feel confident we 
can get there with the budget that we have and the budget we 
are submitting for 2013 with the run-out that is there right 
now.
    Senator Nelson. Well, remember also in the context of where 
we come today, the House of Representatives had also basically 
eliminated the James Webb Space Telescope. And in the attempt 
in the Conference Committee to get that money back in so that 
James Webb could proceed, which is going to take us back almost 
to the beginning of time in the universe and, therefore, is an 
extremely important scientific mission, but with a limited 
amount of money, we know we are asking you to do an awful lot.
    But they came a long way to get it up to $406 million for 
Commercial Crew and put back the money for James Webb. So what 
we need to do is work with you at coming up with a number for 
Commercial and not at the same time sacrifice anything on the 
big rocket and Orion.
    For example, you have got a request of $200 million less 
for Orion than was enacted in 2012. So there is less money in 
your request for Orion than was put in for Orion in 2012, and 
we have just got to work this out.
    Mr. Bolden. Yes, sir.
    Senator Nelson. All right. Before I turn to Senator Rubio, 
let me ask you about one of the good news things, at least from 
the Kennedy Space Center standpoint, is the significant amount 
of money that is going in to redo the space center in order to 
accommodate all of the new rockets and the new changes.
    But in the way that it is put about in the budgeting, it 
gets confused. It looks like 21st century is diminished when, 
in fact, a lot of getting ready for the 21st century space 
program is you can't fly a rocket unless you have a launch pad.
    And so, there is a lot of construction money in this Fiscal 
Year between now and September the 30th of this year that is 
going to be going into the redoing of facilities at Kennedy 
Space Center. You want to comment about that?
    Mr. Bolden. Senator, I thank you very much.
    There are a number--what we tried to do in working with the 
staff and the Committee here is to break out funds in a method 
that would be much more understandable to people, and this is 
an area of concern when we look at--when we use the term SLS, 
heavy lift launch vehicle, if you look at where we were last 
year, that was the broad category for everything that had to do 
with heavy lift.
    What we have tried to do in this budget and what we are 
doing in practicality is we break out funds that are spent on 
ground systems, not the vehicle itself, into what we call 
exploration systems, exploration ground systems and 21st 
century. Very simply stated, maybe oversimplifying it, 21st 
century deals with making the launch complex at the Kennedy 
Space Center a multiuse facility. So it serves both SLS and 
commercial--future commercial users.
    Things very simple, like putting in the flame trench a 
movable deflector, so that the rocket used, we can move the 
deflector to one position for an Atlas, if you were to put it 
there, and another position for a Falcon 9.
    The exploration ground systems deal strictly with SLS/MPCV. 
So they are divided into three other systems. One of them has 
to do with command and control. I need those systems in place 
before we fly the 2017 mission. I need those systems in place 
for the folk at Kennedy to be able to go through simulation so 
that when we bring the vehicle down and we decide we are going 
to launch, they have been through simulation training and the 
like.
    Some of it has to do with the infrastructure itself. So 
there are three different categories of the exploration ground 
system. So you will see now, and I don't have it memorized, but 
I think we actually have budget lines now for exploration 
ground systems, for SLS, for 21st century, and then for SLS, 
which is vehicle development itself.
    So we hope it will make things clearer to people when we 
look at it that way.
    Senator Nelson. Well, I just want to make clear for the 
record, for those elsewhere in the country that are questioning 
the construction projects at the Kennedy Space Center, those 
other areas of the country that are building rockets, that you 
can't launch rockets unless you have the launch pad. And so, 
you have to do one in order to do the other.
    Senator Rubio?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you.
    [The prepared statement of Senator Rubio follows:]

   Prepared Statement of Hon. Marco Rubio, U.S. Senator from Florida
    Thank you, Mr. Chairman.
    I want to start by thanking Administrator Bolden and Dr. Tyson for 
appearing today before our committee. Thank you both for the work you 
are doing for our Nation's space program.
    I think it is safe to say that all of us here today are strong 
supporters of our space program. We know what NASA is capable of, and 
we recognize the unique and irreplaceable asset that is our space 
workforce.
    We want the United States to maintain the lead in human 
spaceflight, and we all believe in the space program and what it 
provides for our country.
    So the question is how we find a budget that accomplishes all of 
these things. We know that cuts have to be made to NASA's budget. They 
have to be made to every agency's budget.
    Because the bottom line is that our Nation faces a debt crisis in 
the near future because, quite frankly, politicians in both parties 
have spent recklessly for many decades and been unwilling to reform and 
save crucial safety net programs that are simply going bankrupt.
    This will require Washington to finally live within its means and 
for leaders to make tough choices about what our Nation's priorities 
are.
    NASA is no exception. It will not be about spending more. It will 
be about spending wisely. It will be about balancing priorities.
    Everything we discuss at today's hearing, whether it's commercial 
space activities or going to Mars, is all tied to, and affected by, our 
national debt.
    We often hear about how our debt is a burden that hangs around the 
government's neck. Or even worse, that it saddles future generations of 
Americans--my children and future grandchildren--and what they will be 
able to accomplish in the future.
    This is a fact, and our debt will certainly have the same impact on 
NASA. All of our future exploration plans and technology investments 
will be impacted by our national debt and by our government's ability 
to solve this crisis.
    I hope that we discuss these issues today, and I look forward to 
hearing from Administrator Bolden on how our fiscal crisis is affecting 
the agency's ability to plan for the future and accomplish the big 
things that we know NASA can do.
    Mr. Administrator, I hope that you, NASA and Congress can work 
together to answer these questions.
    Thank you, Mr. Chairman.

    Senator Rubio. And my first question was along those lines, 
too. We have heard some of the same observations made by some 
that why are we spending so much money on the 21st century 
launch complex if we don't have a system in place yet?
    And I think you touched upon it. You may want to add to 
that because the notion of how we need to do those 
simultaneously is so critical--could you touch upon why it is 
so important we do both at the same time?
    Mr. Bolden. What we are trying to do, and even when you 
look at the vehicle development itself, SLS and Orion, we want 
to be able to reach a date in the future when everything comes 
together. It doesn't do us any good to have an Orion vehicle 
that is ready to fly a year before I have a launch vehicle.
    It doesn't do me any good to have a launch vehicle ready a 
year before I have a crew module to put on it. And it 
definitely doesn't do me any good if I have Orion and SLS 
teamed together ready to launch, sitting in the VAB because the 
launch facility is not complete.
    So we are running programs in parallel. The ground systems 
development, the 21st century, SLS, MPCV--they are four 
separate entities, but we are running them and funding them in 
parallel so that they all come together at a critical time for 
us. That critical time right now is 2017.
    And the way that we have submitted the budget, the way 
that--if you look at our PERT charts that some people used to 
use a long time ago. But if you look at our planning charts, 
which is the schedule, you will see that we are moving along 
such that everything comes together in time to support a 2017 
launch.
    And that is oversimplification, but hopefully, that helps.
    Senator Rubio. On the overall topic as we talk about 
funding today, I mean, clearly, the issue that hangs over the 
space program is the fact that at a time of growing national 
debt and fiscal constraints, we are trying to figure out a way 
to keep our leadership in space, but do so with limited 
resources that--and I don't think there has ever been a good 
time to waste money--more than ever before requires us to look 
at every penny that we spend.
    And so, in that debate, we have heard a lot of 
conversations, rightfully so, about what role NASA is going to 
play and our own launch operations. But we are on the verge of 
what I think is an historic milestone, and that is both SpaceX 
and Orbital Sciences and others that are about to do some of 
these test launches for cargo missions.
    I think there is no doubt that that is going to be an 
inevitable part of our space program. The commercial component 
is going to be a part as we move forward and, in fact, may free 
up NASA to do some other things in deep space and otherwise by 
allowing us to rely more on those sorts of things.
    Can you talk a little bit about that? Because I think, 
obviously, those of us who are familiar with the space program 
hear about it every day. But there is a real lack, I think, of 
public information, and it is no one's fault, but I am shocked 
at how many people don't realize that we are on the verge of 
that launch, which I think is now scheduled for SpaceX?
    Mr. Bolden. SpaceX is now the end of April-ish and Orbital 
sometime in the summer.
    Senator Rubio. What do those launches mean from a 
historical perspective?
    Mr. Bolden. They are historical milestones, very simply 
put. We have never had a private company launch a rocket with a 
capsule on it for any purpose, put it in orbit, rendezvous with 
another vehicle that has humans in it, station keep, be 
attached to that vehicle, which is the International Space 
Station, such that it becomes an integral part of the 
International Space Station. Take the all-important step of 
opening the hatch, okay? Opening the hatch.
    Which means that now the existence of the International 
Space Station is dependent upon the structural integrity of 
Dragon or of Cygnus. That is an historical milestone. When we 
can open the hatch on a private vehicle and have everything 
stay intact and still useful and people breathe, that is pretty 
important.
    And that is what is going to happen when SpaceX flies at 
the end of April, and that is what will happen again when 
Cygnus flies in the summer. That is critical. And if I were 
talking to the Cub Scouts that Senator Hutchison had, Senator, 
I thank you so much for spending your time. I know you got a 
lot of things you could do.
    You could do nothing more valuable than spending your time 
with the Cub Scouts because that is the future. One of them is 
going to be sitting here in this chair, trying to demonstrate 
that they are passionate about this stuff to somebody who is 
going to succeed Senator Hutchison. But they are not going to 
do it if I don't have a program for them to be inspired by.
    And so, what you talk about, this that is going to happen 
this spring and summer is a critical first step. It says 
American companies can, in fact, do what foreign companies do. 
We know we can do that. We have done it throughout history. But 
we don't have the capability to do it right now, you know?
    We don't have an American company that has demonstrated its 
ability to launch, rendezvous with, and be berthed to the 
International Space Station.
    Senator Rubio. But that leads to the follow-up question 
because I am out of time, and it is not really a question. It 
is more of asking for your observation of what that means from 
the mission statement of NASA at this point.
    For example, it is my guess now and a lot of these issues 
are issues we have now been confronting for a couple of years 
at the Federal level, although I am familiar from my state 
experience of the importance that these launch capabilities are 
to Florida. So now you are assuming that a couple of years out, 
we begin to have a very reliable private sector, commercial 
capability to do certain things, that frees up NASA to do what?
    Mr. Bolden. That frees us up to spend our time and effort 
on completing the development of the exploration vehicles that 
Senator Hutchison is so--about which she is so passionate. It 
frees us up to focus our efforts on getting humans beyond low-
Earth orbit to places like an asteroid, where the President has 
told us to go in 2025, to the Martian environment in the mid-
2030s. It frees us up.
    Most importantly, though, a thing that we don't talk about 
very often. In fact, we probably never talk about it. In the 
National Space Act that established NASA in 1958, even back 
then, people were smart enough to know that NASA's job is to 
create technologies that can be transferred into the private 
sector for the benefit of the American economy.
    The big thing that Commercial Crew and Cargo are going to 
bring to this country is the ability to provide a market for 
people all over the world who want to take things to low-Earth 
orbit. They won't have to go to Ariane. They won't have to go 
to Russia. They won't have to go to China.
    They won't have to go anywhere. They can come back to 
American shores and put their spacecraft on an American rocket 
and get it to low-Earth orbit. That is the economic benefit of 
what we are about, and that is one of our priorities in the 
National Space Policy of 2010 that was signed into law by the 
President.
    And it is a very important part of the 1958 Space Act and 
its attendant modifications through the years. But we don't 
talk about that very often.
    Senator Nelson. We will wrap this up with one additional 
thing that I want to ask you, Mr. Administrator.
    The NASA Inspector General, Paul Martin, recently testified 
before the House that NASA has been the subject of numerous 
cyber attacks, some potentially stemming from foreign 
intelligence agencies and organized criminal enterprises. And 
he stated, and I quote, ``Skilled and committed cyber attackers 
could choose to cause significant disruption to NASA 
operations, as IT networks are central to all aspects of NASA's 
operations.''
    Now let me just say that we have spent a great deal of time 
on this in the Intelligence Committee, and of course, the 
attacks are attempted every day, as I mentioned earlier. And 
they are attempted at all Government agencies, and thus far, 
with the national security agencies, we have been able to 
protect against those cyber attacks. There are state actors out 
there. There are nonstate actors that every day are trying to 
penetrate the computers.
    But with regard to NASA, in light of your IG's report, I 
want to ask you three questions. Have there been any instances 
where a cyber attack has resulted in disruption of a NASA 
mission?
    Mr. Bolden. Senator, there have never been any that we have 
been able to find.
    Senator Nelson. Second question. Have there been any cases 
where you suspected a cyber attack impacting a mission?
    Mr. Bolden. Senator, to my knowledge and in my query of my 
folk, there have never been any that we suspected that there 
was anything that would have had an effect on a mission.
    Senator Nelson. So the loss of the algorithms with regard 
to some of the functions on the Space Station, there is no 
evidence that that had any effect upon the operation of the 
station?
    Mr. Bolden. Senator, there was no effect on the loss of 
anything on station. But I do need to elaborate a little bit, 
if I may?
    No one is as concerned about cybersecurity and IT security 
as I. And you have heard this from the head of the NSA, from 
the Chairman of the Joint Chiefs of Staff, from the Secretary 
of Defense, this is a serious threat.
    There are three areas when we talk about IT that concern us 
all. One is thefts and losses, and we talked about this a 
little bit before. One of the things that I am doing is 
emphasizing to our employees that they have to be vigilant. 
They can't leave a computer, a laptop--you know, a laptop that 
has NASA information on the front seat of a car.
    Locking the car with a NASA laptop is not sufficient 
security. They can't put it down when they go to an airport. 
That is personal discipline and the like, and we can affect 
that. You know, we can't affect someone breaking into an office 
at NASA headquarters and stealing a laptop or a computer.
    The other one is hacking and intrusion. That happens to all 
of us, and I don't know that we are ever going to stop that. 
But what we do is we put safeguards in place. If you are 
talking about the International Space Station, it is not 
impossible to do anything. But right now, we are confident that 
we have a system of encryption. Any command that goes to the 
International Space Station, any critical command goes through 
an elaborate system of encryption.
    So, first of all, there would be no commands on a laptop 
that would be--that someone would be carrying around. So that I 
am not concerned about. But any commands that are going to go 
from a console, whether it is at Huntsville or Moscow or 
anywhere, has to go through a system of encryption at the 
Johnson Space Center.
    In the case of disasters where we would transfer 
responsibility to Huntsville, Alabama, it would go through the 
same encryption at the Marshall Payload Operations Center, 
which would assume control.
    So the third area is encryption. And that, again, is 
personal behavior and discipline. And if you are--what we will 
tell our employees, if you are going to put what we consider to 
be critical information on a laptop, encrypt it. It is very 
simple. Just encrypt it such that if your laptop falls in the 
hands of someone else, they have at least got to go through 
some effort to get it.
    They don't just open up the laptop, turn it on, and there 
is everything, as the IG, I think, may think happened in this 
case. But I don't know that that really happened. We haven't 
had an opportunity to look at the report and the evidence that 
he has to even determine whether someone really did have vital 
data that was readily available on a laptop.
    Senator Nelson. So you think the algorithms were lost 
because they were on a laptop?
    Mr. Bolden. Senator, I don't--again, what I have to say is 
the issue that Paul Martin raised is in a pending report that I 
have not seen. So I would rather not comment on the contents of 
what was in his report.
    I have checked in my organization, and to my knowledge--but 
I will take it for the record--we have not seen the report to 
which he referred. So we definitely have not seen the 
information that he has or the evidence that he has. So I would 
not even--I can't even say that there were algorithms on the 
laptop. But I will take that question for the record and get 
back to you.
    Senator Nelson. But you can assure this committee that were 
the algorithms to get into some third party's hands that wanted 
to do something bad, that they couldn't because you encrypt any 
of the commands that go to the station?
    Mr. Bolden. Senator, I can assure you that if, in the 
unlikely event, someone ended up with a laptop that had 
critical commands for the International Space Station or any of 
the payloads onboard, if that unlikely occurrence happened, 
they would still have to get through another set of firewalls 
at the Johnson Space Center because everything that goes to the 
International Space Station, as it did with Shuttle, is 
encrypted prior to transmission.
    And we have verified that. So they would not be able to get 
commands to the International Space Station.
    Senator Nelson. OK. As you are doing your investigation, 
you might also find out why only 1 percent of NASA laptops and 
portable devices are encrypted versus a Government average of 
54 percent?
    Mr. Bolden. And Senator, that is the encryption issue that 
I mentioned that I can take action there, and I intend to do 
so. I can make it a policy or reemphasize the policy that when 
critical information goes onto a laptop or a personal device 
that it is encrypted or it not go on that device. That is a 
matter of behavior and personal discipline. That is not a 
foreign entity.
    Senator Nelson. But it is also a matter of policy.
    Mr. Bolden. That is a matter of policy, sir.
    Senator Nelson. And that is why is NASA so far behind the 
rest of the Government in securing the data on its portable 
devices?
    Mr. Bolden. Senator, I will try one more time. Prior to 
this week, it was my impression that I had established a policy 
that said no one would do what they did. So, once again, it is 
the leader who thought something was done and now has to go 
back and find out whether it was really done.
    Senator Nelson. And so, the way we can wrap this up is if 
you will just give us a full briefing----
    Mr. Bolden. Yes, sir.
    Senator Nelson.--classified if necessary, once you have 
reviewed the IG's report.
    Mr. Bolden. Yes, sir.
    Senator Nelson. And then in that briefing tell us the 
procedures and what you do to investigate those occurrences 
that are mentioned in the IG's report.
    Mr. Bolden. Senator, I will be certain to do that.
    Senator Nelson. OK.
    Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman and Ranking 
Member.
    I apologize for not being here earlier. I had a couple of 
people from Arkansas that I had to introduce at another 
committee. But I think in the interest of time that I will go 
ahead and just listen.
    [The prepared statement of Senator Boozman follows:]

  Prepared Statement of Hon. John Boozman, U.S. Senator from Arkansas

    Thank you, Mr. Chairman. I am glad that Administrator Bolden and 
Dr. Tyson can be here today to discuss with us NASA's proposed budget 
for Fiscal Year 2013 and the direction of this nation's civil space 
program.
    It is important for us to have this hearing, not only to focus on 
the primary challenges and issues NASA is facing in maintaining active 
and balanced science and aeronautics programs, but also because we are 
in the midst of a dramatic shift in NASA programs and priorities, 
especially regarding the future of U.S. human spaceflight.
    Since its establishment in 1958, NASA's flagship programs have 
targeted exploration, beginning with Mercury and Apollo programs and 
extending through the Space Shuttle, the International Space Station, 
space telescopes like the Hubble, Mars rovers and other planetary 
observations.
    With the final flight of the Space Shuttle last year and the 
initiation of the Orion and Space Launch System programs, NASA's human 
space flight programs have been undergoing a major transition, with a 
rebalancing of priorities and workforce.
    I share Senator Hutchison's concern that the Fiscal Year 2013 
budget request for NASA, while reflecting what may appear to be a 
reasonable top-line amount in the context of anticipated cuts in many 
parts of the federal budget, does not closely adhere to and in fact 
could undermine in some cases, the very careful balance established in 
the 2010 NASA Authorization Act.
    The budget request provides funding for the SLS (rocket) and Orion/
MPCV(capsule) at levels that represent a combined total of $1.77 
billion below the amounts authorized for Fiscal Year 2013--a 44 percent 
differential--and about 12 percent less than was appropriated in Fiscal 
Year 2012. I am concerned that this may not only serve to delay the 
actual vehicle development, but also increase NASA's risk for a 
successful and timely return to Human Exploration capability.
    I continue to believe that the nation needs both a robust heavy-
lift and crew exploration vehicle development to enable us to go beyond 
low earth orbit, and new commercial capabilities to launch crews to the 
ISS--but consistent with a balanced approach, as required by the 2010 
Act.
    The space program, of course, is more than human exploration, as 
critical as that is. The budget request raises concerns regarding the 
funding levels and future plans in the areas of Space Science, and in 
the realm of instrumented Mars Exploration, including potential U.S. 
withdrawal from planned cooperative missions with the European Space 
Agency.
    Some of these adjustments, according to budget briefings, have been 
necessitated to accommodate increased funding for the James Webb Space 
Telescope (JWST) project. Other adjustments stem from the completion of 
prior Mars Exploration missions (Rovers Spirit and Opportunity, for 
example) and the ramp-down of their operational tempo and associated 
costs.
    NASA officials have indicated to the Committee, and explained in 
the Budget Request justification documents, that they are taking 
advantage of this draw-down in activity to re-plan future missions, 
including new cooperative projects with other nations. That review is 
anticipated to be completed in the middle of this year, and reflected 
in the Fiscal Year 2014 and subsequent Budget Requests.
    Notwithstanding those assurances, there are still concerns that the 
proposed adjustments in the funding and program priorities will have an 
adverse effect on this important area of NASA's overall mission and 
responsibilities.
    I look forward to hearing from Administrator Bolden on these 
topics.
    I also look forward to the testimony of Dr. Tyson and a discussion 
of the broader issue of the role and value of space exploration. I 
believe that a nation such as ours, that once led pioneered space 
exploration, and reaped the economic and cultural rewards of 
technological advancement, cannot and should not voluntarily cede that 
role to other nations.
    Thank you again, Mr. Chairman, and I look forward to the testimony.

    Senator Nelson. Thank you, Senator.
    Senator Hutchison, any further comments from you?
    Senator Hutchison. I think I have made my point, and I 
think he has made his point. And we just have to work together 
to, hopefully, get more flexibility.
    Mr. Bolden. Yes, ma'am.
    Senator Nelson. I think the long and short of it, of what 
we are saying up here, is that we want to see that Orion is 
getting sufficiently funded so that it is ready by the time the 
big rocket is ready, and not vice versa. And the other thing 
that I will say is that I think that we are going to have to 
have more money than this year's level into the commercial 
rockets so that we can at least keep on that 2017 schedule for 
launching humans to the Space Station.
    And of course, my preference and I think most people's 
preference is if there is any way we could get those into 2016, 
which was the original target.
    Mr. Bolden. Yes, sir.
    Senator Nelson. So, with that, Mr. Administrator, thank 
you----
    Mr. Bolden. Senator, thank you very much.
    Senator Nelson.--very, very much.
    And I would like to call up the second panel, Dr. Tyson.
    [Pause.]
    Senator Nelson. Dr. Tyson, we have already given you a 
glowing introduction and if you would please proceed?
    We are looking forward to your testimony.

            STATEMENT OF NEIL deGRASSE TYSON, Ph.D.,

 ASTROPHYSICIST, AMERICAN MUSEUM OF NATURAL HISTORY; DIRECTOR, 
               HAYDEN PLANETARIUM, NEW YORK CITY

    Dr. Tyson. Thank you. Thank you, Mr. Chairman.
    Senator Hutchison, Senator Boozman, thank you for your 
attention here.
    I want to just preface this by saying I was born the same 
week that NASA was founded. And while that specific point is of 
little relevance to the words of my testimony, I would say it 
is of great relevance to the feeling with which I deliver these 
words, having the same life span.
    I want to start off with a quote from a famous aviator, 
French aviator Antoine Saint-Exupery. This quote may be known 
to some of you, but I think it bears repeating often.
    ``If you want to build a ship, don't drum up people to 
collect wood and don't assign them tasks and work. But rather, 
teach them to long for the endless immensity of the sea.''
    So that is a point of view that will matter for what 
follows here.
    Right now, NASA's Mars science exploration budget is being 
decimated. We are not going back to the Moon. Plans for 
astronauts to visit Mars or anywhere beyond low-Earth orbit are 
delayed until the 2030s on funding not yet allocated, overseen 
by a Congress and a President to be named later.
    When I think of our golden era of space exploration, the 
late 1950s right on up through the early 1970s, over that time, 
very few weeks would go by before there would be an article in 
a newspaper, in a magazine where a cover story would extol the 
``city of tomorrow,'' ``transportation of tomorrow,'' ``the 
home of tomorrow,'' even ``food of tomorrow.''
    And in spite of this optimism, that was a decade that was 
perhaps our most turbulent in a century since the Civil War 
itself. We all felt threatened from the Cold War, total 
annihilation, in fact. There was a hot war going on, losing 100 
servicemen a week. The civil rights movement, assassinations, 
and the like.
    The landscape was poisoned that decade. Yet one of the 
jewels in the American crown was our exploration of space. From 
what I can tell, the people who did the dreaming back then were 
the scientists, engineers, and technologists. And it is a 
community of people who were formally trained to discover.
    They are discoverers. And what inspired them? Ask them. 
Every one, to a person, will tell you it was America's bold and 
visible investment in a space frontier.
    Now, I happen to know, and we all have had this experience, 
exploration of the unknown doesn't always make a priority for 
people. I can tell you, however, that audacious visions have 
the power to alter mind states, to change assumptions about 
what is possible. And when a nation allows itself to dream big, 
these dreams prevail in the citizens' ambitions. They energize 
the electorate.
    During the Apollo era, you didn't need Government programs 
trying to convince people that doing science and engineering 
was good for the country. It was self-evident. And even those 
not formally trained in technical fields embraced what those 
fields meant for the collective national future.
    Remember, that was the climate that birthed the New York 
World's Fair, which was all about tomorrow, and the iconic 
Unisphere, which donned three rings, evoking the three orbits 
of John Glenn in the Friendship 7 capsule.
    During that age of space exploration, any jobs that went 
overseas were the kind nobody really wanted anyway. Those that 
stayed in this country were the consequence of persistent 
streams of innovation that could not be outsourced because 
other nations couldn't yet figure out how to do what it was we 
were doing. In fact, most of the world's nations stood 
awestruck by our accomplishments.
    Let us be honest. Of course, over that period, we went to 
the Moon because we were at war. It is not a secret. To think 
otherwise would be delusional, and has lead some people to 
suppose we got to the Moon by 1969, of course, we are going to 
be on Mars by 1980.
    No. Not if you went to the Moon because you were at war. 
And after you establish that the Soviet Union is not also going 
to the Moon, everything ends.
    But ending the program came with a cost. Yes, war can get 
you to go to the Moon, even get you to go to Mars. But there is 
another driver that exists, another driver of great ambitions, 
and it is almost as potent as the need to protect your 
security. And that is the promise of wealth.
    Nobody wants to die, of course, but nobody wants to die 
poor. Fully funded missions to Mars and anywhere beyond low-
Earth orbit, commanded by astronauts who today would be in 
middle school, would reboot America's capacity to innovate as 
no other force in society can.
    What matters here, in fact, are not spinoffs, although 
there are plenty of spinoffs that are fun to read about. NASA, 
every couple of years, puts out a document--NASA Spinoffs. I 
recommend everyone here review those publications if you 
haven't seen them.
    But beyond the spinoffs, what matters are the cultural 
shifts in how the electorate views the role of science and 
technology in our daily lives. Because as the 1970s drew to a 
close, we stopped advancing a space frontier. The ``tomorrow'' 
articles faded. And we spent the next several decades coasting 
on the innovations conceived by earlier dreamers.
    They knew that seemingly impossible things were possible, 
and others among them, those who saw what the previous 
generation had enabled, witnessed the Apollo voyages to the 
Moon, even though they were not a participant. And this is the 
greatest adventure there ever was. Yet if all you do is coast, 
eventually you slow down while others catch up and pass you by.
    We have got symptoms in society today. We are going broke. 
We are mired in debt. We don't have as many scientists as we 
want or need, and jobs are going overseas. I assert that these 
are not isolated problems, that they are the collective 
consequence of the absence of ambition that consumes you when 
you stop having dreams.
    And the NASA portfolio, it is multidimensional. It taps the 
frontiers of biology, which we look for life on Mars; 
chemistry, physics, astrophysics, geology, atmospherics, 
electrical engineering, mechanical engineering. These are the 
classic subjects that are the foundation of the STEM fields--of 
course, science, technology, engineering, and math. And they 
are all represented in the NASA portfolio.
    Epic space adventures plant seeds of economic growth 
because doing what has never been done before is intellectually 
seductive, whether or not we deem it practical. And when you 
conduct those exercises, the innovation follows, just as day 
follows night. And when you innovate, you lead the world, you 
keep your jobs, and concerns over tariffs and trade regulations 
evaporate.
    The call for this adventure would echo loudly across 
society and down the educational pipeline. At what cost? The 
spending portfolio of the United States currently allocates 50 
times as much money to social programs and education than it 
does NASA.
    So the old argument, ``why are we spending money up there 
and not down here?'' is simply false. We are indeed spending 
money down here, to the credit of lawmakers who understand the 
breadth of priorities that face us.
    Consider, however, that the half a penny budget that NASA 
receives, if you double it, twice that, as unthinkable such a 
step would be to so many, I assert that we can transform the 
country from a sullen, dispirited nation, weary of economic 
struggle, to one where it has reclaimed its 20th century 
birthright to dream of tomorrow.
    And I ask you, how much would you pay to launch our 
economy? And from my scientific heart, I ask how much would you 
pay for the universe?
    A slightly longer version of these notes have been 
submitted for the record. And thank you for your attention, 
Senator.
    [The prepared statement of Dr. Tyson follows:]

   Prepared Statement of Neil deGrasse Tyson, Ph.D., Astrophysicist, 
 American Museum of Natural History; Director, Hayden Planetarium, New 
                               York City

    If you want to build a ship, don't drum up people to collect wood 
and don't assign them tasks and work, but rather teach them to long for 
the endless immensity of the sea.--Antoine St. Exupery
    Currently, NASA's Mars science exploration budget is being 
decimated, we are not going back to the Moon, and plans for astronauts 
to visit Mars are delayed until the 2030s--on funding not yet 
allocated, overseen by a congress and president to be named later.
    During the late 1950s through the early 1970s, every few weeks an 
article, cover story, or headline would extol the ``city of tomorrow,'' 
the ``home of tomorrow,'' the ``transportation of tomorrow.'' Despite 
such optimism, that period was one of the gloomiest in U.S. history, 
with a level of unrest not seen since the Civil War. The Cold War 
threatened total annihilation, a hot war killed a hundred servicemen 
each week, the civil rights movement played out in daily 
confrontations, and multiple assassinations and urban riots poisoned 
the landscape.
    The only people doing much dreaming back then were scientists, 
engineers, and technologists. Their visions of tomorrow derive from 
their formal training as discoverers. And what inspired them was 
America's bold and visible investment on the space frontier.
    Exploration of the unknown might not strike everyone as a priority. 
Yet audacious visions have the power to alter mind-states--to change 
assumptions of what is possible. When a nation permits itself to dream 
big, those dreams pervade its citizens' ambitions. They energize the 
electorate. During the Apollo era, you didn't need government programs 
to convince people that doing science and engineering was good for the 
country. It was self-evident. And even those not formally trained in 
technical fields embraced what those fields meant for the collective 
national future.
    For a while there, the United States led the world in nearly every 
metric of economic strength that mattered. Scientific and technological 
innovation is the engine of economic growth--a pattern that has been 
especially true since the dawn of the Industrial Revolution. That's the 
climate out of which the New York World's Fair emerged, with its iconic 
Unisphere--displaying three rings--evoking the three orbits of John 
Glenn in his Mercury 7 capsule.
    During this age of space exploration, any jobs that went overseas 
were the kind nobody wanted anyway. Those that stayed in this country 
were the consequence of persistent streams of innovation that could not 
be outsourced, because other nations could not compete at our level. In 
fact, most of the world's nations stood awestruck by our 
accomplishments.
    Let's be honest with one anther. We went to the Moon because we 
were at war with the Soviet Union. To think otherwise is delusion, 
leading some to suppose the only reason we're not on Mars already is 
the absence of visionary leaders, or of political will, or of money. 
No. When you perceive your security to be at risk, money flows like 
rivers to protect is.
    But there exists another driver of great ambitions, almost as 
potent as war. That's the promise of wealth. Fully funded missions to 
Mars and beyond, commanded by astronauts who, today, are in middle 
school, would reboot America's capacity to innovate as no other force 
in society can. What matters here are not spin-offs (although I could 
list a few: Accurate affordable Lasik surgery, Scratch resistant 
lenses, Chordless power tools, Tempurfoam, Cochlear implants, the drive 
to miniaturize of electronics . . .) but cultural shifts in how the 
electorate views the role of science and technology in our daily lives.
    As the 1970s drew to a close, we stopped advancing a space 
frontier. The ``tomorrow'' articles faded. And we spent the next 
several decades coasting on the innovations conceived by earlier 
dreamers. They knew that seemingly impossible things were possible--the 
older among them had enabled, and the younger among them had witnessed 
the Apollo voyages to the Moon--the greatest adventure there ever was. 
If all you do is coast, eventually you slow down, while others catch up 
and pass you by.
    All these piecemeal symptoms that we see and feel--the nation is 
going broke, it's mired in debt, we don't have as many scientists, jobs 
are going overseas--are not isolated problems. They're part of the 
absence of ambition that consumes you when you stop having dreams. 
Space is a multidimensional enterprise that taps the frontiers of many 
disciplines: biology, chemistry, physics, astrophysics, geology, 
atmospherics, electrical engineering, mechanical engineering. These 
classic subjects are the foundation of the STEM fields--science, 
technology, engineering, and math--and they are all represented in the 
NASA portfolio.
    Epic space adventures plant seeds of economic growth, because doing 
what's never been done before is intellectually seductive (whether 
deemed practical or not), and innovation follows, just as day follows 
night. When you innovate, you lead the world, you keep your jobs, and 
concerns over tariffs and trade imbalances evaporate. The call for this 
adventure would echo loudly across society and down the educational 
pipeline.
    At what cost? The spending portfolio of the United States currently 
allocates fifty times as much money to social programs and education 
than it does to NASA. The 2008 bank bailout of $750 billion was greater 
than all the money NASA had received in its half-century history; two 
years' U.S. military spending exceeds it as well. Right now, NASA's 
annual budget is half a penny on your tax dollar. For twice that--a 
penny on a dollar--we can transform the country from a sullen, 
dispirited nation, weary of economic struggle, to one where it has 
reclaimed its 20th century birthright to dream of tomorrow.
    How much would you pay to ``launch'' our economy. How much would 
you pay for the universe?
    Note: The views above are derived from Space Chronicles: Facing the 
Ultimate Frontier, W W Norton 2012.

    Senator Nelson. Well, of course, you are not only preaching 
to the choir, you are preaching to the preachers.
    [Laughter.]
    Senator Nelson. And you have just done it so eloquently, so 
incisively, and I couldn't help but think as you were speaking 
to be reminded of the event that we just had down at the Cape 
on the occasion of the 50th anniversary of John Glenn's 
historic space flight. And as Scott Carpenter, who is the only 
other living of the original seven astronauts, made his 
speech--and you remember that Scott Carpenter was the fellow in 
the antiquated blockhouse that as John was just about to lift 
off said, ``Godspeed, John Glenn.''
    And then Scott ended up being the second one to ride the 
Atlas rocket, this time for a lot more than just three orbits, 
which John Glenn had done. But in Scott's speech at this 
ceremony commemorating the 50th anniversary, he recalled a 
column that had been written in the New York Times calling John 
Glenn the last great American hero.
    And that column had rekindled a lot of what you have just 
articulated, Dr. Tyson. That this was a heady time. It was. We 
were in the great space race with the other superpower. So much 
was hanging on the success of this program.
    And then during that time that you talked about, the 1960s, 
not only did we launch Glenn after the Soviets had beat us into 
space, but then we took over and we took care of business and 
did it against an extraordinary backdrop. And we were, we were 
the envy of the world.
    And in this column, as Scott is talking about this--was 
John Glenn the last great American hero?--he quickly then said 
no. We are going to come to this point again because it is 
going to be the commander of that mission when it goes to Mars 
and lands and returns.
    And so, our objective is how do we get from there to there?
    Dr. Tyson. If I may react to that? I think any nation at 
any time has the capacity to create a hero. It just has to have 
ambitions with goals set so that one among us then steps 
forward, accepts those risks. Some of those who go forward 
don't come back, and this is an understood risk, in fact, of 
the history of our species. But those who do, who succeed, they 
get remembered forever.
    And I would assert that I would claim that the conversation 
needs to be taken to a new place because, apparently, the 
argument that science is important or the argument that 
exploration feeds the energy of our DNA, I have not seen that 
be as successful as it should have been over these years when 
NASA comes back to the White House and to the Congress, hat in 
hand looking for money.
    But what I have noticed is that NASA, as an engine of 
innovation, not simply by the innovation that occurs within the 
agency, but by the culture of innovation that it spreads into 
the land, it is that culture that is responsible for economic 
growth. And so, if people see NASA as a charity agency for the 
satisfaction of some engineers and scientists, they are not 
understanding the actual role that NASA has played in the 
growth of this Nation, in the economic growth of this Nation.
    So this half a penny on a dollar, I say take it to a penny. 
Find that other half a penny somewhere. Recognize that penny on 
a dollar, penny on a dollar as an investment with a return that 
will so outweigh that one penny that you put in that you would 
be kicking yourself wondering why that investment wasn't made 
earlier.
    And I am not talking only about spinoffs. And there are 
great spinoffs from power tools without cords and perfecting 
Lasik surgery, making it cheap and affordable and precise, and 
the grooved pavement. The list is long. There are low-tech 
solutions and high-tech solutions.
    My concern is without that as a driving force within our 
culture, everything else we do are just band-aids. Oh, we need 
more scientists? Let us train some more teachers. That is a 
band-aid.
    Oh, we need more jobs on shores? Let us try to bring 
factories in and incentivize them. That is a band-aid.
    The moment the culture wants to innovate and we recognize 
that, that penny on a dollar becomes an investment, and it is 
not simply an investment in our identity, which it is, in our 
character, in our pride, it is all of the above. But what I 
have found in my read of the history of cultures, that if you 
can find an investment that returns economically, you take it. 
You do it.
    And the pathway from the investment to the returned dollar 
takes a little longer than an elevator ride to explain how you 
get that. Innovations take place. Patents are granted. Products 
are developed.
    The culture of innovation spills over. Everyone feels like 
tomorrow is something they want to invent and bring into the 
present. That is the Nation that many of us in this room grew 
up with, and that is the culture that so many who read about it 
want to resurrect going forward.
    And so, without this, we just move back to the caves 
because that is where we are going to end up anyway as the rest 
of the world passes us by.
    Senator Nelson. You have very accurately articulated our 
character as a people. We, as Americans, have always had a 
frontier. We have always been pressing that frontier, and as a 
result, we have always been explorers and adventurers. We don't 
want to ever give that up or else we deny our character as a 
people.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Again, I want to echo that you are very articulate and, I 
think even more important, very enthusiastic about the subject. 
It is easy to tell that this certainly is a passion, and we 
really do appreciate that. We need a lot more of that.
    With regard to America's scientific and technological 
workforce, a substantial portion is foreign-born and American-
educated. In previous interviews, you mentioned that America is 
beginning to lose our technological workforce conduit as the 
rest of the world is catching up and providing technology 
opportunities for this workforce to leave America.
    How can we in Congress encourage or create more or better 
opportunities to retain our edge? And I guess what are your 
recommendations for the Committee? How can we specifically help 
you in that regard?
    Dr. Tyson. Other than doubling NASA's budget.
    [Laughter.]
    Dr. Tyson. I think a bit about the foreign-born nationals 
getting graduate degrees in the sciences and engineering here, 
that has been going on basically since the 1980s. There might 
have been a trickle of it in the 1970s. But it happened in 
large measure in the 1980s and 1990s. It is still going on.
    In the early days, we were simply the best opportunities. 
We had the best science, the best engineering, and their home 
countries did not. And so, it was expected that when they came 
here, they would stay, and nearly all of them did. I don't have 
a problem with that.
    So much of our national character and identity was enriched 
because of how open our shores were to the creativity of 
immigrants that come through for the past century and a half. 
So that became a boon to our Nation intellectually because we 
were getting the smartest people in the world.
    But what happens back in their home countries? They begin 
to develop. The countries recognize what we had recognized for 
so long that investments in their infrastructure and in their 
own science and technology creates opportunity.
    My great fear was that we would now educate them, and then 
they would go back to their home countries, and we would lose 
the contributions they would have made had they stayed. That 
is, in fact, already happening.
    The third stage in this is they become the professors, the 
educating class in their home countries, and then they never 
have to come here at all. By the way, that was the state back 
before the Manhattan Project. Most of the principal scientists 
of the Manhattan Project that were here in this country were 
foreign nationals, all educated in European countries. We did 
not quite have the physics infrastructure to sustain that kind 
of intellectual capital to actually engage the Manhattan 
Project.
    So we not only tapped foreign nationals, they were all 
foreign educated. Once we developed that infrastructure here 
and that intellectual foundation, we became the target for 
people to become educated from all around the world.
    I would say that when a nation--not to sound like a broken 
record here, but when a nation dreams big and has fully funded 
projects visible to everyone, where a frontier is getting 
advanced daily, innovations attract smart, clever people. The 
prospect of innovation attracts them.
    And dare I say if you stand up in front of an eighth grade 
class and say, ``Who wants to be an aerospace engineer so that 
you can design a plane that is a few percent more fuel 
efficient?'' that doesn't really work as well as saying, ``Who 
wants to be an aerospace engineer because we need a plane that 
will navigate the rarefied atmosphere of Mars?''
    You are going to attract the very best of those students. 
And the solutions to that problem in every case I have ever 
seen have improved life back here on Earth.
    And so, if you don't have the projects on the other side of 
the educational pipeline, why should anyone even do it? Why 
should anyone even stay? You can't just say, ``Become a 
scientist because we need more scientists.'' You compel people 
to long for the open seas.
    And when you do that and the open sea is in reach because 
the Government has declared that that is the next frontier, 
everything falls into place, everything. We have seen it happen 
already. It can happen again, this time without the tandem 
military budget that was required in the 1960s to conduct a 
Cold War and a hot war. Imagine what that return will be going 
forward.
    Senator Boozman. Well, thank you, Mr. Chairman.
    And again, thank you very much for your testimony.
    Senator Nelson. We are singing from the same hymn book. In 
your talk about a lot of the value that NASA provides by 
inspiring and motivating children, which you have made that 
case very, very strongly, in these tight fiscal times, how do 
you make that value better understood by the average American 
person?
    Dr. Tyson. That is the multibillion dollar question. That 
is an important question. I mean, I am trying.
    First of all, I can tell you, based on my life experience--
and I am sure, if you reflect on it, on your life experience as 
well--you never actually have to train kids to think 
scientifically. They are always experimenting, always. They are 
turning over rocks. They are poking at objects that the adults 
don't want them to poke at.
    And we spend a lot of our effort as adults squashing that 
creativity and that exploratory drive that every child has 
within them. So when I am asked what do we do to excite 
children, my first answer is, first, get out of their way 
because that will be a natural part of their curiosity as a 
child.
    And the real problem with the science literacy and the 
embracing of what science and technology will bring is not, I 
don't believe, in that next generation. It is in the current 
generation of adults who far outnumber children, who vote, who 
run the country.
    I am not going to turn around and say the country has 
problems because we are not training our children. I am going 
to say the country has problems because not enough adults 
understand what these arguments are.
    And I would like to believe that no one wants to go to the 
poorhouse. So the economic argument needs to be lifted above 
all others. It needs to be lifted above the DNA argument, the 
urge to explore argument. That it is in even, with due respect, 
Senator, the legacy of Americans as explorers. I just have not 
seen that work on the soup line when someone can't feed their 
home, and they are working with a foreclosed--can't feed their 
family, and they have got a foreclosed home.
    But the prospect that tomorrow they will be wealthier than 
today, that works. It works every time, and it transcends 
partisan politics. Because at the end of the day, we are a 
capitalist democracy. We have all kind of bought into the idea 
that tomorrow we should be wealthier than we are today.
    And so, if we make the economic argument above all else, 
there may be a chance that people will understand the actual 
role that NASA has played and not the one that the dreamers say 
about it because I think NASA should be fully funded because I 
am a scientist. But I don't require others to feel the same 
way. When it comes to money, that is something we can all agree 
on.
    Senator Nelson. Well, you have said it pretty well. Science 
literacy is going to be our future, and somehow we need to 
translate that into overcoming these obstacles. And you have 
laid out the case as good as anyone. Now we have just got to 
keep on keeping on to get the message through.
    Dr. Tyson. And I will say if you want to do the homework, 
check out the GDP per capita in the 1960s into the 1970s, 
1980s, and 1990s. It is in the 30 percent across that decade, 
the 10-year rise in the GDP per capita. Just watch it drop as 
the decades unfold, and that is us coasting on it.
    And if you average the 1990s with the 2000s, it is 
basically flat. And so, the future--as goes the future of NASA, 
so, too, does the future of this Nation.
    Senator Nelson. And with that poignant thought, thank you.
    And the hearing is adjourned.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]


                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Bill Nelson to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. Given sustained SLS funding--what additional systems 
could be tested on either the 2014 or 2017 test flights, instead of 
waiting until the first human flight?
    Answer. The primary objective of the 2014 test flight is to obtain 
high-velocity re-entry data for the Orion MPCV spacecraft, though NASA 
will also use this mission to test mission operations concepts. The SLS 
Program is designing the spacecraft adapter for this flight. Sustained 
SLS funding will continue to support this effort. No additional SLS 
systems are applicable to this early test flight. For the 2017 test 
flight--which is an Agency Priority Goal--sustained SLS funding will 
provide greater confidence in meeting the necessary milestones leading 
up to the 2017 flight. The SLS launch vehicle for the 2017 flight is 
the same launch vehicle configuration that will be used for the first 
human flight in 2021. No additional SLS systems will be developed for 
the 2021 flight.

    Question 2. Would accelerating the first human flight--earlier than 
2021--lower the overall cost of a human capable SLS-Orion system?
    Answer. Accelerating the first human flight would not necessarily 
lower the overall cost of a human-capable SLS-Orion system. NASA has 
implemented an executable plan to develop these systems to support the 
first human flight in 2021. The estimated budget to execute this plan 
has been phased to meet the fiscal budget requirements. If the first 
human flight was to be accelerated, the funds associated with 
accelerating the development of the necessary systems would have to be 
taken from the later years and re-phased into the earlier years.

    Question 3. We've recently heard that flights for NASA ISS 
commercial cargo providers have slipped--SpaceX to April and Orbital 
Sciences to this summer. How much have these COTS flights slipped since 
they were originally planned?
    Answer. When NASA signed the original Space Act Agreement (SAA) 
with Space Exploration Technologies (SpaceX) in August 2006, their 
first, second and third COTS demonstration flights were planned for 
September 2008, June 2009 and September 2009 respectively. SpaceX 
successfully flew the first demonstration mission in December 2010, 
launching a Dragon capsule into orbit on a Falcon 9 rocket and 
recovering it off the coast of California. On May 22, 2012, SpaceX 
launched its second COTS demonstration flight, and 3 days later, the 
Dragon spacecraft was berthed to the ISS. The mission, which 
accomplished the remaining COTS demonstration goals for SpaceX, was 
brought to a successful conclusion on May 31, with the deorbiting and 
splashdown of the Dragon capsule.
    When NASA signed the original SAA with Orbital Sciences Corporation 
(OSC) in February 2008, the single demonstration flight was originally 
planned for December 2010. Currently, Orbital is planning the maiden 
launch of their newly named Antares launch vehicle (previously referred 
to as ``Taurus II'') no earlier than June 2012, and the COTS 
demonstration flight to the ISS no earlier than September 2012.

    Question 4. What do we need to get done and when to keep research 
progressing on the International Space Station? At what point do 
further slips of SpaceX or Orbital affect operations aboard the ISS?
    Answer. There is sufficient margin in logistics, consumables and 
systems spares through 2012 so that ISS operations will not be impacted 
by a delay in the start of commercial cargo delivery. Commercial 
Resupply Services (CRS) flights will augment existing resupply 
capability needed to support NASA, ESA, Canadian Space Agency, and JAXA 
astronauts. Those needs continue to be met through the ESA-provided 
ATV, the Roscosmos-provided Progress and Soyuz, and JAXA-provided HTV 
vehicles now that the Space Shuttle has been retired. SpaceX just 
successfully demonstrated its ISS resupply capability and Orbital 
Sciences is in the process of bringing their vehicles on-line to 
provide the needed resupply capability. Recognizing the challenges of 
initial flights and bringing a new vehicle into operations, NASA and 
its partners previously delivered additional supplies to create a 
schedule margin.
    The commercial strategy does not rely on a single flight or 
provider. To date, SpaceX has successfully flown three missions using 
the Falcon 9 launch vehicle, including two Commercial Orbital 
Transportation Services (COTS) demonstration flights. The first of 
these demonstrated launch, orbit and successful recovery of a 
simplified Dragon spacecraft. On May 22, 2012, SpaceX launched its 
second COTS demonstration flight, and 3 days later, the Dragon 
spacecraft was berthed to the ISS. The mission, which accomplished the 
remaining COTS demonstration goals for SpaceX, was brought to a 
successful conclusion on May 31, with the deorbiting and splashdown of 
the Dragon capsule.
    Orbital Sciences Corporation is scheduled to fly its COTS 
demonstration mission in calendar year 2012, and its first CRS mission 
in Fiscal Year 3.

    Question 5. Phil McAllister, a NASA commercial crew manager, said 
in a recent interview that if NASA's commercial crew program gets 
significantly less than requested this year, the program may need 
complete re-thinking. As is probably clear from the 2012 appropriation, 
there is quite a bit of work to be done to get the appropriation for 
commercial crew up anywhere near the request. Can you please clarify 
Mr. McAllister's comments--what does it mean to completely re-think the 
program, and at what funding level for Fiscal Year would such an action 
be necessary?
    Answer. Mr. McAlister referred to the ``strategy'' for the 
Commercial Crew Program, not the program itself. Whenever a NASA 
program is appropriated significantly less funding than requested, the 
Agency must perform an assessment to determine the impacts from the 
lower than anticipated budget and determine if any adjustments to the 
program are appropriate. NASA would have to take a similar action for 
Commercial Crew if the Agency receives significantly less than 
requested amount. Those actions are typically taken when final budgets 
are established.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                      Hon. Charles F. Bolden, Jr.

Planetary Science
    Question 1. I understand the difficult budgetary environment we are 
in but I am very concerned that Planetary Science programs received a 
21 percent cut in the FY 2013 budget while the proposed cut to NASA's 
overall budget is 0.3 percent. Why was this disproportionately large 
cut made to Planetary Science?
    Answer. NASA's FY 2013 budget request identifies four key 
priorities to be funded in this constrained fiscal environment: ISS 
sustainment and utilization; Space Launch System and Orion Multi-
Purpose Crew Vehicle; James Webb Space Telescope; and new technologies. 
In view of these four key priorities for NASA and of our constrained 
fiscal environment, we will not be moving forward with the 2016 and 
2018 ExoMars missions that we had been studying with the European Space 
Agency. Instead, NASA is developing a new, integrated strategy for Mars 
missions to ensure that the next steps for Mars exploration will 
support science, as well as longer-term human exploration goals, and 
take advantage of advanced space technology developments. NASA will 
complete this integrated plan; including the framework for a mission to 
take advantage of the 2018 or 2020 launch opportunities, no later than 
this summer. The FY 2013 budget request funds several exciting missions 
that will greatly advance our understanding of the solar system. These 
include:

  <bullet> The Mars Science Laboratory Curiosity rover will land on 
        Mars on August 6 of this year and will begin a five-year 
        investigation in the area of Gale Crater in an attempt to 
        determine if Mars could have been a habitable environment for 
        life in the past;

  <bullet> The Mars Atmosphere and Volatile EvolutioN (MAVEN) mission 
        will launch in 2013 to determine the role that loss of volatile 
        compounds (like water, carbon dioxide, and nitrogen), from the 
        Mars atmosphere to space has played over time, giving insight 
        into the history of Mars atmosphere and climate, liquid water, 
        and planetary habitability;

  <bullet> The Origins-Spectral Interpretation-Resource Identification-
        Security-Regolith Explorer (OSIRIS-REx) will launch in the 2016 
        time-frame on a mission to return a sample from an asteroid;

  <bullet> The Discovery 12 mission will be selected later this year 
        from among three competing candidates, with the winner entering 
        into formulation for launch in the 2016 timeframe;

  <bullet> Several missions currently in operation or on their way to 
        their distant destinations, including GRAIL at the Moon, 
        MESSENGER at Mercury, Cassini at Saturn, New Horizons on its 
        way to Pluto (2015), and Juno on its way to Jupiter (2016).

    Question 2. The Mars missions of the past have proven very 
successful, the next rover is on its way, and NASA had an agreement to 
work with the European Space Agency (ESA) on the 2016 and 2018 Mars 
missions. Unfortunately, due to the large cut to Planetary Science, 
NASA has indicated that it will no longer participate in the next Mars 
missions. Are you planning to join ESA on future Mars missions? If so, 
in what time frame? What are the future plans for the workforce of the 
Jet Propulsion Laboratory (JPL) which has been working on the Mars 
missions? How will you maintain the core capabilities of this group so 
that the skills developed at this lab are not lost?
    Answer. As you noted, due to current and future budgetary 
constraints and other higher Agency priorities, NASA will not be able 
to participate as originally planned in the Joint Mars Exploration 
missions conceived with ESA for 2016 and 2018. NASA had an agreement 
with ESA to begin study and design work for the2016 and 2018 missions, 
but had not yet executed a follow-on agreement for full mission 
implementation. If the European missions go forward, NASA will likely 
support ESA in some manner. We continue to have mutual interests in the 
exploration of Mars, and we anticipate and hope that NASA and ESA will 
find new opportunities to collaborate. NASA has established a Mars 
Program Planning Group that will initially focus on a NASA Mars robotic 
mission in the 2018-2020 timeframe. We plan to actively engage our 
bilateral partners from ExoMars, namely ESA and the Canadian Space 
Agency, in the next few weeks, seeking their input and engagement with 
the Mars Program's reformulation as early as practicable. We also 
intend to engage the broader international community in the near future 
through the established International Mars Exploration Working Group 
(IMEWG), an ad hoc organization of Space Agencies that was formed in 
1993 to facilitate coordination among the world's Mars-faring nations.
    Landing large masses on the Martian surface remains a necessary 
part of any strategy for Mars exploration. Therefore, while a loss of 
some skilled personnel after the landing of the Mars Science Laboratory 
is anticipated, NASA will work to retain critical skills and 
capabilities sufficient to sustain our skills in entry, descent, and 
landing prior to the next landed mission to Mars. The total JPL 
workforce is currently slightly over 5,000, down by several hundred 
over the last several years. JPL's current best estimate is that the 
workforce can be maintained in FY 2012 at about 5,000 but may need to 
be reduced by approximately 300-400 in FY 2013. A reduction of that 
scale (6 percent) could be largely handled through attrition. Some 
mitigation of the losses may occur through a new Mars mission for the 
2018/2020 opportunity in the restructured program, and the fact that 
JPL is working on one of the three currently competing Discovery 
mission proposals. JPL is also forecasting an increase in non-NASA 
work. The current uncertainties should diminish over the rest of this 
year.
Commercial Space
    Question 3. In its FY 2013 request, NASA is seeking a total of 
$830M for the Commercial Crew program. Last year, as you know, Congress 
appropriated $406M for the program, about $100M less than the 
authorized level. How will the requested amount enable NASA and the 
Commercial Crew providers to close the U.S. human spaceflight gap more 
quickly?
    Answer. NASA's original request for the Commercial Crew Program 
was:

------------------------------------------------------------------------
         ($ in millions)           2011    2012    2013    2014    2015
------------------------------------------------------------------------
FY 2011 BUDGET                       500   1,400   1,400   1,300   1,200
------------------------------------------------------------------------

    With this budget, NASA estimated that a commercial crew capability 
could be in place by 2015. However, the amount appropriated in 2011 was 
$312 million ($188 million less than requested) and NASA was precluded 
from initiating a ``new start.'' Thus, NASA adjusted its strategy and 
initiated CCDev Round 2 which focused on maturing elements of the 
systems instead of overall integrated crew transportation systems. The 
combined impact of the lower than expected budget and shifting to focus 
on elements of the system instead of an integrated system was that it 
delayed NASA's estimated expected operational date of commercial crew 
to 2016.
    The amount appropriated in 2012 was $406M ($444M less than the 
newly requested amount of $850M). This resulted in a further slippage 
of NASA's expected operational date to 2017. The requested funding 
levels in the President's FY 2013 request of $830M will support the 
expected operational date of 2017 for regaining U.S. human spaceflight 
launch and return capability to and from LEO.
    NASA is planning for commercial crew capability to be in place in 
2017; but the Agency's plans will not preclude earlier availability of 
services. Many of the potential commercial providers have stated they 
can have services available earlier.

    Question 4. The Commercial Crew program is designed to achieve, at 
a lower cost, an accelerated human spaceflight capability to the 
International Space Station. How is maintain a competition important to 
the long-term sustainability, cost and success of the program? Does 
NASA intend to maintain at least two or more competitors in order to 
drive innovation and provide best value to the taxpayer throughout both 
the development and procurement stages, as it did with the Commercial 
Orbital Transportation Services (COTS) and Commercial Resupply Services 
(CRS) program?
    Answer. NASA believes that having multiple companies competing 
against each other at this stage of the Commercial Crew Program will 
result in lower overall costs for the Government. In a traditional 
program with a single prime contractor from the start using a cost-plus 
contract, the NASA-Air Force Cost Model (NAFCOM) cost estimates are 
approximately $8-11B for the development of an ISS crew transportation 
capability. Using the current, innovative approach of competing Space 
Act Agreements will result in multiple awards to industry with fixed 
Government costs. NASA estimates being able to cut the development 
costs substantially and deliver an ISS capability for around $5B. 
Maintaining competition is a key factor in achieving these savings.
    While the Agency has not established a specific number of awardees 
for the next phase of the Commercial Crew Program, referred to as 
Commercial Crew Integrated Capability (CCiCAP), NASA plans to have 
fewer companies in CCiCAP than are currently in CCDev2. There are seven 
partners in CCDev2 (four funded and three unfunded partners). NASA 
would like to maintain as much competition as it can for as long as 
possible.
    Removing competition by developing a single system from various 
companies' system elements would eliminate most of the commercial 
aspects of the program. With only one provider from which NASA could 
purchase services, there would be little incentive for the companies to 
expand their commercial market base by selling services to any other 
customers or to maintain reasonable prices. There would also be no 
incentive for the companies to share in the development costs. Having 
industry share in the cost of development and selling seats to other 
customers in addition to NASA will likely decrease NASA's costs for 
crew transportation services in both the short and long-term.

    Question 5. Are you confident that the use of Space Act Agreements 
and ultimately a Federal Acquisition Regulation (FAR)-based acquisition 
at the end of the process will ensure that NASA's safety requirements 
are met in these new commercial systems?
    Answer. NASA plans to use Federal Acquisition Regulation (FAR)-
based contracts for certification of commercial systems prior to flying 
crew on these systems. NASA intends to structure the certification 
phase following the CCiCAP effort to permit the Agency to fully 
evaluate the proposed systems and accommodate any necessary redesign to 
ensure compliance with NASA safety, performance, and mission success 
requirements. The provider(s) awarded a certification contract will not 
only be required to meet the NASA requirements in order to fly NASA 
personnel, but they will also have to show verified compliance of how 
the design and hardware will meet these requirements. Thus, there will 
be no reduction in the safety expectations or requirements as a result 
of this change in acquisition strategy.
    NASA is addressing the issue of compliance with certification 
requirements in several ways. First, NASA has released the baseline set 
of safety, performance, and mission success requirements to all of 
industry. NASA also has made these requirements available to all 
providers as reference under the CCiCAP effort. Although compliance 
with these requirements is optional for industry under a funded SAA, 
NASA anticipates that providers will use the NASA requirements to 
inform their development activities, thereby reducing the technical 
risk associated with the lack of NASA oversight under an SAA. Because 
NASA plans to have more than one company in the next phase of SAAs, we 
believe the competitive environment provides strong incentive for the 
companies to align with NASA's certification requirements in order to 
remain competitive in the future certification and services phases.
    Third, NASA included an ``Overall Safety Goal'' in the CCiCAP 
Announcement for Proposals (see page 3 of the Announcement) which 
states:
    ``Successful commercial human space flight demands the highest 
commitment to safety; therefore NASA has the goal of fostering a safety 
culture in the commercial space flight industry that ultimately will 
minimize the risks associated with human space flight to LEO. NASA's 
goal is for Participants to demonstrate safety processes that include 
strong inline checks and balances, healthy tension between responsible 
organizations, value-added independent assessments and appropriate data 
archival, which will increase Government confidence in the 
Participant's approach to safety.''
    As a result, NASA will have a great deal of insight into the 
providers' approach to safety during CCiCAP as the providers meet their 
milestones associated with the CCiCAP agreements.

    Question 6. We heard from NASA that the Commercial Crew program is 
a ``must have'' not a ``nice to have'' and that the U.S. has a choice: 
it can invest more in U.S. commercial crew capabilities now, or spend 
more on Russian crew services later. How much are we paying Russia for 
crew transport today and over the next several years? Given recent 
launch failures of the Russia Soyuz and other systems, can you comment 
on the level of insight and oversight NASA currently maintains over 
Russian vehicles that carry our astronauts? How does this compare to 
your oversight of the U.S. companies developing new systems?
    Answer. NASA has purchased six seats from Russia at the cost of 
$51M per seat in 2012 for a total cost of $306M. Please note that this 
cost is phased over multiple years.
    In March 2011, NASA signed the most recent modification to the 
current International Space Station (ISS) contract with the Russian 
Federal Space Agency for crew transportation, rescue and related 
services from 2014 through June 2016. The firm-fixed price 
modification, valued at $753 million, covers comprehensive Soyuz 
support, including all necessary training and preparation for launch, 
flight operations, landing and crew rescue of long-duration missions 
for 12 individual space station crew members.
    NASA has been purchasing transportation and rescue services from 
Russia for many years as a customer, and the Russians have proven to be 
consistently reliable partners. For example, in the aftermath of the 
Columbia accident, the Russians provided the Soyuz and Progress 
spacecraft necessary to keep the ISS operational. In terms of NASA's 
insight into technical systems and issues, the Russians have kept NASA 
officials very well informed regarding anomalies experienced (e.g., 
Soyuz ballistic re-entries, the Progress 44P anomaly). The Russian 
Federal Space Agency (Roscosmos) is responsible for resolving technical 
issues related to anomalies and coordinating with all of the 
International Partners, including NASA. This coordination is formally 
manifested in meetings of the Space Station Control Board, Multilateral 
Coordination Board, and ISS Mission Management Team, as well as the 
partners' participation in the standard Stage Operations Readiness 
Reviews and Flight Readiness Reviews. NASA is satisfied with this level 
of insight.
    As noted in the response to question #5, NASA will have significant 
insight into U.S. commercial providers' designs during CCiCAP. When the 
Commercial Crew Program begins a Federal Acquisition Regulation (FAR)-
based contract, the Agency will have the level of insight and 
interaction typical of such a contract.

    Question 7. Assuming the Commercial Crew program delivers crew 
capability on time and on schedule, how will more frequent and 
affordable access to ISS for scientists and researchers lead to better 
utilization of ISS?
    Answer. The ISS will benefit from frequent and affordable access. 
Cargo vehicles will ensure that the laboratory facilities will be 
provided with research samples (and that they can be changed out); that 
ISS research and operational equipment can be maintained and repaired; 
and that NASA and its Partners will be able to deliver the supplies and 
consumables needed to maintain the nominal six-crew complement.
NASA Workforce
    Question 8. During this time of transition, strategic management of 
the agency's workforce poses a challenge. How is the agency planning to 
maintain core technical competencies as the current generation of 
employees retires?
    Answer. While NASA's mission has been in a time of transition, its 
workforce has been relatively stable. At less than 5 percent attrition 
each year, NASA has a very low rate of attrition compared to other 
Federal agencies and to the private sector. Based on its workforce 
profile, NASA does not project an increase in the rate of retirement 
losses in the near- and mid-term future large enough to disrupt the 
planned transition of core technical competencies to workforce that 
will be sustained and the in-coming generation of NASA employees.
    NASA plans to enhance its already robust intern programs and active 
recruitment of recent graduates with the coming implementation of the 
Pathways Program. After they join NASA, these employees have access to 
a wide array of training opportunities, including formal in-person and 
on-line training, informal on-the-job training, mentoring, and 
rotational or detail assignments in order to develop individual 
capability in the Agency's core technical competencies. On an on-going 
basis, employees and NASA organizations have access to an extensive 
knowledge management capability was well as lessons learned databases--
both designed to support the continuity of core technical competencies.

    Question 9. What funds have been identified to support the 
strategic hiring needed to make sure that NASA's technical excellence 
remains second to none through the 21st century?
    Answer. NASA's workforce FTE levels are projected to remain 
relatively stable in the coming years, with only modest reductions 
currently anticipated. This means that the current level of civil 
service labor funding largely will be sustained. As current employees 
attrit from the Agency rolls, replacement hiring will be on-going to 
fill key positions, and the workforce will be replenished with new 
talent. Given NASA's very low attrition rate and the Agency's modest 
FTE reductions, NASA actively makes prioritization decisions within its 
hiring program. ``Replacement'' hires are not necessarily made into the 
vacated position of each person who leaves--replacement FTE are more 
typically redirected to new or different positions; because of this 
process, the Agency is able to continually adapt its current high level 
of technical excellence to meet new mission challenges. In implementing 
the Pathways Program, NASA plans to significantly enhance recruitment 
for interns and recent graduates with the addition of new Agency-level 
leadership focus and activities.
International Space Station
    Question 10. With the assembly of the International Space Station 
completed, NASA can now focus on utilizing the laboratory to continue 
scientific research. How much funding will go towards life and physical 
research in the coming fiscal years? How does NASA intend to implement 
the recommendations of the National Academies' Decadal Survey?
    Answer. Please see below table showing life and physical sciences 
research funding in the FY 2013 budget request. The Decadal Survey 
provided NASA with over 60 ``highest priority'' research 
recommendations, and eight potential prioritization criteria. All of 
NASA's current ISS research portfolio is within the highest priority 
recommendations of the Decadal Survey. The NASA Office of the Chief 
Scientist is coordinating a NASA response to the Decadal Survey that 
will describe a strategy for implementing the priorities within the 
context of schedule and budget constraints. Within the limits of NASA's 
budget constraints, we will closely consider the recommendations of the 
Decadal Survey in decisions on investments in new research facilities 
and capabilities for the ISS, in a research program that balances the 
pursuit of significant new scientific discoveries and the construction 
of a foundation of knowledge that supports future human exploration 
missions.

            Human Exploration and Operations--FY 2013 Budget
   Space Life and Physical Sciences Research and Applications Division
                                (SLPSRA)
------------------------------------------------------------------------
                                          Notional
                   -----------------------------------------------------
                    FY 2012  FY 2013  FY 2014  FY 2015  FY 2016  FY 2017
------------------------------------------------------------------------
Total SLPSRA          231.0    240.0    236.5    237.8    240.4    240.1
 Budget (in $M)
========================================================================
Exploration           157.7    164.7    164.7    164.7    164.7    164.7
 Appropriation
  Human Research      157.7    164.7    164.7    164.7    164.7    164.7
   Program
Space Operations       73.3     75.3     71.8     73.1     75.7     75.4
 Appropriation
  Biological &         58.3     60.3     56.8     58.1     60.7     60.4
   Physical
   Research
  Non-Profit           15.0     15.0     15.0     15.0     15.0     15.0
   Organization
------------------------------------------------------------------------
* Note the Multi-User System Support (MUSS) budget, including National
  Laboratory Enabling, is managed by the ISS Program and therefore is
  not included in the above data.

Arc Jet
    Question 11. We understand that NASA is planning to consolidate all 
Arc Jet testing capabilities at Ames Research Center (ARC) because it 
will require only minimal cost in upgrades to the facility and the 
Agency expects this consolidation effort to result in operational cost 
savings. What are some of the long-term efficiencies that can be gained 
from consolidating Arc Jet at Ames?
    Answer. Annual operating efficiencies: consolidating NASA arc jet 
capabilities at Ames allows the Agency to save the ongoing annual costs 
of operating and maintaining the lower-power arc jet facility at 
Johnson Space Center with minimal impact to near-and long-term mission 
needs. Recent, extensive reports sponsored by both the NASA Office of 
the Chief Engineer and the JSC Orion MPCV program have concluded that: 
(1) the capabilities provided by the ARC arc jets are the minimum set 
necessary to meet present and anticipated Agency test requirements; (2) 
modifying the JSC arc jet infrastructure so that it is physically 
capable of matching the technical capability already operating at ARC 
would require hundreds of millions of dollars in new infrastructure 
investment--essentially, would require razing and rebuilding a new 
upgraded capability from scratch; and (3) actual operations costs at 
ARC on a per-test productivity basis are lower than JSC's and are 
comparable to those of other commercial and DOD arc jet facilities. In 
FY 2010, the NASA OCE determined the annual operations and maintenance 
costs of operating the JSC arc jet at $6.2M/per year. Approximately 60 
percent of the annual cost of an arc jet facility is fixed costs. Over 
the 30-year life expectancy of a modern industrial test facility, 
consolidating test capability at Ames would save up to $111.6M in the 
fixed costs of operating the JSC arc jet facility.
    Test execution efficiencies: the cost-per-test of operating at ARC 
is lower than at JSC. The recent study chartered by the Office of the 
Chief Engineer found that the FY 2010 average cost per test at JSC is 
$32.3K; at Ames, $16.3K. On average the JSC facility executes 
approximately 200 tests per year. Executing those tests at ARC would 
save the Agency approximately $3.2M per year.
    Future capability upgrade efficiencies: Mission scenarios for 
planetary science missions to Mars, Venus, the gas giants, comet and 
asteroid sample return, and crewed missions to the Moon, Mars, and 
near-earth asteroids will require increased performance from arc jet 
infrastructure. Higher temperatures are needed to simulate the 
condition associated with atmospheric entry (at the destination) and 
reentry (to Earth) for missions of this scope. Efficiencies can be 
realized through concentration of infrastructure maintenance and 
upgrade resources on a single facility. The underlying infrastructure 
at Ames is designed to support very high power (up to 150 MW) arc jet 
operations. The corresponding infrastructure at JSC is limited to 
supporting low power (up to 10 MW) operations. Recent studies (ARES 
Corporation, Arc-Heated Test Facility Investment & Risk Reduction Study 
for Orion Heat Shield, May 2007) have shown that the most cost- and 
time-efficient approach to meeting upgraded arc jet performance 
requirements is to install upgraded equipment within the Ames 
infrastructure. This approach obviates investments in JSC 
infrastructure that already exist at Ames, and leverages the Agency's 
considerable recent infrastructure investments in the Ames facility.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner by 
                      Hon. Charles F. Bolden, Jr.

    Question 1. It is my understanding that from 2006 to 2012 funding 
for NASA's Aeronautics Hypersonics Project was decreased by 75 percent 
from $95M to $25M. The proposed FY 2013 Budget further reduces funding 
from $25M down to $7M--another 72 percent reduction. However, I also 
understand that the results of hypersonic research achieve our national 
security goals by increasing our global reach, responsiveness, and 
survivability. What was the basis for decreasing hypersonic programs to 
only 7 percent of the FY 2006 funding level?
    Answer. Most of the decrease in funding for the Hypersonics Project 
prior to FY 2012 was due to accounting changes and the elimination of 
one-year Congressional augmentations. The reduction from $50M in FY 
2011 to $25M in FY 2012 and proposed reduction in FY 2013 reflect 
content changes due to required priority setting within a very tight 
budget environment. The Hypersonics Project had two main emphases in 
its portfolio: 1) fundamental research and technology development for 
air breathing hypersonic propulsion systems and 2) fundamental research 
in Entry, Descent, and Landing (EDL). With the reduction in FY 2012, 
the EDL-related flight experiment of inflatable re-entry system was 
transferred to the Office of Chief Technologist (OCT). In FY 2012, NASA 
prioritized funding for other, higher priority areas within the 
aeronautics portfolio, including research in airspace management, 
composites structures, and aviation safety. With the proposed reduction 
in FY 2013, the Agency will transfer all remaining EDL work to the 
Office of Chief Technologist (OCT). In FY 2013, technology development 
effort in air-breathing hypersonic propulsion systems such as combined 
cycle engines and structurally integrated thermal protection systems is 
planned to be phased out while retaining the Langley 8-Ft High 
Temperature Tunnel and research capability to support DOD's hypersonic 
programs. Further, NASA will effectively combine the hypersonics and 
supersonics research into a single project that will be focused on 
high-speed flight. The DOO will continue to support a larger 
hypersonics R&D program aimed at achieving national security goals.

    Question 1a. What results have been achieved to date through the 
Aeronautics Hypersonics Project?
    Answer. Recent NASA hypersonics results have largely been 
accomplished in partnership with the DOD. These accomplishments include 
validation of hypersonic vehicle design methods and ground-to-flight 
scaling laws resulting from X-51 wind tunnel testing in the Langley 8-
Ft High Temperature Tunnel and DOD flight-testing combined with NASA-
Air Force Research Lab (AFRL) Computational Fluid Dynamics (CFD) 
analyses. Another accomplishment is the NASA development of the 
scramjet engine payload to be flown as Flight 2 of the HIFiRE 
(Hypersonic International Flight Research and Experimentation) Program 
with the Air Force Research Laboratory. The Hypersonic Project also 
conducted the first flight test of an inflatable heat shield as well as 
the associated materials and computational tools to allow these new 
systems to be further developed. Additional technical detail can be 
provided upon request.

    Question 1b. What is NASA's plan for achieving the same national 
security goals on this drastically reduced budget?
    Answer. NASA Aeronautics responsibility to the national security 
goals related to hypersonics is to support the DOD. NASA will work with 
the DOD to coordinate and minimize the impact by the changes in the 
NASA hypersonics research on their missions. Discussions to date with 
DOD officials indicate that the remaining NASA hypersonics investment 
is aligned with their highest priorities.

    Question 2. Without the long-term research that will be eliminated 
under the propose FY 2013 budget, what will be the impact to NASA's 
Space Technology and DOD's DARPA projects and to future launch 
vehicles? How will this critical NASA capability for NASA and DOD be 
maintained beyond FY 2012?
    Answer. NASA will maintain specifically the hypersonic scramjet 
propulsion research and support capability associated with the NASA 
Langley 8-ft High Temperature Tunnel. The reason that NASA is focusing 
its remaining hypersonic investment around this wind tunnel is that it 
is key to supporting both NASA and DOD missions. Discussions to date 
with DOD officials indicate that the remaining NASA hypersonics 
investment is aligned with their highest priorities. Military 
applications will be the first steps toward eventually maturing the 
technology sufficiently to enable civilian uses such as transportation 
or space access. The primary impact would be to limit future 
opportunities to move beyond traditional rockets for such applications. 
At this time, NASA does not have plans or funds to build such a launch 
system, so there is not an immediate impact. Additionally, alternatives 
to conventional rockets are not just limited to hypersonic air-
breathing propulsion options, and include horizontal launch options 
that cover the spectrum from sub-sonic to supersonic air-breathing 
first stage vehicles, to other more innovative and advanced concepts. 
However, it is anticipated that there could be an impact in supporting 
external research in this area and developing future engineers and 
scientists with skills in this area. NASA's Space Technology Program FY 
2013 budget request of $699M incorporates the responsibility for the 
fundamental research in the area of Entry, Descent, and Landing (EDL). 
The actual FY 2013 appropriated funding level for Space Technology may 
impact all areas in Space Technology including EDL research.

    Question 3. Hypersonic air-breathing propulsion is a key component 
of advanced propulsion systems for launch vehicles that the National 
Research Council recently selected as the highest priority during their 
review of Space Technology Roadmaps. It takes years to develop the 
subject matter and expertise and the required facilities. As other 
countries including China, France and England more forward with robust 
hypersonic air-breathing projects and move into a position to 
capitalize on this technology as it matures for both economic and 
military benefits, what impact will reduced funding levels have on our 
national security?
    Answer. The National Research Council (NRC) report called out many 
high priority technologies, including the 16 highest priorities. The 
report ranked turbine-and rocket-based combined cycle propulsion 
technologies the highest in the Launch Propulsion Systems technical 
area.
    For decades, both NASA and the Air Force have invested substantial 
resources in these two areas. For example, the National Aerospace Plane 
program of the late 80s and early 90s was an effort to refine and 
implement these technologies. As recognized in the NRC report, both 
technical areas pose technical challenges that are difficult and 
expensive to overcome. The NRC prioritized these but added: ``However, 
a significant number of challenges were also identified for each, and 
the Committee believes that it will take decades of research and 
development and a large and sustained financial investment to makes 
these technologies feasible.''
    NASA is conducting a thorough assessment of how the Agency's 
current technology development efforts align with the priorities 
identified in the NRC report. The Office of the Chief Technologist is 
leading an Agency-wide gap analysis and strategic planning effort to 
address the recommendations made by the NRC and work with NASA Mission 
Directorates to determine what is possible within the Agency's current 
budget profile.
    NASA is working with DOD to minimize the impact to their mission. 
For example, we are maintaining some critical national capabilities 
related to scramjet propulsion and the LaRC 8-ft High Temperature 
Tunnel to provide continued support to DOD missions.
    While NASA is reducing research related to air-breathing 
hypersonics systems including propulsion technologies and structurally 
integrated thermal protection systems, the Agency decided that, in 
order to maintain core capabilities needed for spacecraft development, 
the Space Technology program will assume responsibility for the 
fundamental research associated with Entry Descent and Landing that had 
previously been conducted in the Aeronautics Research Mission 
Directorate. This change also creates synergies with development 
projects Space Technology is conducting in this technology area.

    Question 4. What has been the extent of coordination with DOD on 
the Aeronautics Hypersonics Project? With the proposed cuts to the NASA 
program, what kind of changes in the relationship and coordination with 
DOD do you anticipate?
    Answer. NASA is actively working with the DOD to coordinate and 
minimize the impact of these decisions on their missions. There are 
some elements of research that NASA will no longer be able to support, 
and NASA has already met with senior DOD officials who agree that the 
remaining NASA investment does align with the highest hypersonic 
priorities in the DOD. Specifically, NASA Aeronautics is focusing its 
remaining hypersonic research on efforts that directly support the DOD. 
We are also maintaining some critical national capabilities related to 
scramjet propulsion to provide support for both Agency and DOD 
missions. NASA is aware of the DOD plans to expand research in 
hypersonic flight systems and is continuing to discuss options to 
optimize this collaboration. In the same way that NASA supported the 
development of the USAF X-51 system, we expect DOD collaboration and 
coordination to continue.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. I know you are aware of White Sands' unique assets and 
capabilities. I appreciate hearing from you about NASA's goals and 
priorities for FY 2013. Could you speak about some of the opportunities 
for White Sands to support NASA's missions? How can we take full 
advantage of White Sand Test Facility's capabilities in FY 2013 and 
beyond?
    Answer. As a preeminent resource for testing and evaluating 
potentially hazardous materials, space flight components, and rocket 
propulsion systems, White Sands Test Facility (WSTF) is well positioned 
to support NASA mission requirements. The facility conducts simulated 
mission duty cycle testing to develop numerous full-scale propulsion 
systems. WSTF is also formally certified to perform precision cleaning 
and depot-level refurbishment of flight-critical propulsion systems 
components. Further, the scientific investigation of explosion 
phenomena at WSTF is aimed at improving safety at launch facilities and 
other areas where hazardous materials are used. WSTF is a center of 
technical excellence in the fields of high-pressure oxygen systems/
materials and rocket propellant safety. Further, the laboratory 
services at WSTF are available to NASA, the Department of Defense, 
other Federal agencies, universities, and commercial industry.
    In the area of hazardous testing, WSTF offers a set of state-of-
the-art/world class lab and propulsion test facilities specializing in 
hazardous/non-hazardous operations and performing tests on propulsion 
systems, components, and materials, including: hypergolic fueled 
propulsion systems and components; green fuel propulsion systems and 
components; oxygen compatibility; hypervelocity impact in hazardous 
atmospheres; and standard materials testing for human space flight 
environment compatibility.
    In addition, WSTF can perform propulsion testing of components, 
engines and systems at ambient (up to 60,000 lbs. thrust) and simulated 
altitudes of 120,000 ft (25,000 lbs. thrust) for hypergolic, liquid 
oxygen/liquid hydrogen, and liquid oxygen/liquid methane fuels.
    Current and Future Activities:

  <bullet> Continued improvements in safety, reliability, and 
        efficiency through the execution of prioritized projects in the 
        propulsion test facilities (Propulsion Test Area Intercom 
        System, Altitude Simulation Vacuum System Controls, Bulk 
        Propellant Storage)

  <bullet> Specific test programs:

    <ctr-circle> Oxygen compatibility testing for International Space 
            Station components and materials;

    <ctr-circle> Hypervelocity testing in support orbital debris and 
            micro-meteoroid mitigation;

    <ctr-circle> Space Shuttle Transition and Retirement activities to 
            restore test stands to a neutral test state;

    <ctr-circle> Space Shuttle post program decontamination activities;

    <ctr-circle> Continued support to the Agency vision for space by 
            testing hypergolic fueled propulsion components for Space 
            Launch System and Orion Multi Purpose Crew Vehicle;

    <ctr-circle> Support to Department of Defense and other Government 
            organizations by safing the U.S. Air Force Peacekeeper 
            stages, testing the U.S. Air Force Minuteman missiles, and 
            critical Missile Defense Agency projects;

    <ctr-circle> Support to commercial space developers and providers 
            by testing hypergolic propulsion systems.

  <bullet> Specific to NASA's commercial crew and cargo development 
        efforts, partners may request use of NASA facilities, 
        equipment, or services that are unique or not commercially 
        available. Partners planning to use such NASA resources must 
        enter into separate reimbursable agreements directly with the 
        appropriate NASA Center(s). Any decision to use NASA 
        facilities, equipment, or services shall be at the 
        Participant's discretion and risk.

    The WSTF propulsion test assets are managed through the Human 
Exploration and Operations Mission Directorate (HEOMD) Rocket 
Propulsion Test (RPT) Program. The RPT Program represents the single-
point interface for NASA's rocket propulsion test facilities located at 
Stennis Space Center (SSC), Marshall Space Flight Center (MSFC), 
Johnson Space Center-White Sands Test Facility (JSC-WSTF), and Glenn 
Research Center-Plum Brook Station (GRC-PBS). The RPT sustains and 
improves Agency-wide rocket propulsion test core competencies (both 
infrastructure and critical skills), ensures appropriate levels of 
capability and competency are maintained, and eliminates unwarranted 
duplication. The program strategy is to fund and maintain core 
competencies of skilled test and engineering crews and test stand 
facilities; consolidate and streamline NASA's rocket test 
infrastructure; establish and maintain world-class test facilities; 
modernize test facility equipment; provide non-project-specific 
equipment and supplies; and develop effective facility/infrastructure 
maintenance strategies and performance.

    Question 2. I am pleased that NASA's budget request includes 
funding for the Flight Opportunities Program. This initiative provides 
relatively low-cost access to reduced-gravity environments that is 
useful for scientific research and developing new space technology. By 
competitively securing commercial flight services, NASA's Flight 
Opportunities Program leverages private investment in suborbital 
spacecraft and parabolic aircraft. This helps expand access to 
suborbital space for researchers and others seeking to conduct 
microgravity experiments. Could you share some of your thoughts on the 
importance of this relatively small program on achieving NASA's goals 
in the areas of science, technology, and exploration?
    Answer. The Flight Opportunities Program (authorized as the 
Commercial Reusable Suborbital Research Program) was proposed by NASA 
in FY 2010 in response to the National Academy of Sciences report: 
Revitalizing NASA's Suborbital Program: Advancing Science, Driving 
Innovation and Developing Workforce. The intent of this program is to 
facilitate access to near-space for a variety of users with greater 
frequency and affordability, and with more reliability. To accomplish 
these goals, this relatively small program effectively leverages 
private investments made by multiple companies in the emerging space 
sector. The program does not fund their flight vehicle development, but 
purchases commercial flights offered by these entrepreneurial 
companies.
    NASA recognizes the importance of commercial reusable parabolic and 
suborbital flights for development of future Science and Exploration 
workforce capabilities. One of the greatest challenges NASA faces in 
advancing cutting-edge technologies is bridging the gap between testing 
a component or prototype in a laboratory or ground facility 
environment, and demonstrating the technology or capability in a 
mission-relevant operational environment. The cost of access to space 
remains prohibitively expensive with launch costs to low-Earth orbit 
ranging from $10,000 to $15,000 per pound for small payloads. Adding 
these launch costs to the cost of demonstration hardware and operations 
capability presents a major hurdle in the maturation of compelling 
space technologies. Without an ability to perform these critical 
relevant environment tests, not only do these new technologies remain 
on the shelf, but the workforce that might otherwise gain the 
experience to employ these new approaches remains underutilized and 
untrained. A key parameter for space capabilities is proving 
performance in a microgravity environment. It is this gap between non-
microgravity ground-based testing and very expensive orbital 
demonstrations, where commercial reusable suborbital launch vehicles 
offer an enormous potential. Microgravity flights provide the potential 
for relevant environment testing at a small fraction of the costs 
required for orbital flights.
    As noted in the legislative mandate for this program, and by the 
NRC review of NASA's Suborbital Program \1\, utilizing suborbital 
platforms provides critical training opportunities needed to sustain a 
skilled aerospace workforce capable of meeting our Nation's exploration 
and technology development objectives. In the process of cultivating 
the next generation of researchers and technologists, and moving 
technology through the critical, flight testing phase, Flight 
Opportunities begins to establish a stable customer base for an 
emerging commercial suborbital market in the purchase of space 
transportation services.
---------------------------------------------------------------------------
    \1\ ``Revitalizing NASA's Suborbital Program: Advancing Science, 
Driving Innovation, and Developing a Workforce'' http://www.nap.edu/
catalog/12862.html.

    Question 3. I am aware that NASA is realigning some of its 
educational activities in accordance with the Office of Science and 
Technology Policy (OSTP) five-year STEM strategic plan. Could you 
preview plans for any of NASA's STEM programs aimed at K-12 and 
university students, and speak about NASA's increased collaboration 
with other agencies on these efforts?
    Answer. NASA is working to align its programs with the priorities 
identified in the five-year STEM strategic plan issued by the National 
Science and Technology Council (NSTC) Committee on STEM Education. NASA 
Education is actively engaged with Federal partners through the 
Committee on STEM (Co-STEM), the EPSCoR Interagency Coordinating 
Committee, and through collaborations with the Department of Education, 
Department of Defense Education Activity (DODEA), National Science 
Foundation, and NOAA among others.
    Consistent with the status report on the NSTC Five-Year Federal 
STEM Education Strategic Plan released by the National Science and 
Technology Council, NASA will align its portfolio of activities over 
the next three years. In Year one, NASA will work with the Co-STEM to 
finalize criteria for success, develop common evidence standards, 
evaluation and research toolkits, and identify efficiency and 
productivity opportunities. In Years two and three, the Agency will 
establish baselines and increase alignment with the adopted criteria. 
NASA will align its future evaluation strategy with the Status Report 
on the NSTC Five-Year Federal STEM Education Strategic Plan. Successful 
STEM education practices and strategies identified through STEM 
education research studies and evaluations will also be used to guide 
NASA investments in STEM education. NASA will continually adjust the 
design of STEM education investments to align with best practices in 
STEM education derived from existing and new evidence from education 
research and evaluation.
    The Aerospace Research and Career Development program strengthens 
the research capabilities of the Nation's colleges and universities and 
provides opportunities that attract and prepare increasing numbers of 
students for NASA-related careers. The student programs serve as a 
major link in the pipeline for addressing NASA's human capital 
strategies. The programs build, sustain, and effectively deploy the 
skilled, knowledgeable, diverse, and high-performing workforce needed 
to meet the current and emerging needs of NASA and the Nation. The 
research conducted contributes to the research needs of NASA's Mission 
Directorates and advances the Nation's scientific and technology 
innovation agendas.
    The STEM Education and Accountability program provides competitive 
opportunities for NASA Centers, visitor centers, institutions of 
informal education, schools, universities, and non-profit 
organizations. These groups develop lessons, materials, research 
opportunities, and hands-on activities that draw on NASA's unique 
missions. The program includes learners from kindergarten through 
graduate school, educators in the classroom and in informal learning 
environments, college faculty, and the general public. The program 
emphasizes undergraduate participation in STEM research and education, 
preparing future scientists and engineers to enter the STEM workforce. 
Consistent with input received from the National Science and Technology 
Council Committee on STEM, NASA will provide middle school pre-service 
and in-service educators with NASA-themed experiences that build 
critical instructional STEM skills, and better enable them to motivate 
students in STEM. NASA activities and experiences spark interest in 
STEM and expose students to new career paths. Educators, both in 
schools, and in museums, science centers, and in community-based 
education organizations, will enhance their teaching practices with 
NASA-themed materials, experiences, and teaching strategies. NASA will 
engage learners of all ages through its missions, engineering 
challenges, and scientific discoveries.

    Question 4. With the retirement of the Space Shuttle, NASA 
currently relies on Russia to provide access to the International Space 
Station. The NASA budget request for the Commercial Crew program 
designed to replace this capability is below the FY 2012 request and 
the authorization level. Will this funding level delay our Nation's 
ability to service the ISS with American launch vehicles?
    Answer. NASA's original request for the Commercial Crew Program 
was:

------------------------------------------------------------------------
         ($ in millions)           2011    2012    2013    2014    2015
------------------------------------------------------------------------
FY 2011 BUDGET                       500   1,400   1,400   1,300   1,200
------------------------------------------------------------------------

    With this budget, NASA estimated that a commercial crew capability 
could be in place by 2015. However, the amount appropriated in 2011 was 
$312M ($188M less than requested). Thus, NASA reduced its expected 
progress and initiated CCDev Round 2 which only matured elements of the 
systems instead of overall integrated crew transportation systems. The 
combined impact of the lower than expected budget and having to focus 
on elements of the system instead of an integrated system was that it 
delayed NASA's expected operational date of commercial crew to 2016.
    The amount appropriated in 2012 was $406M ($444M less than the 
newly requested amount of $850M). This resulted in a further slippage 
of NASA's expected operational date to 2017, given the requested 
funding levels in the President's FY 2013 request and reasonable 
technical progress on the part of the commercial providers.
    NASA is planning for commercial crew capability to be in place in 
2017; but, the Agency's plans will not preclude earlier availability of 
services. Many of the potential commercial providers have stated they 
could provide services earlier than 2017. How much does NASA expect to 
ultimately pay Russia to fly astronauts to low Earth orbit before we 
achieve a new commercial crew capability?
    Answer. In March 2011, NASA signed the most recent modification to 
the current International Space Station (ISS) contract with the Russian 
Federal Space Agency for crew transportation, rescue and related 
services from 2014 through June 2016. The firm-fixed price 
modification, valued at $753M, covers comprehensive Soyuz support, 
including all necessary training and preparation for launch, flight 
operations, landing and crew rescue of long-duration missions for 12 
individual space station crew members.

    Question 5. New Mexico is at a high elevation and relies on 
snowpack water sources for irrigation and drinking water. My state is 
highly susceptible to variations due to weather and climate patterns 
and I am particularly concerned about effects of climate change. I am 
pleased to learn about NASA's plans for the Earth Venture program and 
progress developing next-generation climate and weather monitoring 
missions. Could you elaborate on the goals of these missions, and the 
implications their findings could have for our understanding of climate 
change?
    Answer. NASA is operating or has made significant hardware 
contributions to16 Earth observing satellites that are providing data 
on a wide variety of interactions among the oceans, atmosphere, land 
surface, ice sheets and biota that compose the Earth system. These data 
enable research that improves our scientific understanding of and 
enables improved prediction of climate, weather, and natural hazards. 
Additionally, the satellites return valuable scientific data that drive 
climate and weather research and provide decision support information 
and tools through NASA's Applied Sciences Program.
    The list of currently operating satellites and their status is 
given in the table below. ``Extended'' means the mission has met all 
its top-level science requirements and continues to provide vital 
science data. ``Prime'' means the mission is still in its primary 
operating phase, collecting data on the way to meeting its top-level 
requirements.

------------------------------------------------------------------------
     Mission*        Launched       Phase     Scientific Issues (Goals)
------------------------------------------------------------------------
Tropical Rainfall     11/27/97    Extended   The first-time use of both
 Measuring                                    active and passive
 Mission (TRMM)                               microwave instruments have
                                              made TRMM the world's
                                              foremost satellite for the
                                              study of precipitation and
                                              associated storms and
                                              climate processes in the
                                              tropics.
------------------------------------------------------------------------
Landsat 7             04/15/99    Extended   Landsat 7 is a joint
                                              mission of NASA and USGS
                                              to gather Earth resource
                                              data, and is the most
                                              recent in a long series of
                                              Landsat satellites going
                                              back over 35 years to
                                              1974.
------------------------------------------------------------------------
Quick                  6/19/99    Extended   The SeaWinds instrument on
 Scatterometer                                the QuikSCAT satellite is
 (QuikSCAT)                                   a specialized microwave
                                              radar that measures near-
                                              surface wind speed and
                                              direction under all
                                              weather and cloud
                                              conditions over Earth's
                                              oceans.
------------------------------------------------------------------------
Terra                 12/18/99    Extended   Terra simultaneously
                                              studies clouds, water
                                              vapor, aerosol particles,
                                              trace gases, terrestrial
                                              and oceanic surface
                                              properties, biological
                                              productivity of the land
                                              and oceans, the
                                              interaction among them and
                                              their effects on
                                              atmospheric radiation and
                                              climate.
------------------------------------------------------------------------
Active Cavity         12/20/99    Extended   The ACRIMSAT spacecraft
 Radiometer                                   carries an instrument
 Irradiance                                   which measures the Sun's
 Monitor                                      total energy output,
 (ACRIMsat)                                   continuing a database
                                              started in 1980. ACRIMSAT
                                              data can be correlated
                                              with possible global
                                              warming data, ice cap
                                              shrinkage data, and ozone
                                              layer depletion data.
------------------------------------------------------------------------
Earth Observer-1      11/21/00    Extended   Earth Observing-1 (EO-1) is
 (EO-1)                                       an advanced land-imaging
                                              mission that demonstrates
                                              new instruments and
                                              spacecraft systems. The
                                              hyperspectral instrument
                                              called Hyperion is the
                                              first of its kind to
                                              provide images of land-
                                              surface in more than 220
                                              spectral colors.
------------------------------------------------------------------------
Jason                  12/7/01    Extended   Jason is an oceanography
                                              mission to monitor global
                                              ocean circulation, improve
                                              global climate
                                              predictions, and monitor
                                              events such as El Nino
                                              conditions and ocean
                                              eddies. The mission helps
                                              increase understanding of
                                              ocean circulation and
                                              seasonal changes and
                                              improve forecasting of
                                              climate events like El
                                              Nino.
------------------------------------------------------------------------
Gravity Recovery       3/17/02    Extended   The primary goal of the
 and Climate                                  GRACE mission is to
 Experiment                                   accurately map variations
 (GRACE)                                      in the Earth's gravity
                                              field over its lifetime.
                                              The science data from the
                                              mission is used to
                                              estimate global models for
                                              variable Earth gravity
                                              field approximately every
                                              30 days.
------------------------------------------------------------------------
Aqua                    5/3/02    Extended   Aqua was launched with six
                                              state-of-the-art
                                              instruments to observe the
                                              Earth's oceans,
                                              atmosphere, land, ice and
                                              snow covers, and
                                              vegetation, providing high
                                              measurement accuracy,
                                              spatial detail, and
                                              temporal frequency.
------------------------------------------------------------------------
Solar Radiation        1/25/03    Extended   SORCE provides state-of-the-
 and Climate                                  art measurements of
 Experiment                                   incoming x-ray,
 (SORCE)                                      ultraviolet, visible, near-
                                              infrared, and total solar
                                              radiation. The
                                              measurements specifically
                                              address long-term climate
                                              change, natural
                                              variability and enhanced
                                              climate prediction, and
                                              atmospheric ozone and UV-B
                                              radiation.
------------------------------------------------------------------------
Aura                   7/15/04    Extended   Aura's objective is to
                                              study the chemistry and
                                              dynamics of the Earth's
                                              atmosphere with emphasis
                                              on the upper troposphere
                                              and lower stratosphere (0-
                                              30km) by employing
                                              multiple instruments on a
                                              single satellite. Each
                                              instrument makes daily
                                              global observations of
                                              Earth's atmospheric ozone
                                              layer, air quality, and
                                              key climate parameters.
------------------------------------------------------------------------
Cloudsat               4/28/06    Extended   CloudSat is designed to fly
                                              in formation with CALIPSO
                                              to provide a comprehensive
                                              characterization of the
                                              structure and composition
                                              of clouds and their
                                              effects on climate under
                                              all weather conditions.
------------------------------------------------------------------------
Cloud-Aerosol          4/28/06    Extended   CALIPSO flies three
 Lidar and                                    instruments in formation
 Infrared                                     with Aqua to obtain
 Pathfinder                                   coincident observations of
 Satellite                                    radiative fluxes and
 Observations                                 atmospheric conditions.
 (CALIPSO)                                    This enables new
                                              observationally based
                                              assessments of the
                                              radiative effects of
                                              aerosol and clouds that is
                                              greatly improving our
                                              ability to predict future
                                              climate change.
------------------------------------------------------------------------
Ocean Surface          6/20/08    Extended   OSTM/Jason 2 measures sea
 Topography                                   surface height by using a
 Mission (OSTM)/                              radar altimeter mounted on
 Jason 2                                      a low-Earth orbiting
                                              satellite. Measurements of
                                              sea-surface height, or
                                              ocean surface topography,
                                              reveal the speed and
                                              direction of ocean
                                              currents and tell
                                              scientists how much of the
                                              sun's energy is stored by
                                              the ocean.
------------------------------------------------------------------------
Aquarius               6/10/11       Prime   By measuring sea surface
                                              salinity over the globe
                                              with such unprecedented
                                              precision, Aquarius will
                                              answer long-standing
                                              questions about how our
                                              oceans respond to climate
                                              change and the water
                                              cycle. Monthly sea surface
                                              salinity maps will give
                                              clues about changes in
                                              freshwater input and
                                              output to the ocean
                                              associated with
                                              precipitation,
                                              evaporation, ice melting,
                                              and river runoff.
------------------------------------------------------------------------
Suomi-NPP             10/28/11       Prime   NPP is the bridge between
                                              the EOS satellites and the
                                              forthcoming series of
                                              Joint Polar Satellite
                                              System (JPSS) satellites.
                                              NPP data will be used for
                                              both climate research and
                                              operational weather
                                              prediction.
------------------------------------------------------------------------
* Information on the measurements these missions make and the research
  and applications that they enable is available at:http://
  nasascience.nasa.gov/earth-science/missions/.

    The following missions are in development or formulation:


                 Mission                   Planned Launch Readiness Date

Landsat Data Continuity Mission (LDCM)                             2013
Global Precipitation Measurement (GPM)                             2014
Orbiting Carbon Observatory-2 (OCO-2)                              2014
Stratospheric Aerosol and Gas Experiment                           2014
 (SAGE III on ISS)
Soil Moisture Active/Passive (SMAP)                                2014
ICESat-2                                                           2016
Gravity Recovery and Climate Experiment-                           2017
 Follow-on (GRACE-FO)


    Several other missions are in a pre-formulation study phase.
Venture-Class
    Venture-Class is a Tier-I Decadal Survey recommendation and is a 
program of regular competitive solicitations designed to enable 
science-driven, PI-led, cost-and schedule-constrained, innovative 
orbital and suborbital missions from academia and private industry as 
well as from NASA Centers. The Venture-class investigations complement 
the systematic missions identified in the Decadal Survey, and provide 
flexibility to accommodate scientific advances and new implementation 
approaches.
Venture-Class is fully funded, with 3 ``strands''
  <bullet> EV-1: suborbital/airborne investigations (5 years duration)

    <ctr-circle> Solicited in FY 2009 (selections in FY 2010) and every 
            4 years

    <ctr-circle> 5 investigations selected; flights began in FY 2011

  <bullet> EV-2: small complete missions (5 years duration)

    <ctr-circle> Solicited in FY11 (selections in FY 2012) and every 4 
            years

    <ctr-circle> Small-sat or stand-alone payload for MoO; $150M total 
            development cost

    <ctr-circle> AO released 17 June, proposals received 29 Sept 2011, 
            under review

  <bullet> EV-Instrument: Spaceborne instruments for flight on MoO (5 
        years dev.)

    <ctr-circle> Solicited in FY 2011 (selections in CY12) and every 
            15-18 months thereafter

    <ctr-circle> Final AO release Feb 7; proposals due May 8, $90M 
            development costs, accommodation costs budgeted separately

    NASA's Research and Analysis programs and the Applied Sciences 
Programs, generate the research understanding and the efficient data 
products that users need to redeem the Nation's investment in the 
flight missions.
    The Earth Science R&A activity is built around the creation of new 
scientific knowledge about the Earth system. The analysis and 
interpretation of data from NASA's satellites form the heart of the R&A 
program in the Earth Science Research Program, although a full range of 
underlying scientific activity needed to establish a rigorous base for 
the satellite data and their use in computational models, including 
those for assimilation and forecasting, is also included. The 
complexity of the Earth system, in which spatial and temporal 
variability exists on a range of scales, requires that an organized 
scientific approach be developed for addressing the complex, 
interdisciplinary problems that exist, taking good care that in doing 
so there is a recognition of the objective to integrate science across 
the programmatic elements towards a comprehensive understanding of the 
Earth system.
    Through the Applied Sciences Program, NASA develops and 
demonstrates practicable applications of its research satellite 
observations and model results for use by decision makers. NASA works 
directly with decision makers throughout the development of 
applications.
    Two recent examples of NASA Earth Science Research and Applications 
follow.
NASA's GRACE Data enhances North American Drought Monitors
    Many regions in the United States experienced record-breaking 
drought in 2011. To better understand drought so that decision makers 
can accurately manage the best uses of a limited water supply, an 
Applied Sciences-funded project in the Water Resources Program is using 
GRACE (Gravity Recovery and Climate Experiment) data to enhance the 
U.S. and North American Drought Monitors, the premier decision support 
tools for drought monitoring purposes.
    To address the need for better drought information and enhanced 
decision support tools, an Applied Sciences-funded project led by Matt 
Rodell, hydrologist at NASA's Goddard Space Flight Center, is working 
with NOAA, the National Drought Mitigation Center at the University of 
Nebraska Lincoln, and a team from the University of California Irvine 
to develop new drought indicator maps using Earth observations from 
GRACE and other missions.
    GRACE--paired satellites that travel approximately 137 miles apart 
and detect small variations in the Earth's gravitational field--data is 
useful because it provides valuable information on water stored both on 
top of and below the land surface. This includes snow, soil moisture 
and groundwater. Having a complete picture of all these water types 
gives a much more accurate picture of drought.
    Prior to the addition of GRACE data and other satellite observation 
into the drought monitors, the maps lacked information on soil moisture 
and groundwater storage--two areas that GRACE has been able to enhance 
greatly.
    But GRACE's spatial and temporal resolutions are low. Because of 
this, GRACE data alone would not provide the complete picture necessary 
for sound water management decision-making. Rodell's team uses the 
GRACE data and combines it with a long-term meteorological data-set--
including precipitation and temperature, satellite based solar 
radiation data, and high resolution land surface modeling to produce a 
continuous record of soil moisture and groundwater that goes back to 
1948. The soil moisture and groundwater record is used to produce 
weekly maps of wetness conditions in the soil and aquifers.
    To view the weekly maps, visit http://www.drought.unl.edu/
MonitoringTools/NASAGRACEDataAssimilation.aspx.
NASA's efforts to assess snowpack for improved snow-water run-off 
        forecasts
    NASA is addressing the challenge of assessing seasonal water supply 
estimates from snow melt on three fronts. Improved land surface models 
from better observations, improved scientific knowledge, and advanced 
computing capabilities, sensor and model improvement from airborne 
observatories and campaigns, and better space observations leading to 
persistent measurements of snow cover and snow depth.
    NASA Water Resources Program is supporting numerous projects 
building on a NASA modeling and modeling framework capabilities. These 
capabilities have expanded the use of scientific models to wide 
audiences of researchers and decision-makers. One example is with NOAA/
National Weather Service (NWS) National Operational Hydrologic Remote 
Sensing Center (NOHRSC) to develop North American information for 
Alaska. This project is now expanding the effort to assess the impact 
on the NWS Alaska-Pacific River Forecast Center's region.
    Airborne and spaceborne observations of snow-based reservoirs have 
greatly increased in quality and quantity of the past few years. NASA 
has been improving upon initial MODIS (on Terra and Aqua) algorithms to 
detect snow cover and have an improved product that allows better 
monitoring during the critical snowmelt phase of some snowpacks. NASA 
has also been exploring the use of hyperspectral remote sensing 
information, current available using NASA aircraft instruments, as well 
as in discussion for a future satellite recommended by the decadal 
survey (HyspIRI), to better understand the effects of (blown) dust on 
snow melt rates. As an example, various observations were combined in 
2010 that allowed NASA scientists to warn particular water districts in 
Colorado that blown dust would significant enhance melt rates allowing 
them to better manage the (eventual) water capture system of this 
precious resource.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                      Hon. Charles F. Bolden, Jr.

Exploration
    Question 1. Space Launch System (SLS) and Orion/Multi-Purpose Crew 
Vehicle (MPCV) Funding Levels: NASA's long-term future is beyond low-
earth orbit. Yet, once again, we see that the proposed commitment of 
funds to develop the vehicles that will take NASA there is less than 
inspiring. In fact, the proposed funding levels for actual vehicle 
development for the Orion/MPCV) and the SLS are less now that the 
Administration has formally endorsed both programs than the amounts 
reflected in the Independent Cost Assessment last year and, presumably, 
submitted as part of NASA's request to OMB for FY 2013. How do you 
explain that the Administration's formal endorsement of SLS in 
September resulted in less money for these programs?
    Answer. For FY 2012, the Congress appropriated $1.943B for SLS and 
associated ground systems, $15 M above the ICA profile when adjusted to 
include civil service labor. Also for FY 2012, the Congress 
appropriated $1.200B for Orion MPCV, $181 M above the ICA profile when 
adjusted to include civil service labor. The FY 2013 funding request 
for Orion MPCV represents a further increase over the FY 2013 budget 
estimates that were included in the ICA report. For SLS and associated 
ground systems, the FY 2013 request is $1,885 million, 99 percent of 
the ICA profile NASA is committed to the development of the Space 
Launch System (SLS) and Orion Multi-Purpose Crew Vehicle (MPCV). Our 
budget formulation for FY 2013 took into account the FY 2012 
Appropriation s. The requested funding will enable the Agency to 
develop, test and launch the SLS and Orion MPCV first uncrewed flight 
in 2017 and the first crewed flight in 2021. Concurrently, the Agency 
continues to aggressively pursue cost-savings initiatives to increase 
schedule confidence and robustness and reduce development costs.

    Question 2. SLS Governmental Applications: The SLS is intended to 
provide the capability to launch and conduct missions to Asteroids, or 
the Moon, or Mars and other destinations for which NASA missions will 
be developed, but it certainly will have a capability that can be used 
for other purposes. What discussions are you having with other 
government agencies, for example, regarding potential use of the SLS in 
either its core configuration or in its fully-developed configuration, 
to meet needs they might have?
    Answer. NASA is primarily focused on developing the SLS launch 
vehicle and the Orion MPCV spacecraft to provide the United States with 
a human capability to explore space beyond Earth orbit by 2021. NASA 
acknowledges this capability will be a national asset, one that can be 
used to the benefit of other national interests. With this capability 
in work, NASA has reached out to the science and military communities, 
providing estimated lift capability of the SLS launch vehicle. 
Potential requirements from these communities are being discussed and 
will continue to be assessed as the launch vehicle development 
progresses and more detailed capability information can be shared.

    Question 3. SLS and MPCV Flight Milestones: During the hearing you 
stated that you may not talk about SLS and Orion/MPCV development as 
much as you may discuss Commercial Crew development, at least in part 
because SLS and Orion/MPCV programs are based mostly on known 
technology and relatively familiar, proven systems, and you have high 
confidence in their successful development. Later, in response to a 
question regarding the gap between the first expected uncrewed flight 
in 2017 and the first expected crew flight in 2021 by saying there were 
difficult challenges and uncertainties that would have to be addressed. 
Please explain that seeming contradiction. Is it not true that the 2021 
date could be accelerated to an earlier date by the provision of 
sufficient funding levels, as opposed to any real concern about 
technological challenges?
    Answer. NASA has developed an executable plan to develop the SLS 
and Orion MPCV systems to support the first human flight in 2021. The 
estimated budget to execute this plan has been phased to meet the 
fiscal budget requirements. This plan is based upon leveraging heritage 
hardware and developing new, efficient and cost-effective systems to 
enable an affordable and sustainable U.S.-developed human exploration 
capability. Exploration Flight Test-1 (EFT-1) (slated for 2014) and the 
first uncrewed flight of SLS and Orion MPCV (slated for 2017) are 
constrained by manufacturing capacity; additional funding would not 
accelerate these planned milestones. NASA will continually re-evaluate 
the projected 2021 launch date over the next few years to assess the 
potential for the integrated Orion MPCV, SLS, and Ground Systems 
capabilities to support an earlier launch opportunity.

    Question 4. SLS Acquisition and Development Approach: The initial 
configuration of the SLS includes components that are heritage from the 
Space Shuttle and Ares programs, such as the shuttle main engines and 
the 5-segment booster. Please provide a description of NASA's 
acquisition strategy going forward for the SLS program with regard to 
competition for major components to ensure maximum efficiency for the 
program? What efficiencies is NASA expecting to gain from its 
experience on Ares and Shuttle? To what extent is NASA factoring these 
efficiencies in to its cost estimating for SLS?
    Answer. NASA has been aggressive in the development of the SLS, 
having announced the basic architecture of the system on September 14, 
2011, followed by the release of several synopses in September, 
October, and December, designed to support the development of different 
components of the system, including:

  <bullet> SLS Stages Acquisition (posted 9-28-11)

  <bullet> SLS Core Stage Engines (posted 9-28-11)

  <bullet> SLS Advanced Development NASA Research Announcement (NRA) 
        (posted 3-20-12)

  <bullet> SLS Advanced Booster Engineering Demonstration and/or Risk 
        Reduction NASA Research Announcement (NRA)(posted 2-9-12)

    As directed in the NASA Authorization Act of 2010, the Agency 
acquisition strategy is to utilize Ares I and Shuttle contracts to the 
extent practicable, leveraging the existing Design, Development, Test 
and Evaluation (DDT&E) activities and hardware. In many cases, the 
DDT&E efforts directly support the SLS system development thus reducing 
the development time. Contract changes have been approved to support 
the 5-segment boosters, SLS engines and development of the core and 
upper stages by modifying the scope of existing contracts. NASA has 
taken an aggressive stance on reducing costs at NASA Centers and at 
prime contractor locations. The number of requirements to develop the 
SLS launch vehicle has been reduced, providing a reduction in 
development and future operating costs as compared to the Ares and 
Shuttle programs. In an effort to reduce fixed costs, the SLS Program 
has worked diligently with industry partners to reduce overhead and 
right-size design, manufacturing and testing efforts. Finally, the SLS 
Program has released two competitive solicitations to reduce risk and 
increase future competition on the SLS Program; the Advanced 
Engineering Demonstration and/or Risk Reduction NASA Research 
Announcement (NRA) and the SLS Advanced Development NRA.

    Question 5. SLS and Orion/MPCV Funding Profile: In the Fiscal Year 
2013 budget proposal, the requested funding for Orion/MPCV and SLS are 
flat from 2014 through 2017. This draws into question how the budget is 
phased over these years with respect to the work that needs to be 
accomplished and what a typical development funding profile looks like. 
The FY 2013 budget request also indicates at least a $250 million 
decrease in vehicle development funding from the prior combined levels 
for these two programs. How can we be sure this planned reduced budget 
will not negatively affect the first combined launch of the Orion/MPCV 
and core elements of the SLS in December 2017?
    Answer. NASA has implemented an executable plan to develop the SLS 
and Orion MPCV systems to support the flight in 2017 and the first 
human flight in 2021. This plan was developed to meet those critical 
milestones within the assumed flat-line budget. This plan is based upon 
leveraging heritage hardware and developing new, efficient and cost-
effective systems to enable an affordable and sustainable U.S.-
developed human exploration capability. An independent cost assessment 
of the plan was conducted last year, and the results validated the 
credibility of the plan in the near term. As the development of the 
SLS, Orion MPCV and ground systems continue to progress, the Agency 
will continue to aggressively assess the technical, schedule, cost and 
risk of those systems to ensure a successful first test launch of the 
SLS/Orion MPCV system in 2017.

    Question 6. Baseline Cost Estimates: GAO recently reported that 
NASA will not be able to provide a baseline life-cycle cost estimate 
for SLS and Orion/MPCV until February 2013 when it expects to have 
greater clarity of the issues surrounding integration of these two 
programs. What steps are NASA taking to ensure that the cost estimate 
for the project is realistic and phased appropriately to ensure success 
in meeting the direction for human spaceflight outlined in the 2010 
NASA Authorization Act? Please explain the basis for confidence NASA 
has in moving forward with these development activities in the absence 
of a credible baseline cost and schedule estimate for this program?
    Answer. As stated in the previous response, NASA has developed an 
executable plan for meeting the direction for human spaceflight 
outlined in the NASA Authorization Act of 2010. This plan has been 
validated by an independent assessment and has been deemed credible and 
serviceable in the near term. During the current Fiscal Year, a number 
of significant Agency and Program reviews have either been completed or 
will be completed that will provide more clarity and confidence in the 
plan. The Exploration Systems Development (ESD) portfolio successfully 
completed the cross-program systems requirements review in December, 
enabling the SLS, Orion MPCV and ground systems programs to continue 
moving forward with their individual requirements development, design 
definition and systems development. Each of the programs has major 
reviews either underway or planned for this summer. Once these program 
reviews are complete, ESD will conduct a cross-program systems 
definition review to ensure all of the programs are properly aligned 
from a technical, cost, schedule and risk perspective. Additionally, 
ESD is currently performing a detailed budget assessment based upon the 
President's FY 2013 budget request. This detailed assessment, in 
conjunction with the aforementioned reviews, will enhance the basis for 
confidence to continue the successful development of the Exploration 
architecture.

    Question 7. International Partners: What is the current status of 
discussions with potential international partners for joint activity in 
pursuing long-term future exploration goals, including, for example, 
such questions as using European elements in the service module portion 
of the Orion/MPCV crew exploration vehicle?
    Answer. NASA has continued to build and strengthen international 
partnerships to meet the greater challenges of human exploration 
including future long duration missions. In addition to the on-going 
research being conducted on the International Space Station (ISS) among 
the ISS partnership, discussions are underway to explore how the ISS 
can be most effectively used as a testbed for long duration missions. 
In parallel, the International Space Exploration Coordination Group 
(ISECG) space agencies are coordinating an international effort to 
define technically feasible, programmatically implementable, and 
sustainable exploration pathways beyond low-Earth orbit (LEO). As a 
result, significant progress has been made and there is now a consensus 
among NASA and the participating ISECG agencies that the next steps for 
human exploration include sending humans beyond LEO to destinations 
such as near-Earth asteroids, the Moon, and eventually Mars. In 
preparation, it is important to maximize the use of the ISS as a unique 
space-based research and technology testbed. Specific international 
cooperation with NASA in its beyond-LEO exploration architecture will 
be defined as NASA's human space exploration strategic planning and 
analysis advance, and specific near-term opportunities for the SLS and 
Orion MPCV, as well as technology demonstrations, will be explored as 
these programs develop.
Commercial Crew Development
    Question 8. Commercial Market Potential: Please provide details 
regarding who, other than the U.S. or other government, can be expected 
to buy crew launch capacity from the commercial carriers you are 
currently paying to design commercial human crew launch capacity? Is 
this market big enough for multiple commercial crew companies? Please 
provide specific projections justifying your conclusions and a detailed 
basis for those estimates.
    Answer. On April 27, 2011, NASA submitted to Congress, ``Commercial 
Market Assessment for Crew and Cargo Systems Pursuant to Section 403 of 
the NASA Authorization Act of 2010 (P.L. 111-267)''. This report 
assessed the market for commercial crew and cargo services, ranging 
from space tourism to research and development to national interests. 
Over time, the commercial markets identified in this report hold the 
strong promise of significantly more customers, more flights, and 
potentially lower prices to the U.S. Government.

    Question 9. Prioritization of funding: As noted previously, NASA's 
proposed FY 2013 budget includes a significant reduction in vehicle 
development funding for the combined Orion/MPCV and Space Launch 
System, while also proposing a $423 million increase in funding for 
commercial crew development, well above the amount authorized for FY 
2013. Both programs have been given equal priority in the agreements 
between the Congress and the Administration reached last year. Please 
explain this decision to decrease Orion/MPCV and SLS vehicle 
development to levels even below what had been presented for the 
Independent Cost Assessment conducted mid-year in 2011, coupled with 
the dramatic requested increase in funding for the commercial crew 
program.
    Answer. Please see responses to questions 1 and 3 vis. SLS and 
Orion MPCV. During the FY 2013 budget development process, NASA strove 
to strike the right balance among all our human spaceflight 
capabilities. The $830 million requested for the Commercial Crew 
Program was believed to be the amount necessary in FY 2013 to achieve 
safe, reliable, cost effective ISS crew transportation capability by 
2017. As the primary means to U.S. access to the ISS, NASA wanted to 
take all steps necessary to provide assured crew access to the ISS and 
to eliminate our sole reliance on foreign systems.

    Question 10. Commercial Crew Acquisition Strategy: NASA's budget 
documents indicate that in the transition from the Space Act Agreement 
phase to a certification phase for Commercial Crew development, NASA 
will have to ``accommodate redesign as necessary to ensure compliance 
with agency requirements''. What is NASA doing to minimize the 
potential for having to significantly redesign commercial partners' 
crew systems to ensure they meet agency requirements? Does NASA have an 
estimate as to how much it might cost to ensure compliance? Do the 
savings presented by using a space act agreement outweigh the lack of 
insight and oversight provided by a space act agreement?
    Answer. NASA plans to use a Federal Acquisition Regulation (FAR)-
based contract for certification of commercial systems prior to flying 
crew on these systems. NASA intends to structure the certification 
phase following the Commercial Crew Integrated Capability (CCiCAP) 
effort to permit the Agency to fully evaluate the proposed systems and 
accommodate any necessary redesign to ensure compliance with NASA 
safety, performance, and mission success requirements. The provider(s) 
awarded a certification contract will not only be required to meet the 
NASA requirements in order to fly NASA personnel, but they will also 
have to show verified compliance of how the design and hardware will 
meet these requirements. Thus, there will be no reduction in the safety 
expectations or requirements as a result of this change in acquisition 
strategy.
    Delaying the use of FAR-based contracts will prevent NASA from 
mandating compliance with certification requirements during the next 
phase of SAAs. However, NASA will address this issue in several ways. 
First, NASA has released the baseline set of safety, performance, and 
mission success requirements to all of industry. NASA also has made 
these requirements available to all providers as reference under the 
CCiCAP effort. Although compliance with these requirements is optional 
for industry under a funded SAA, NASA anticipates that providers will 
use the NASA requirements to inform their development activities, 
thereby reducing the technical risk associated with the lack of NASA 
oversight under an SAA. Because NASA plans to have more than one 
company in the next phase of SAAs, we believe the competitive 
environment provides strong incentive for the companies to align with 
NASA's certification requirements in order to remain competitive in the 
future certification and services phases.
    Third, NASA included an ``Overall Safety Goal'' in the CCiCAP 
Announcement for Proposals (see page 3 of the Announcement) which 
states:

        ``Successful commercial human space flight demands the highest 
        commitment to safety; therefore NASA has the goal of fostering 
        a safety culture in the commercial space flight industry that 
        ultimately will minimize the risks associated with human space 
        flight to LEO. NASA's goal is for Participants to demonstrate 
        safety processes that include strong inline checks and 
        balances, healthy tension between responsible organizations, 
        value-added independent assessments and appropriate data 
        archival, which will increase Government confidence in the 
        Participant's approach to safety.''

    As a result, NASA will have increased insight into the providers' 
approach to safety during CCiCAP as the providers meet their milestones 
associated with the CCiCAP agreements.

    Question 11. Is NASA comfortable that the level of insight and 
oversight during this critical phase of development is sufficient to 
provide the government with information it needs to eventually certify 
a vehicle and ensure obtaining the best price possible when buying 
commercial crew services?
    Answer. NASA is comfortable with the level of insight and oversight 
currently planned for the CCiCAP development phase. In addition, our 
partners have a complete list of the NASA safety and performance 
requirements to which their crew transportation systems will be 
certified. The next phase of the plan calls for crew transportation 
system certification activities to be conducted using a FAR based 
acquisition.

    Question 12. Impact of Funding Levels Less than Requested: Please 
describe the impact on the commercial crew program should Congress 
decide to continue funding the program at or near the level 
appropriated for FY 2012. Provide anticipated impacts for each of 
several potential funding levels in $100M increments less than the 
requested amount, to an amount equal to the FY 2012 appropriations 
level. Include in those projections the impacts on anticipated time-
frame for achieving the first commercial crew flight to the 
International Space Station, and what specific steps the program would 
need to take to adjust to these respective funding levels.
    Answer. NASA has not performed an assessment of impacts of lower 
than requested funding levels in FY 2013. During the FY 2013 budget 
development process, NASA strove to strike the right balance among our 
human exploration capabilities. Based on the many needs in FY 2013, the 
Agency submitted a request for $830M for FY 2013 for the Commercial 
Crew Program. This amount was believed to be the amount necessary in FY 
2013 to achieve safe, reliable, cost effective crew transportation 
capability likely by 2017 (although earlier availability of services is 
not precluded).

    Question 13. Commercial Space Regulations: Eventually, commercial 
space flight activity may be regulated, at least in part, by the FAA. 
As you know, there is currently a moratorium on FAA issuing such 
regulations. To what extent is NASA planning to facilitate or 
participate with FAA in the preparations leading to formulation of 
commercial space regulations?
    Answer. Both NASA and the Federal Aviation Administration (FAA) 
envision a state where the FAA licenses commercial human spaceflights 
provided by a robust industry, from which NASA and the private sector 
can purchase transportation services. The FAA has already developed 
processes and procedures for licensing and regulating commercial space 
activities to protect the safety of the public. NASA and FAA have 
complementary and interdependent interests in ensuring that 
commercially-developed human-rated systems and vehicles for low-Earth 
orbit are effective and safe. Both agencies seek to avoid conflicts 
between their requirements or duplicating each other's roles. NASA and 
FAA will be working together to ensure that commercial providers are 
subject to a coordinated and complementary set of requirements and 
regulations when providing services to NASA.
ISS National Laboratory
    Question 14. Non-NASA Research: As you know, the Congress has 
designated the U.S. Segment (including bartered assets in partner-
provided facilities) of the International Space Station as a National 
Laboratory. It has essentially divided that segment into two halves, 
operationally, and required the establishment of a Cooperative 
Agreement with an independent entity, organized specifically for the 
purposes of managing non-NASA research in the fifty percent of the U.S. 
segment allocated to it by law. As you know, this activity has been 
slow in getting put in place. Can you bring the Committee up to date on 
the progress in getting research up and running in the non-NASA portion 
of the National Laboratory?
    Answer. CASIS has made significant progress in establishing its 
research program. It has appointed an Interim Chief Scientist, Dr. 
Timothy Yeatman, who has extensive experience in biomedical research 
and in industry, and an Interim Scientific Collegium. The interim 
Scientific Collegium members include:

  <bullet> Leroy Hood, M.D., Ph.D. <bullet> President/Co-founder 
        Institute for Systems Biology <bullet> Member, National Academy 
        of Science, National Academy of Engineering, Institute of 
        Medicine and National Inventors Hall of Fame (Also invented the 
        DNA sequencer/synthesizer) <bullet> Founder of 14 companies 
        including Amgen, Applied Bio systems and Integrated Diagnostic

  <bullet> Walter Chazin, Ph.D. <bullet> Professor, Biochemistry and 
        Physics Vanderbilt University <bullet> Director, Center for 
        Structural Biology and Ingram Professor of Cancer Research 
        <bullet> Instrumental in the development of structural biology 
        and molecular biophysics (involves complementary application of 
        different structural approaches including spectroscopy, 
        scattering, crystallography and microscopy) <bullet> Research 
        focused on multi-protein complexes, 3-D structures and 
        characterization of binding interfaces/interactions

  <bullet> Arnold Levine, Ph.D. <bullet> Professor, Institute of 
        Advanced Study, Princeton University <bullet> Professor, 
        Department of Biochemistry, Robert Wood Johnson Medical School 
        <bullet> Former President and CEO of Rockefeller University 
        <bullet> Recipient of American Cancer Society Medal of Honor 
        <bullet> Co-Discoverer of p53 tumor suppressor gene

  <bullet> Torben Orntoft, Ph.D. <bullet> Head, Department of Molecular 
        Medicine, Aarhus University, Denmark. <bullet> CEO of AROS 
        Applied Biochemistry <bullet> Member, European Academy of 
        Cancer Sciences <bullet> Member, Scientific Advisory Board, 
        Novo Nordisk <bullet> Research focused on identification of 
        molecular biomarkers for use in disease classification and 
        prediction

  <bullet> Jeffrey Trent, Ph.D. <bullet> President, Translational 
        Genomics Research Institute <bullet> Founding Scientific 
        Director, Intramural Research for the Human Genome Research 
        Institute, NIH <bullet> Member, multiple commercial company 
        scientific advisory boards.

    The Interim Scientific Collegium has reviewed past NASA-sponsored 
research in biology and biotechnology and has identified several areas 
of initial interest. The group has consulted with major pharmaceutical 
companies to determine market potential. CASIS has structured its first 
research solicitation, planned for release this June, around the 
findings of the Collegium.

    Question 15. National Lab Designation: One of the driving factors 
in the National Laboratory designation--and especially in the 
requirement for an independent entity to manage half of the research 
conducted in the U.S. Segment was to ensure that research planned for 
the station would not be subject to changes in NASA research 
requirements and priorities. What are you doing to ensure that the 
independent entity with which you have a Cooperative Agreement actually 
remains independent and free from those kinds of changes in NASA 
priorities?
    Answer. Under the cooperative agreement, CASIS is free to work with 
NASA whenever CASIS's objectives will benefit from access to NASA 
facilities or capabilities. However, NASA has no control or influence 
on the research directions chosen by CASIS. All of the NASA personnel 
responsible for communication with CASIS understand this principle. 
CASIS has not been asked to coordinate its research with NASA, or to 
align its objectives with NASA priorities, other than to fully utilize 
the ISS by conducting significant, highly meritorious research.

    Question 16. National Lab Research Processing: One purpose of the 
independent National Laboratory management role is to ensure equal 
opportunity for Principal Investigators to prepare and submit research 
proposals to, in effect, compete for access to the resources of the ISS 
National Laboratory. To enable the preparation of those research 
proposals, the underlying ``rules'' of the proposal and selection 
processes must be published and available for information and 
understanding of the criteria that will serve as the bases for 
selection. Have these ``rules,'' or guidelines and procedures been 
established, disseminated and explained by the Independent management 
entity? If not, what is the expectation of the availability of that 
information? What role has NASA played or will it expect to play in the 
development of those guidelines and procedures?
    Answer. The cooperative agreement with CASIS requires that resource 
prioritization decisions be made ``. . .using a fair, transparent, and 
impartial selection process that maximizes value of the ISS investment 
made by the Nation.'' The valuation framework that will be employed to 
determine the merit of competing projects is one of the third quarter 
deliverables identified in the 2012 Annual Program Plan.

    Question 17. ISS Logistics and Supportability: What is the impact 
of the latest delay of the first mission of SpaceX's Falcon 9 to the 
ISS on the utilization of ISS given that initial planned milestones 
have been delayed and GAO reported as late as November 2011 that SpaceX 
was scheduled to fly 3 fully operational resupply missions to the ISS 
in 2012? At what point, without augmentation from planned commercial 
cargo delivery capability, will the ISS begin to experience shortfalls 
in the necessary supplies to support ISS crew and science? Please 
provide a timeline for such potential shortfalls and details regarding 
NASA and its partners' contingency response should they be experienced.
    Answer. On May 22, 2012, SpaceX launched its second COTS 
demonstration flight, and three days later, the Dragon spacecraft was 
berthed to the ISS. The mission, which accomplished the remaining COTS 
demonstration goals for SpaceX, was brought to a successful conclusion 
on May 31, with the deorbiting and splashdown of the Dragon capsule. 
NASA expects Orbital to complete the on-orbit COTS demonstration to ISS 
this year.
    NASA anticipated a delay in CRS resupply services and has 
adequately provisioned the ISS with maintenance, operational and 
utilization support cargo to sustain a delay into 2013. NASA is 
currently working with SpaceX and Orbital to complete the first CRS 
flight in FY 2012 and four additional flights in FY 2013. NASA is also 
working with its International Partners to prioritize utilization cargo 
over other cargo if necessary to meet our utilization goals. Given that 
the ISS is continually being resupplied by the Partner vehicles, 
Progress, ATV and HTV, and that the CRS missions are expected to begin 
in the summer/fall time-frame of this year, NASA does not expect 
shortfalls in utilization.
James Webb Space Telescope (JWST)
    Question 18. JWST Funding Impact on Other Programs: We have agreed 
on the importance of moving forward with the JWST program. However, 
with a constrained to-line funding level for NASA, the replan for the 
JWST project has meant that tough decisions had to be made at the 
expense of other projects and activities in the 2015 through 2018 time 
frame. Can you outline what projects and activities in NASA's portfolio 
were terminated or scaled back to accommodate the JWST project's 
lifecycle cost increase? Additionally, what other constraints is the 
agency dealing with due to the JWST delay, such as test facility 
access, and how is the agency addressing these issues to minimize the 
impact on other ongoing projects?
    Answer. NASA's FY 2013 budget request identifies four key 
priorities to be funded in this constrained fiscal environment: ISS 
sustainment and utilization using commercial crew and cargo services; 
Space Launch System and Orion Multi-Purpose Crew Vehicle; JWST; and new 
technologies. In view of these four key priorities for NASA (not just 
JWST) and of our constrained fiscal environment, we will not be moving 
forward with the 2016 and 2018 ExoMars missions that we had been 
studying with the European Space Agency. Instead, NASA is developing a 
new, integrated strategy for Mars missions to ensure that the next 
steps for Mars exploration will support science, as well as longer-term 
human exploration goals, and take advantage of advanced space 
technology developments. NASA will complete this integrated plan, 
including the framework for a mission to take advantage of the 2018 or 
2020 launch opportunities, no later than this summer. In addition, NASA 
is slowing the ramp-up of some current science projects and delaying 
the start of some future ones, such as slowing the rate of solicitation 
for new competed missions, in the notional outyear budget projection in 
the FY 2013 Budget. Finally, NASA will be unable to initiate 
development of the highest priority new large mission recommended by 
the NRC's 2010 Astrophysics decadal survey--the Wide-Field InfraRed 
Survey Telescope (WFIRST) until JWST development is largely complete. 
With regard to test facility access, NASA is actively managing the 
movement of JWST, the Magnetospheric Multiscale (MMS) mission, and the 
Global Precipitation Measurement (GPM) mission through the available 
facilities given their overlapping schedules, and we have resolved the 
schedule conflicts in a manner that removes the pressure of requiring 
multiple missions to have perfectly timed entrance and exit from 
difficult testing periods. In so doing, we have minimized the risks to 
all three missions. It is important to note that this situation was not 
driven solely by the delay in JWST development, as MMS and GPM have 
also had internal schedule challenges.
Miscellaneous Issues
    Question 19. Astronaut Selection: NASA recently reported a record 
number of astronaut applications even though the size of the astronaut 
office is less than half the previous number of positions before the 
end of the Space Shuttle program. What do you believe is driving that? 
Can you provide for the record a summary of the stated reasons given by 
the applicants for this high level of interest?
    Answer. Being an astronaut is an aspiration many people have their 
entire lives, and this response indicates that many thousands would 
love to be a part of our continuing human spaceflight program as part 
of the Astronaut Corps.
    Since we do not have a survey mechanism as part of the application 
process, there is no way for us to know for certain why so many people 
applied this year. We feel the dramatic increase in applicants for this 
application window is likely due to any combination of factors--
including the high-visibility of NASA in the news as we transitioned 
from the space shuttle to International Space Station and a redesigned 
USA JOBS application process.
    The agency executed a comprehensive communications campaign to 
ensure the public knew about this opportunity. The public affairs team 
not only utilized traditional communications techniques and mainstream 
media, but also capitalized on social media channels (such as Twitter, 
YouTube, Facebook and blogs) to raise awareness of this job 
opportunity. The agency also encouraged employees and astronauts to 
share information via their own personal and professional networks and 
at speaking events and appearances, created Public Service 
Announcements (PSA's) that were made available online for radio and 
television use, and reached out to all branches of the U.S. military to 
ensure they had information they could share with their members.

    Question 20. Mars Exploration Program: This Budget has raised 
concerns in the planetary science and international space community 
about the reductions in planned Mars Exploration programs. Can you 
address those concerns, and explain how you intend to reaffirm the 
country's interest in these programs--and our reliability as an 
international partner in future joint cooperative missions?
    Answer. The NASA Administrator has directed the Associate 
Administrator for the Science Mission Directorate to lead Mars program 
reformulation activities working with the Associate Administrator for 
Human Exploration and Operations Directorate, the NASA Chief 
Technologist, and the NASA Chief Scientist. In support of this 
reformulation, NASA has established a Mars Program Planning Group 
(MPPG), to develop options for a program-level architecture for robotic 
exploration of Mars that is consistent with the President's challenge 
of sending humans to orbit Mars in the decade of the 2030s, responsive 
to the primary scientific goals of the 2011 NRC Decadal Survey for 
Planetary Science, and consistent with the President's FY 2013 budget 
request. The MPPG is expected to identify potential investigations and 
options in sufficient detail for NASA to be able to select and initiate 
high pay-off mission(s) beginning with the 2018 launch opportunity, and 
to facilitate NASA's decision-making process for a reformulated Mars 
Exploration Program. In concert with the Mars Exploration Program the 
MPPG will communicate with customers, stakeholders and partners to 
ensure a collaborative and responsive set of investigations and 
options, This process will inform NASA's development of its FY 2014 
budget submission.
    We plan to actively engage ESA and the Canadian Space Agency in the 
next few weeks, seeking their input and engagement with the Mars 
Program's reformulation as early as practicable. We also intend to 
engage the broader international community in May through the 
established International Mars Exploration Working Group (IMEWG), an ad 
hoc organization of Space Agencies that was formed in 1993 to 
facilitate coordination among the world's Mars-faring nations.
    NASA has a long history of very successful cooperation with nations 
around the world, and a part of that history has from time to time 
included some decisions by NASA and some by our international partners 
to re-phase or re-design or even terminate planned cooperative 
activities. Our partners are very aware that in all instances our 
cooperation is based on the availability of appropriated funds, just as 
we are aware that their participation has similar funding constraints. 
Consistent with the National Space Policy and the Space Act, NASA will 
continue to pursue international cooperation in support of its 
activities and mutual objectives. Currently, NASA has over 500 active 
agreements with over 100 countries and anticipates that international 
cooperation will remain a cornerstone of all of its future activities.

    Question 21. Alternative Mars Exploration Planning Activities: 
During the hearing you said, regarding Mars Exploration program future 
planning, ``However, we are now developing a new integrated strategy 
for Mars missions to ensure that the next steps to Mars exploration 
will support the science objectives that were laid out in ExoMars, the 
priorities established by the National Research Council's decadal 
survey on planetary science, and also support our human exploration.'' 
Please provide your timetable and details on how you are developing 
this new integrated strategy. Lessons Learned: Historically, many NASA 
projects have experienced cost increases and schedule delays, whereas 
the GRAIL and Juno projects both launched on schedule and are currently 
within budget. What practices or procedures allowed these projects to 
meet their baseline? To what extent are lessons from those programs 
applicable--and being applied--to a broader array of NASA program 
activities?
    Answer. As noted above, NASA has established a senior leadership 
team focused on reformulating the Mars program and has set up a Mars 
Program Planning Group (MPPG). The MPPG will develop options for a 
program-level architecture for robotic exploration of Mars that is 
consistent with the President's challenge of sending humans to orbit 
Mars in the decade of the 2030s, responsive to the primary scientific 
goals of the 2011 NRC Decadal Survey for Planetary Science, and 
consistent with the President's FY 2013 budget request. The MPPG will 
provide NASA with progress reports in April, June, and August. These 
reports will provide senior NASA leadership with decision-making 
opportunities to steer the MPPG in investigation and architecture 
options, and the Mars Exploration Program in associated budget 
development, culminating in a presentation of options in August. We 
anticipate that NASA will be able to brief the relevant Congressional 
Committees on progress periodically through the summer, and will be 
able to provide more detailed briefings on a proposed mission 
architecture after the release of the President's FY 2014 budget 
request in early 2013.
    Lessons Learned: NASA's experience with managing the development of 
challenging, one-of-a-kind science missions has led to several lessons 
identified and applied to all new programs. These lessons have resulted 
in updates to NASA's formal procedural requirements documents for 
management of all NASA-developed spaceflight programs and projects. 
Specific steps NASA has taken include:

  <ctr-circle> Establishment of joint cost and schedule confidence 
        level (JCL)-based life cycle cost budgeting that improves the 
        understanding of the complexities and risks associated with a 
        development result in more accurate estimates of cost and 
        schedule as evidenced by the recent performance of Juno and 
        GRAIL;

  <ctr-circle> Requirement that projects implement Earned Value 
        Management (EVM) systems to weigh technical progress against 
        expenditure of funds on a monthly basis provide early 
        indicators of issues;

  <ctr-circle> Extended duration Phase B definition and preliminary 
        design to allow for technology maturation and through system 
        engineering to better characterize the risks to be retired 
        during development and identify unique integration and test 
        needs;

  <ctr-circle> Use of a formal acquisition strategy process before and 
        during Phase A to define program management structure and 
        Center and contractor roles in a way that best fit the project 
        under consideration;

  <ctr-circle> Strong independent reviews at key points in the 
        development to verify that the project is making progress per 
        its plan and to offer additional insights based on the 
        independent review teams experience; and,

  <ctr-circle> Regular reviews with senior NASA management to assure 
        that project concerns are addressed quickly to avoid cost and 
        schedule implications.

    Question 22. (Launch Vehicle Access): GAO recently reported that 9 
major projects experienced issues with launch vehicles, including 
increasing costs and availability of launch vehicles. Additionally, GAO 
also made a recommendation in its duplication mandate report on the 
need for increased coordination between NASA, DOD and NRO on the 
acquisition of launch vehicles. Is NASA actively addressing this issue, 
given the impact that this issue could have on the cost of current 
projects? How does NASA plan to pursue coordination with DOD and NRO to 
increase efficiency in the acquisition of launch vehicles?
    Answer. Yes--NASA is actively addressing both issues identified by 
the GAO. The first part of your inquiry is from the GAO's March 2012 
report, ``NASA: Assessments of Selected Large-Scale Projects.'' The GAO 
identified 20 programs and projects with space launch related aspects 
in this report. As you note, the GAO identified nine of those projects 
as having ``launch issues.'' In NASA's view, six of the nine missions 
do not have launch issues of note since they have either already 
successfully launched (GRAIL & NPP); or have launch service contracts 
in place and are on track for launch (LADEE, MAVEN & TDRS); or are in 
the early stages of development (SPP). NASA agrees there are three 
medium-class missions with launch issues to resolve (ICESat-2, SMAP & 
OCO-2). ICESat-2 identified in the GAO report that launch service cost 
was its challenge, thus the NASA Launch Services Program (LSP) is 
working with the project to identify and develop launch alternatives to 
meet their needs in time for a CY2016 launch. SMAP and OCO-2 identified 
in the GAO report that launch vehicle availability was their issue. 
NASA's LSP recently terminated the Taurus XL launch service task order 
(LSTO) for OCO-2 due to the Orbital Science Corporation's inability to 
determine the root cause for the previous two Taurus XL launch 
failures. On February 3, 2012, NASA LSP released a Request for Launch 
Service Proposal to industry to begin the competitive process to 
provide a commercial launch service for SMAP and a new commercial 
launch service for OCO-2. Awards are expected in the July 2012 
timeframe.
    The second part of your inquiry is from the GAO's February 2012 
report, ``2012 Annual Report: Opportunities to Reduce Duplication, 
Overlap and Fragmentation, Achieve Savings, and Enhance Revenue.'' 
Section 23 of this report deals with ``Space Launch Contract Costs'' 
and has as its premise that ``Increased collaboration between the 
Department of Defense and National Aeronautics and Space Administration 
could reduce launch contracting duplication.'' This section of the GAO 
report is written specifically on the procurement of Evolved Expendable 
Launch Vehicles (EELVs) which are ``intermediate'' and ``heavy'' class 
launch vehicles provided by United Launch Alliance (ULA). NASA, 
together with the Air Force and NRO are already actively addressing the 
issue of increased coordination and we provide the following as 
evidence. First, the NASA Administrator meets with the Secretary of the 
Air Force and the Director of the NRO quarterly to discuss and 
coordinate activities on multiple topics of mutual interest. The formal 
commitment to continue our coordination efforts was put in place via a 
Letter of Intent that was signed by the three Agency heads in October 
2010. A Memorandum of Understanding (MOU) on Evolved Expendable Launch 
Vehicles (EELVs) was signed by the three Agency heads in March 2011 and 
formalized what had been a long-standing informal process of 
coordination between the NASA Launch Services Program Manager and her 
counterparts within the Air Force and NRO. This MOU established a 
``Government Expendable Launch Vehicle (ELV) Executive Board as a forum 
for interagency communication of acquisition, certification, and 
programmatic ELV launch issues.'' This forum meets on a quarterly basis 
and is ``the mechanism to implement the block buy strategy, baseline 
and modify EELV launch requirements, and enable resolution of EELV 
programmatic issues to provide clear direction to launch providers.'' 
The additional signing of the Coordinated Strategy for New Entrant 
Launch Vehicle Certification in October 2011 is further evidence of our 
close work together for launch service acquisition. As NASA identifies 
its launch vehicle needs through our competitive process, and if those 
identified needs includes EELVs, those acquisition plans will be 
coordinated with the Air Force and the NRO in order to maximize the 
U.S. Government's buying power.

    Question 23. Education Program Reductions: The proposed Education 
budget is down approximately 30 percent. How will NASA further our 
scientific advancement and contribute to our economic and technological 
viability and competitiveness if it is unable or unwilling to invest in 
educating our Nation on the advantages and benefits of Science, 
Technology, Engineering and Mathematics? What steps are you taking to 
ensure NASA can continue to make an important contribution in this 
area?
    Answer. NASA brings many assets to support the Administration's 
emphasis on science, technology, engineering and mathematics (STEM) 
education beyond funding. Our people, platforms like the International 
Space Station, and our facilities across the Nation all contribute to 
strengthening STEM education. Though funding is being reduced in 
alignment with the Administration's priority on focusing limited funds, 
NASA remains committed to advancing high quality STEM education using 
NASA's unique capabilities, and to leveraging our contributions with 
Federal and other partners as they tackle the STEM challenges we face. 
NASA will align its funding on the priority STEM issues identified by 
the National Science Technology Council (NSTC) Committee on STEM 
Education through grants, cooperative agreements, internships, 
fellowships and other hands-on experiences for learners, educators and 
institutions.
    The FY 2013 request is $100.0M, a $38.4M or 28 percent decrease 
from the FY 2012 request ($138.4M) and the FY 2012 Effective Planning 
Level ($138.4M). The FY 2013 request includes:

  <bullet> $24.0M for Space Grant, a nationwide network of colleges, 
        universities, and other organizations that provide NASA space-
        related opportunities to students, educators, and the public.

  <bullet> $9.0M for EPSCoR, which provides competitive research 
        opportunities to institutions in targeted states.

  <bullet> $30.0M for MUREP, which provides competitive NASA research 
        and study opportunities to students of underserved and 
        underrepresented groups and competitive opportunities to 
        enhance the research and technology capabilities of Minority 
        Institutions.

  <bullet> $37.0M for STEM Education and Accountability projects, which 
        provide competitive opportunities, foster innovative education 
        efforts at NASA Centers and through grantees, and formal 
        evaluation activities.

    To offset some of the impacts, NASA is increasing its emphasis on 
strategic partnerships. The Agency currently has an open partnership 
announcement available at http://www.nasa.gov/offices/education/about/
NASA_Seeks_Collaborators.html. NASA seeks unfunded collaborations with 
organizations to enhance its ability to achieve its strategic goals, 
outcomes, and objectives as they relate to education and as articulated 
in the 2011 NASA Strategic Plan. This Announcement requests information 
from creative organizations with wide-ranging areas of expertise 
interested in collaborating with NASA in reaching new or broader 
audiences across a national scale.

    Question 24. Construction, Environmental Compliance and 
Restoration: During these times of belt tightening, please elaborate on 
the justification for what new and necessary construction or 
restoration NASA is funding with the proposed increase of 27 percent in 
this line of funding from FY 2012?
    Answer. The 27 percent increase in Construction and Environmental 
Compliance and Restoration (CECR) is primarily a result of continuing 
program requirements which were initially identified in December 2011 
in NASA's FY 2012 Initial Operating Plan, as well as requirements for 
the environmental clean-up effort at NASA's Santa Susana Field 
Laboratory site in California.
    The majority of these program requirements are for Space Launch 
Systems (SLS) and 21st Century Space Launch Complex. Exploration did 
not have FY 2012 Construction of Facilities in the President's Budget 
as these emerging programs did not exist early in the FY 2012 budgetary 
process. For example, SLS was not a program until May 2011. These 
funding increases from FY 2012 to FY 2013 are normal and expected as 
the program ramps up and the requirements become more defined.
    These construction projects are for manufacturing of the actual SLS 
flight hardware at Michoud Assembly Facility, modification of test 
stands for structural testing of the new SLS flight hardware at 
Marshall Space Flight Center, as well as, modifying launch and 
integration facilities at Kennedy Space Center for the new programs. 
While SLS is using as much of the existing infrastructure as is 
feasible, modifications for the new flight hardware are still required.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                       Neil deGrasse Tyson, Ph.D.

    Question 1. The long-term goal for our human space program is Mars. 
There have also been arguments for near term destinations such as the 
Moon, an asteroid, or perhaps an area in deep space on the far side of 
the Moon called ``L2.'' What are your thoughts on the need for NASA to 
balance achievable, near term destinations with longer term goals?
    Answer. An important question whose answer often gets mired in the 
pet destinations of those making the arguments. When the interstate 
highway system was proposed, the goals was never to just connect New 
York with LA. The goal was to connect as many places as there are to as 
many places as we could think of. Commerce, tourism, security, would 
all be enhanced by this. So too would our future in space. If we create 
a suite of launch vehicles, with variable launch capability, then needs 
at any one moment will determine the destination. Science on Mars? 
That's one configuration. Tourist jaunts to the near side of the Moon? 
That's another. Military needs to secure cislunar space? That's 
another. Mining on the far side of the moon or on an asteroid? That's 
yet another launch configuration. With this setup, the entire solar 
system transforms to become our backyard. And as long as frontiers are 
being crossed in these efforts, innovation follows like day follows 
night. You don't sequence our steps in space, you do it all.

    Question 2. What do you think are some of the most compelling 
destinations for NASA to target?
    Answer. Mars (life). Mars Moons (monitor mars). Lunar Poles (frozen 
water repository). Metallic asteroids (Mineral rich). Asteroids with 
orbits that cross that of Earth (we don't want to go extinct, do we?). 
Earth-Sun L2 (telescope haven). Far Side of the moon (great for radio 
telescopes and other work that requires radio-silence from Earth). 
Cislunar space (the new high ground). All destinations--(tourists will 
pay to go anywhere).
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                       Neil deGrasse Tyson, Ph.D.

    Question. You spoke eloquently about the importance of inspiring 
our nation to dream and seek adventure through advancement in STEM 
fields.
    Programs such as Nova scienceNOW engage students' interest and show 
them the role that science plays in their own communities. New Mexico 
is home to strong educational initiatives such as NASA's ``Launch and 
Learn'' program, and my state is proud to have many students that excel 
in STEM at a national level. But our country can do much more to 
support STEM education.
    Through your experience working with today's youth, could you share 
any lessons learned that could help us better prepare tomorrow's 
scientists?
    Answer. The problem is not the undereducated youth of today. It's 
the rampant science illiteracy of adults who control resources and 
opportunity and governments. An enlightened adult population (which 
outnumbers kids by a factor of five) would feel compelled to bring 
forth major science and technology initiatives in the country that 
could not help but get noticed by the next generation. In this way, the 
very act of engaging in frontier discovery becomes the force required 
to excite the next generation. On that level, you don't need government 
funded STEM education programs. The motivation would be drawn from the 
innovation flywheel set into motion by NASA and other agencies of 
discovery.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                       Neil deGrasse Tyson, Ph.D.

    Question 1. NASA Long-term Outlook. Dr. Tyson, in your latest book, 
Space Chronicles, you include a very insightful description of the 
political challenges facing NASA and the U.S. space program. One of the 
challenges you mention is the difficulty for the President. . .any 
President. . .to gain support for implementation of a goal that may not 
be reached until many years after he or she leaves office. 
Unfortunately the pursuit of space exploration beyond earth orbit is 
unavoidably a long-term undertaking. Can you provide us your thoughts 
on how such a long-term goal can be achieved? And what role do you see 
the Congress playing in that?
    Answer. You have challenges creating sustained funding any time the 
urge to fund one project or another issues forth from the portfolio of 
interest from one member of congress or another. This leaves the 
survival of the initiative up to the political winds of the moment, and 
especially whether the district of one Member stands to benefit 
directly compared with other districts. So people need to recognize the 
fundamental value to the Nation's economy that the fostering of an 
innovation nation can bring. When this happens, the decision to fund 
NASA is simply one of return on investment for the Nation and not one 
of whose district benefits directly from a flow of monies to it. I 
foresee the day when the electorate learns of this need and compels 
their representatives to fulfill this mission statement. Only then 
would the goals transcend partisan politics and possibly even politics 
itself. If this does not happen, America will continue to fade, while 
it applies feeble band-aids to problems thought to be solvable by 
funded programs that target them. It's hard to teach people how a 
culture can shift in attitude and goals and mission statements. Most 
people never have the occasion to think about the culture in which they 
are embedded. An innovation nation is just the force necessary to shift 
that culture to one that embraces the fruits of STEM fields. And you 
get an innovation nation practically for free with a fully funded NASA.

    Question 2. International Space Station. You have made the comment 
that you don't want to ``boldly go where hundreds have gone before,'' 
referring to low-Earth orbit, instead, you suggest expanding the space 
frontier into ``real'' exploration. I can agree with that sentiment. 
However, I also believe we have a responsibility to ensure the maximum 
utilization, especially in the near term, of the International Space 
Station. To date over 40 million students from all over the world have 
had direct educational interaction with the crew members and research 
aboard the ISS. Do you agree that the ISS has great value in helping to 
stimulate what you refer to as a ``science-focused'' society?
    Answer. I think the ISS as a designated National Laboratory was an 
excellent idea from the beginning. Any active presence in advancing a 
space frontier would be unthinkable without a permanent orbiting space 
station. Just don't expect the ISS to trigger a cultural shift in 
American innovation. And that's what we're after here. The cultural 
shift itself, brought about by advancing space frontiers, is what 
triggers interest in STEM fields like nothing else. The day we return 
to the Moon, or go on to Mars and asteroids and Lagrangian points with 
astronauts, the ISS will be long forgotten in the educational 
pipeline--as it should be--leaving it to serve the pure zero-G science 
interests that so much political capital of recent years has been 
invested to preserve.

    Question 3. Technological Innovation. You have spoken and written 
about the need to continue development of new technologies that will 
take us further into space exploration, and the risks we take if we 
cease exploration with current technologies and wait for those new 
technologies to ``arrive'', so to speak. Can you describe for us some 
of these risks and challenges, and perhaps talk about how to strike a 
balance, if that is what it requires, in times of shrinking budgets?
    Answer. In a free market capitalist democracy there is always money 
to invest when the return on investment is manifest. In this context, I 
do not fear shrinking budgets. Nor should anyone. The future economic 
health of the country is at stake. As for balancing risk and reward, 
the rewards are not solely the business that gets conducted in space 
(tourism, resource mining, military high ground, etc.), it's the effect 
of those granted patents have on Earth-borne problems and it's the 
effect that the advancing frontier has on ``everyone's'' vision of 
America's future. It's the broader outlook that will transform society, 
in which you no longer need programs to convince people--adults or 
kids--that it's good to embrace STEM fields. The metrics of success 
will not need to be the actual space achievements. The metrics of 
success will be how we as a nation learned to seek out and advance the 
frontier, and came to recognize that our future economic security and 
wealth depended on it.

    Question 4. Historical Moment of Significance. In your book, you 
described John F. Kennedy's call for putting a man on the moon as 
really ``a battle cry against communism.'' Lacking a ``race'' to the 
Moon or Mars, similar new ``sputnik moments'' sparking calls for new 
and innovative science, technology and research, have not been seen, or 
at least not broadly acknowledged. What do you believe will be the next 
real ``Sputnik moment,'' or has it happened, and just not been 
recognized?
    Answer. The nation is in the middle of a Sputnik moment and does 
not realize it because our culture has not successfully connected the 
dots between our investments in space and the overall health of our 
economy. Until that connection is made, we will continue to fade on the 
world stage.

    Question 5. NASA Economic Contribution. What aspects of the NASA's 
activities do you think have the greatest promise to help in the 
economic recovery of America?
    Answer. The cultural influence that a healthy NASA has on the 
country is its biggest force--powerful enough to create an innovation 
nation. As headlined flow like rivers from the frontier of space the 
urge to want to enter STEM field in the educational pipeline will be 
high without the need of a targeted program to enable it. This movement 
will not be about spinoffs. It will simply feed the urge to invent and 
innovate in the first place.

    Question 6. Government Role. You have made the point that, 
historically, it has been a role of governments to fund the great 
explorations of the past. Can you discuss your view of where the 
threshold is or should be between government support and a purely 
private sector-supported level of exploration? Or is that a matter of 
distinguishing between true, leading edge exploration versus 
utilization and routine operations?
    Answer. There can be no capital market valuation of the space 
frontier. Too expensive. Too dangerous. Unknown risks. If billionaires 
choose to do it, it will be a vanity project and not a business model. 
Private enterprise comes later, after the government advances the 
frontier, routines are established, patents are granted, and risks are 
assessed.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
